<html>
<title> - THE TRAJECTORY OF DEMOCRACY--WHY HUNGARY MATTERS</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





            THE TRAJECTORY OF DEMOCRACY_WHY HUNGARY MATTERS

=======================================================================

                                HEARING

                               before the

                       COMMISSION ON SECURITY AND
                         COOPERATION IN EUROPE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2013

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                   Available via http://www.csce.gov


                   
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-506                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                   
                   
                   
                   
                   
                   
                   
                   
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE                               HOUSE


BENJAMIN CARDIN, Maryland,           CHRISTOPHER SMITH, New Jersey,
  Chairman                             Co-Chairman
SHELDON WHITEHOUSE, Rhode Island     JOSEPH PITTS, Pennsylvania
TOM UDALL, New Mexico                ROBERT ADERHOLT, Alabama
JEANNE SHAHEEN, New Hampshire        PHIL GINGREY, Georgia
RICHARD BLUMENTHAL, Connecticut      MICHAEL BURGESS, Texas
ROGER WICKER, Mississippi            ALCEE HASTINGS, Florida
SAXBY CHAMBLISS, Georgia             LOUISE McINTOSH SLAUGHTER,
JOHN BOOZMAN, Arkansas                 New York  
                                     MIKE McINTYRE, North Carolina
                                     STEVE COHEN, Tennessee

                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
            THE TRAJECTORY OF DEMOCRACY--WHY HUNGARY MATTERS

                              ----------                              

                             MARCH 19, 2013
                             COMMISSIONERS

                                                                   Page
Hon. Benjamin L. Cardin, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1

                               WITNESSES

Brent Hartley, Deputy Assistant Secretary for European and 
  Eurasian Affairs, U.S. Department of State.....................     3
The Honorable Jozsef Szajer, Hungarian Member of the European 
  Parliament, Fidesz-Hungarian Civic Union.......................     8
Kim Lane Scheppele, Director of Program in Law and Public 
  Affairs, Princeton University..................................    20
Sylvana Habdank-Kolaczkowska, Director, Nations in Transit, 
  Freedom House..................................................    25
Paul A. Shapiro, Director, Center for Advanced Holocaust Studies, 
  United States Holocaust Memorial Museum........................    27

                               APPENDICES

Prepared Statement of Hon. Benjamin L. Cardin....................    34
Prepared Statement of Hon. Christopher Smith.....................    36
Prepared Statement of Brent Hartley..............................    37
Prepared Statement of Jozsef Szajer..............................    40
Prepared Statement of Kim Lane Scheppele.........................    43
Prepared Statement of Sylvana Habdank-Kolaczkowska...............    55
Prepared Statement of Paul A. Shapiro............................    57
Testimony Concerning the Condition of Religious Freedom in 
  Hungary, H. David Baer.........................................    68

 
            THE TRAJECTORY OF DEMOCRACY--WHY HUNGARY MATTERS

                              ----------                              


                             MARCH 19, 2013

  Commission on Security and Cooperation in Europe,
                                                    Washington, DC.
    The hearing was held at 3:00 p.m. EST in the Capitol 
Visitor Center, Senate Room 210-212, Washington, District of 
Columbia, Senator Benjamin L. Cardin, Chairman of the 
Commission on Security and Cooperation in Europe, presiding.
    Commissioners present: Hon. Benjamin L. Cardin, Chairman, 
Commission on Security and Cooperation in Europe.
    Witnesses present: Brent Hartley, Deputy Assistant 
secretary for European and Eurasian Affairs, U.S. Department of 
State; The Honorable Jozsef Szajer, Hungarian Member of the 
European Parliament, Fidesz-Hungarian Civic Union; Lane 
Scheppele, Director, Program in Law and Public Affairs, 
Princeton University; Sylvana Habdank-Kolaczkowska, Director 
for Nations in Transit, Freedom House; and Paul A. Shapiro, 
Director, Center for Advanced Holocaust Studies, United States 
Holocaust Memorial Museum.

  HON. BENJAMIN CARDIN, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cardin. Well, good afternoon, everyone, and thank you 
for being here. This is the first hearing of the Helsinki 
Commission in this Congress. I can't think of a more 
appropriate subject than to talk about the trajectory of 
democracy, why Hungary matters. I want to thank all of our 
witnesses for being here today. I particularly want to thank 
Mr. Szajer, who's here from Hungary to represent the 
government, or at least inform us, from the--from the country's 
point of view, what is happening in Hungary. That makes this 
hearing, I think, even more helpful to us. And I thank you very 
much for your participation.
    The progressive inclusion of post-communist countries into 
trans-Atlantic and European institutions reflected the 
expansion of democracy and shared values, as well as the 
realization of aspirations long denied. Indeed, in 1997 the 
Helsinki Commission held a series of hearings to examine the 
historic transition to democracy of post-communist candidate 
countries like Hungary prior to NATO expansion.
    I was one among many of the legislators that cheered when 
Hungary was--joined NATO in 1999, and again when Hungary joined 
the EU in 2004--illustrating not only Hungary's post-communist 
transformation, but also Hungary's ability to join alliances of 
its own choosing and follow a path of its own design. Hungary 
has been a valued friend and partner as we have sought to 
extend the benefits of democracy in Europe and elsewhere around 
the globe.
    But today concerns have arisen among Hungary's friends. We, 
the United States, value our friendship and our strategic 
relationship with Hungary. As a friend, we are concerned about 
the trajectory of democracy in that country. Over the past two 
years, Hungary has instituted sweeping and controversial 
changes to its constitutional framework, effectively remaking 
the country's entire legal foundation.
    This has included the adoption of a new constitution, 
already amended multiple times, including the adoption of a 
far-reaching fourth amendment just days ago, and hundreds of 
new laws on everything from elections, to the media, to 
religious organizations. More than that, these changes have 
affected the independence of judiciary, role of the 
constitutional court, the balance of power and the basic checks 
and balances that were in place to safeguard democracy.
    It seems to me that any country that would undertake such 
voluminous and profound changes would find itself in the 
spotlight. But these changes have also coincided with a rise of 
extremism and intolerance in Hungary. Mob demonstrations have 
continued to terrorize Roma neighborhoods. Fascist-era figures 
have been promoted in public discourse and the public places.
    A new law on religion stripped scores of minorities' faiths 
of their legal status as religious organizations overnight, 
including initially Coptic Christians, Mormons and the Reformed 
Jewish Congregation. Most have been unable to regain legal 
status, including the Evangelical Methodist Fellowship, a 
church that had to survive as an illegal church during the 
communist period and today serves many Roma communities.
    At the same time, the constituencies of Hungary have been 
redefined on an ethnic basis. Citizenship has been extended 
into neighboring states on an ethnic basis and voting rights 
now follow that. As the late Ambassador Max Kampelman once 
observed: Minorities are like the canary in the coal mine. In 
the end, democracy and minority rights stand or fall together--
if respect for minorities falls, democracy cannot be far 
behind. And the rights of persons belonging to ethnic, 
religious, and linguistic minority groups will likely suffer in 
the absence of a robust democracy.
    Max Kampelman, a long-time friend of the Helsinki 
Commission, served with distinction as the head of the U.S. 
delegation to the seminal 1990 Copenhagen meetings, where some 
of the most important democracy commitments ever articulated in 
the OSCE were adopted.
    The participating States, and I quote from that document, 
considered that ``the rule of law does not mean merely a formal 
legality which assures regularity and consistency in the 
achievement and enforcement of democratic order, but justice 
based on the recognition and full acceptance of the supreme 
value of the human personality and guaranteed by institutions 
providing a framework for its fullest expression. They reaffirm 
that democracy is an inherent element of the rule of law.''
    At issue now is whether Hungary's democratically elected 
government is steadily eroding the democratic norms to which 
Hungary has committed itself, in the OSCE and elsewhere. And we 
care about democracy in Hungary, for the people in Hungary as 
well as for the example it sets everywhere we seek to promote 
democracy.
    I welcome all of our witnesses today, and let me thank you 
all for being here. It really--I think this will be a hearing 
that will get a lot of information and be able together on 
these issues. Our first witness will be Brent Hartley, the 
deputy assistant secretary of state for European affairs. Mr. 
Hartley, thank you for being here. We welcome your testimony.

  BRENT HARTLEY, DEPUTY ASSISTANT SECRETARY FOR EUROPEAN AND 
           EURASIAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Hartley. Thank you very much, Mr. Chairman, for 
inviting me to join you today. I appreciate very much your 
continued interest in events in Hungary and in the OSCE more 
generally. I want to be clear at the outset and echo a bit what 
you said in your own statement. Hungary remains a strong ally 
of the United States. It is a valued member of two bedrock 
trans-Atlantic organizations--the Organization for Security and 
Cooperation in Europe and the North Atlantic Treaty 
Organization--which define and defend democracy in Europe and 
beyond.
    However, in the last two years we've been open about our 
concerns regarding the state of checks and balances and 
independence of key institutions in Hungary. The United States 
has not been alone in this regard, as the Council of Europe, 
the European Commission, other friends and allies of Hungary, 
and civil society organizations have expressed similar views. 
If the government of Hungary does not address these concerns, 
not only will the lives of Hungarian citizens be affected, but 
it will also set a bad precedent for OSCE participating states 
and new members of, and aspirants to, NATO.
    Last year marked the 90th anniversary of U.S.-Hungarian 
diplomatic relations: relations which remain strong, based on a 
common security architecture as NATO allies, a deep economic 
partnership and what we believe are fundamental values shared 
by the American and Hungarian people. However, before Secretary 
Clinton's June 2011 visit to Hungary, we took notice of 
Hungary's controversial media law and a new constitution, the 
Fundamental Law, portions of which also raised concerns among 
impartial observers. In both cases, we had concerns about the 
content as well as the process by which they were passed.
    As we have often said, Hungarian laws should be for 
Hungarians to decide. But the speed with which these laws were 
drafted and passed, and the lack of serious consultation with 
different sectors of Hungarian society, did not honor the 
democratic spirit that the people of Hungary have long 
embraced. Since then, the Hungarian parliament has passed 
scores of laws at an accelerated pace. More than a few of these 
laws posed threats, in our view, to systemic checks and 
balances and the independence of key institutions that are the 
bedrock of mature democracies. Privately and publicly, we 
expressed our concern to the government of Hungary, as did 
several European institutions and governments. Unfortunately, 
in many respects, our message went unheeded.
    When Hungary's Constitutional Court struck down a law on 
fiscal issues, the parliament swiftly passed another law taking 
away the court's competency to decide cases based on fiscal 
matters. The government expanded the Constitutional Court from 
11 to 15 members, allowing the current administration to select 
the additional justice--justices, and thereby alter the court's 
juridical balance. The new laws created a Media Council and 
gave it significant powers to oversee broadcast media, 
including the right to fine media for, quote, ``unbalanced 
coverage,'' end-quote, an unsettlingly vague term.
    No opposition parties are represented on Hungary's new 
Media Council. The council members have nine-year terms and 
cannot be removed without a two-thirds vote of parliament. The 
new laws also created a National Judicial Office and gave it a 
powerful, politically appointed president with a nine-year term 
and the authority to assign cases to any court she sees fit--a 
recipe for potential abuse. Another new law stripped over three 
hundred religious congregations or communities of their 
official recognition. To be clear, nonrecognized religious 
groups are still free to practice their faith in Hungary, but 
in order to regain legal status religions will have to be 
approved by two-thirds of parliament, an onerous and 
unnecessarily politicized mechanism.
    In mid-2012 as expressions of concern from the United 
States and Europeans mounted, the Hungarian government 
responding in constructive ways. The government voluntarily 
submitted many laws for review by the legal experts of the 
Council of Europe's Venice Commission. We were further 
heartened when, early this year, Hungary's Constitutional Court 
issued several rulings striking down controversial legislation, 
thus affirming its role in constitutional checks and balances.
    Unfortunately, the government drafted and swiftly passed a 
new constitutional amendment, the fourth amendment, on March 
11th, parts of which were reinstated laws that had just been 
struck down by the court. In doing so, the Hungarian government 
ignored pleas from the Council of Europe, the United States, 
the European Commission, and a number of allies, as well as 
several respected, nonpartisan Hungarian NGOs, to engage in a 
more careful, deliberative process and allow for Venice 
Commission review.
    I would like to address one other area that has provoked 
much concern: the rise of extremism in Hungary. This phenomenon 
is, sadly, not unique to Hungary. The rise in Hungary of the 
extremist Jobbik Party as one of the largest opposition groups 
in parliament, and Jobbik's affiliated paramilitary groups that 
incite violence, are a clear challenge to tolerance. Let me be 
clear, the ruling Fidesz party is not Jobbik. Fidesz' ideology 
is within the mainstream of center-right politics, and its 
platform is devoid of anti-Semitism or racism. Moreover, we 
have seen a growing willingness by Hungarian government leaders 
to condemn anti-Semitic acts and expressions.
    However, such condemnation is not always perhaps as swift 
or as resolute as it might be. One concern that some--one 
concern also is that some local governments in Hungary have, 
with little objection from the governing party, erected statues 
and memorials to figures from Hungary's past tainted by their 
support for fascism and anti-Semitism. And some of those 
figures have been reintroduced into the national educational 
curriculum without context. This contributes to a climate of 
acceptance of extremist ideology in which racism, anti-
Semitism, anti-Romani actions and other forms of intolerance 
can thrive. We also call upon Hungarian leaders to do more to 
defend Romani Hungarians, who face discrimination, racist 
speech and violence that too often goes unanswered.
    In conclusion, the United States has long enjoyed and 
benefitted from its strong alliance with Hungary and its 
people. We respect their drive for freedom and democracy that 
made Hungary the leader in bringing down the Iron Curtain. Just 
as we continue to do hard work together in Afghanistan and 
address other challenges around the globe, so too will we 
continue to have a sincere, and at times difficult, dialogue on 
the importance of resolutely upholding the fundamental values 
that bind us.
    Thank you, Mr. Chairman, for allowing me to express the 
State Department's views on these issues. And I'm available for 
your questions.
    Mr. Cardin. Mr. Hartley, thank you for your--for your 
comments. Let me just ask you a few points. Some of the trends 
that we see in Hungary, we see in other countries in Europe 
that have made progress towards democracy but seem to be now 
moving in the wrong direction. Hungary is indeed unique because 
it's our NATO ally. It also has advanced in integration in 
Europe.
    Is what is happening in Hungary--what impact does that have 
on giving strength to other countries that are now going 
through their second or third election cycle where they're 
taking action against opposition that many of us think is 
pretty extreme? Is it legitimating some of the other 
illegitimate actions in Europe? Is it having a concern that 
this could erode development in other countries?
    Mr. Hartley. Well, I think the short answer is that--is 
that there is a concern there. When Hungary and other new 
members of NATO and the OSCE joined--well, joined NATO after 
the fall of the--after the fall of the wall, and took up their 
positions and the--and the commitments they made in the OSCE 
following the fall of communism, they fundamentally agreed to a 
certain set of values--democratic values, and to support 
fundamental human rights.
    When an ally, an OSCE member and a member of the EU, such 
as Hungary, begins to take actions that call those commitments 
into question, then of course it's a concern, not only for the 
country itself--for Hungary itself--but for the example that it 
can set for others. The--as the--as the bounds of what is 
permissible gets stretched into directions that we think are 
causes for concern, it gives space for other countries to 
consider what the--and other governments to consider what they 
might do in the same vein. So there's a concern for the example 
it sets.
    Mr. Cardin. I've heard from other countries that have 
been--that we've had bilaterals with, that they'll use Hungary 
as an example to justify some of their own conduct and point 
out very clearly that NATO--that Hungary's one of our NATO 
allies, that again, by association, saying, well, America's OK 
with that, when in fact obviously we're not.
    You mentioned the rise of extremism, which is happening in 
many European countries. Jobbik, the party, is not part of 
government, but some of its actions have been identified with 
government. I specifically mention the case of Zsolt Bayer, who 
was--who is known for his anti-Semitic, anti-Roma comments, 
receiving recognition by one of the Cabinet members of the 
current government. There have been other activities of 
extremists that have been rehabilitated through recent 
recognition.
    That's a real troublesome sign to the Helsinki Commission. 
Do you have any views as to why government officials would be 
giving legitimacy to those types of extremist and outrageous 
individuals trying to legitimate their place in history?
    Mr. Hartley. Well, first of all, I don't--if I may, sir--I 
think Zsolt Bayer is--was a founding member of Fidesz. I don't 
think is a member of Jobbik.
    Mr. Cardin. No, he's not, but he received an award from the 
Cabinet officials, right?
    Mr. Hartley. Yeah. Yes. Yeah, just to clarify that point.
    Well, I'm--I know you've got a panel of other experts 
coming up who I think are probably in a better position to talk 
about the internal domestic calculations that might go into 
something like that. Certainly we are--we are disturbed by such 
actions. There was also a state award for journalism that was 
extended to a journalist just in the last several days, who has 
been known to make anti-Semitic and anti-Roma comments. And 
we--our embassy issued a statement today questioning that and 
suggesting that the government may want to look for a way to 
revoke that award.
    It is--it's disturbing when these things happen. As I--as I 
think I mentioned earlier in my statement, the tolerance of 
this--of intolerant acts simply gives more space and more room 
for extremist philosophies to grow. So we're--we've expressed 
our concern as a government on numerous occasions in the past 
when these sorts of things have happened, and we'll continue to 
keep a close watch.
    Mr. Cardin. Thank you. Some of these laws, we're obviously 
looking as to how they're going to be implemented. We had the 
Media Council that you've already referred to. We have the 
religions law. You have the court changes that were--some of 
which have been struck down by the courts. Now they're changing 
once again to try to reaffirm their positions. Do we have any 
indication in our conversations with the Hungarians as to 
whether they're reacting to some of our concerns--some of the 
international community's concerns in the way these laws will 
be implemented?
    Mr. Hartley. Well, I think we were encouraged over the 
course of 2012 by the dialogue--by the impact that the dialogue 
that we, the European Commission, the Council of Europe and 
others had with our Hungarian colleagues on a range of these 
issues. Unfortunately, as has been mentioned, we were 
disappointed that many of those positive steps with regard to 
the judiciary, media law, things like that, seemed to take a 
step backward with the adoption on March 11th of the--of this 
new constitutional amendment.
    We are heartened that the--again, in the spirit of 
friendship and in the spirit of engaging a country that is a 
co-member of NATO, and I think for others a co-member of the 
European Union--there's been I think more of a public 
commentary on the Hungarian government actions. We're pleased 
that they've--have apparently agreed to submit the fourth 
amendment to the Venice Commission for review. We had argued--
we'd supported the Secretary-General of the Council of Europe 
in his statement on March 6th, that perhaps they would want to 
do that before they adopt the law rather than after. We're--
they chose not to do that, but we're pleased that they'll go 
forward with that now.
    It is--but we--so I think that, you know, we're going to 
remain engaged with them in dialogue. It's clear that a number 
of their friends and allies in Europe--whether from 
international organizations or bilaterally--will be raising 
similar concerns. So we're hopeful that that dialogue will--
that they'll be--that they'll be responsive to that dialogue.
    Mr. Cardin. Let me tell you one of my major concerns. And 
that is that a lot of this is being done with minimal amount of 
transparency. It happens. There is no evidence of widespread 
corruption--at least I'm not aware of it--in the Hungarian 
government. So I will make clear my concern here. The lack of 
transparency in many cases lead to corruption. It's--you know, 
it's how people can get away with personal corruption, which 
ends up being pretty much part of government. And again, 
there's no indication of this that I know of in Hungary. But if 
the--if they condone a process that allows laws to be made and 
policies to be implemented with little accountability or 
transparency, it can breed a more serious problem within the 
government itself.
    Has that point been made by our people or Europe in regards 
to conversations with Hungary, the concerns about the process 
that they've been using in getting these laws passed?
    Mr. Hartley. The--thank you sir--the--yes, we have been 
very concerned about the process. I think you noted and I noted 
in my statement that we've--the speed with which the new 
constitution's been adopted, frequently--and other laws 
frequently with major amendments being made, you know, deep 
into the night before the--before the final vote--we've raised 
that repeatedly and consistently and have suggested that it 
would be a better process if they were to consult with the 
opposition in the Parliament to give them a chance to voice 
their views, if they were to consult with civil society and 
otherwise open up the process by which they consider and vote 
on legislation.
    Mr. Cardin. Which brings me to, I guess, the point that you 
raised, and that is it's up to Hungary to pass its own laws. 
It's a--it's an independent country, it's a democratic country. 
Laws they pass are subject to their system, and that we fully 
support and fully understand.
    Mr. Hartley. Yes, sir.
    Mr. Cardin. What is the appropriate role for the Council of 
Europe or the United States in pointing out or commenting on 
what is happening in Hungary, as far as their legislation is 
being enacted?
    Mr. Hartley. Well, I think--thank you for the question, 
sir--I think as most people are aware, the United States has 
never been terribly shy about offering advice at any level of 
government. The--and--but seriously, we take the commitments 
that we and other NATO allies and other members of the OSEE, we 
take those commitments very seriously. And regardless of 
where--what country or what government it may be, if those 
commitments, we feel, are not being fully observed or--in both 
spirit and letter, then we will voice our concerns.
    I am a little bit hesitant to speak for the Council of 
Europe on it, but the Council of Europe, as I understand it, is 
the keeper of the various human rights and other conventions 
that European governments sign up to when they--when they join 
the Council of Europe. And that is why the Council of Europe, 
and in particular, the Venice Commission, which is a body of 
legal experts, has played such an important role both in 
addressing some of the issues that have been presented in 
Hungary over the last couple of years, not to mention in other 
parts of Europe; for instance, the capacity-building in the 
Balkans and things like that.
    Mr. Cardin. Well, I agree with the assessment. We are both 
signatories to the OSCE, which gives us the right and actually, 
the responsibility to raise issues where we believe they are 
out of compliance with the commitments within the OSCE. We 
have--we will continue to report on human rights records of all 
countries, including the United States, including our 
commitments to Helsinki, with OSCE, we'll comment on that.
    So this--the--(inaudible)--question was sort of aimed at 
pointing out that we all have responsibilities to point out 
where we think they're out of compliance with their 
international or OSCE commitments, and that we have a right and 
responsibility to point that out. It's up to Hungary to pass 
the laws that they believe is right for the people of their own 
country.
    Mr. Hartley. That's right, sir.
    Mr. Cardin. Thank you very much, Mr. Hartley. Appreciate 
your testimony.
    Mr. Hartley. Thank you very much, sir. It's a pleasure to 
be here.
    Mr. Cardin. We will now go to Jozsef Szajer who has been 
asked by the government of Hungary to represent it here today.
    As I said in my opening statement and in my questions, that 
Hungary is a close friend to the United States, a NATO ally, a 
country that we share a common vision, and we very much 
appreciate the fact that you are present here today. Thank you.

     HON. JOZSEF SZAJER, HUNGARIAN MEMBER OF THE EUROPEAN 
            PARLIAMENT, FIDESZ-HUNGARIAN CIVIC UNION

    Mr. Szajer. Honorable Chairman Cardin, ladies and 
gentlemen, just by coincidence, two weeks ago, my caucus leader 
at the European Parliament--(inaudible)--asked me to--if the 
European Parliament is planning to introduce U.S. Congress-type 
hearings in the--in the European Parliament, and asked me to--
and appointed me on behalf of our political group, the EPP, to 
study it. I didn't think at that time that two days later, I 
will get a phone call from my foreign minister, and I will be 
just studying this event from inside immediately. But this is--
this is just what sometimes happens in life.
    Mr. Cardin. I'm glad we could be helpful to you in giving 
you the experience. (Laughter.)
    Mr. Szajer. Right, that will be helpful definitely to see 
inside from inside as much as from studying in the school 
books.
    Well, it's an honor for me and for my colleague, a member 
of the European Parliament, member of the Hungary Parliament, 
Gulyas Gergely, to share my views on the state of the Hungarian 
democracy. I am a founding member of Fidesz. Twenty five years 
ago, I was fighting against communism, and later in my capacity 
as member of the first freely-elected Hungarian Parliament, and 
since then, several times have participated in the preparation 
of almost every major constitutional change. Recently, I had 
the great honor of being the chairman of the drafting committee 
on the Fundamental Law of Hungary, which included some other 
members, including Gergely Gulyas.
    I also would like to commemorate that today is the 69th 
anniversary of when Hungary was occupied by the Nazi troops, 
taking of the final bits off our national independence.
    As a legislator myself, I would like to express my 
appreciation for your personal interest and the U.S. Congress 
interest the sovereign act of the Hungarian nation's historic 
constitution-making enterprise. I admire your great 
constitution, and we held it as a compass creating our new one. 
Just a reference to the previous speaker, I would like to say 
that our's was a little bit longer made, in nine months, 
compared to the United States Constitution. But we held it as a 
compass in creating our new one.
    Elected representatives of our great freedom-loving 
nations, the American and the Hungarian, should always find 
appropriate occasions to exchange on equal grounds views and 
experiences on matters of great importance. And what could be 
more important than a nation's constitution? And what could be 
more significant part of a nation's sovereignty than creating 
her own constitution?
    You in America gained your independence more than 200 years 
ago. In the course of our history, thousands of Hungarians died 
for Hungary's independence, but finally, we won it only a 
little more than 20 years ago, when the Soviet occupation 
finally ended. I was there. I was part of that generation which 
achieved it. And now, our task is to consolidate freedom and 
democracy.
    Hence, you should be aware of the high sensitivity of our 
nation towards questions of independence and self-
determination. We Hungarians, like you Americans, consider that 
our nation's own Constitution is an exercise in democracy that 
we should conduct ourselves. We listen to advice given in good 
faith; we learn from the experience of others, as we did in the 
preparation of our constitution from the South African to the 
Spanish constitution; we studied many examples. This is the 
very reason I am here, but we insist on our right to decide. 
This is democracy and self-determination that we have been 
fighting for so long.
    In the 2010 election, my party won a victory of rare 
magnitude, it has been already mentioned, obtaining a 
constitutional majority, more than two thirds of the seats in 
the National Assembly. The choice of the Hungarian people was a 
response to a deep economic, social and political crisis before 
2010. The mismanagement of public finances, public debt 
slipping out of control, the collapse of public security and 
skyrocketing corruption were among its symptoms. We also 
witnessed serious violations in basic human rights by the 
authorities; the most serious ones concerning the freedom of 
assembly in the autumn of 2006.
    At those difficult times, we were expecting the support of 
the democratic community, of the world, to speak out against 
state oppression of the citizens' freedoms. Unfortunately, the 
international community turned a blind eye. For your 
information, Mr. Chairman, I broke--I brought a book from--of 
those events of trespasses of the police against the violation 
of the right of assembly in 2006, which was one of the reasons 
why we won so big majority later on.
    Mr. Cardin. Thank you.
    Mr. Szajer. Public order was seriously challenged also by 
shocking events like the serial killings of our Roma 
compatriots with clear racist motivations and with the public 
authorities standing by, crippled.
    In 2010, we received a mandate and the corresponding 
responsibility to put an end to all that. A new constitution 
was long overdue. All Central and Eastern European countries 
except Hungary have adopted their new democratic constitutions 
long before. The Venice Commission welcomed efforts, and I 
quote,``made to establish a constitutional order in line with 
the common European democratic values and standards and to 
regulate fundamental rights and freedoms in compliance with the 
international instruments.'' This quote is closed.
    A few words on the recent amendment, which has been already 
subject of the discussion before. Ninety-five percent of these 
provisions, the so-called Fourth Amendment adopted last week, 
had been in effect since the entry into force of the new 
constitution in the form of the so-called Transitory Provisions 
of the Fundamental Law. We did not intend to change our 
Fundamental Law so soon after its adoption, but the 
Constitutional Court--and I would like to remind, better checks 
and balances are working in Hungary--annulled some of the 
transitionary provisions. The provision of the Court, based on 
the German constitutional doctrine of obligation of 
incorporation, which is a very specific doctrine, which the 
Constitutional Court applied, is that the Constitution should 
be one single act; therefore, what had to be done was basically 
copy-paste exercise to incorporate the Transitory Provisions to 
the main text, hence, the length of the new amendment.
    I also would like to remind on the basis of the previous 
exchange of views that in Hungary, the constitution cannot be 
adopted in an extraordinary procedure in Parliament, so that 
all the procedural requirements of adopting or amending the 
constitution have been met and it has been a public debate. It 
has been a constitutional discussion on this.
    Also, I would like to add that originally, when we adopted 
our--(inaudible)--constitution, we had a survey of 7 million 
voting-rights members of the Hungarian society, has been 
consulted by 12 different questions about the future 
constitution. This has been a nation rife with consultation, 1 
million responses have arrived--(inaudible).
    Back to the Fourth Amendment: The Fourth Amendment on the 
request of the Court and not against it, as some critics 
misleadingly claim. In fact, they do not understand what really 
could be here the problem. The recent bombastic headlines and 
judging editorials of certain newspapers failed to underpin 
their argument 'til now, and they are misleading the public.
    There are some new elements as well in the Fourth 
Amendment, and these follow: All assertions to the contrary, 
the--notwithstanding the Fourth Amendment does not reduce the 
powers of the Constitutional Court, but it does--it's exactly 
the opposite. It adds additional authorities to those having 
the right to turn to the Constitutional Court. It repeals the 
rulings of the Court passed under the previous constitution, 
but as specified by an additional amendment before the final 
vote, the Court shall remain free to refer to its own previous 
case-law in its future jurisdiction.
    Contrary to noisy criticism, the amendment does not strip 
the Court of the power of review and annul the Constitution 
text itself or its amendments, since in Hungary, during this 
existence for two years--for two decades--the Constitutional 
Court never had that power. So we couldn't take it off. My 
definition of the separation of powers is that the Court 
interprets but does not legislate the text of the Constitution. 
In fact, the Fourth Amendment extended the power of the Court 
explicitly, giving the right to scrutinize the 
constitutionality of the procedure of amending the 
Constitution, which is a widening of the rights of the 
Constitutional Court and not narrowing.
    Expressions of anti-Semitism and racism are and should be 
cause for concern for every democrat. Even though the 
phenomenon is not new and unfortunately widespread all over 
Europe, Hungary is not an exception in this respect. Each and 
every such incident in my own conviction and the Hungarian 
government's conviction is deplorable and cause for more 
determination to eliminate them. Prime Minister Orban has 
confirmed in Parliament that the government shall protect every 
citizen equally, including those who belong in minorities, and 
the government will defend every Jewish citizen of Hungary.
    The only Roma member of the 750-odd members, European 
Parliament, Livia Jaroka, citizen of my great home city, 
Sopron, was elected on the list of Fidesz. The only one of an 
ethnic community numbering about 10 million in Europe, it comes 
from Fidesz. It was under the Hungarian presidency of the 
European Union that the first European Roma strategy was 
adopted. In the Fourth Amendment, we choose to lay the 
constitutional grounds for a single procedure open for any 
person in case his or her religious, ethnic or national 
community should be seriously offended in dignity.
    So in the case you mentioned, Senator, about Zsolt Bayer, 
in the case of Zsolt Bayer, after this amendment passed, there 
will be a legal instrument and every Roma, every single Roma 
person can claim in a civil procedure a remedy from this person 
who is making such a deplorable statement. This is an 
instrument and strong, long legal instrument against hate 
speech for decades demanded by the different Jewish and ethnic 
communities in Hungary. Rabbi Koves, leader of the United 
Hungarian Jewish Congregation, called the relevant article of 
the draft Fourth Amendment, and I quote, historic step forward 
in this defense of the dignity of the communities.
    Our policy is consistent with our unambiguous relations in 
the past. It was the first Orban government which founded the 
Holocaust Memorial Center in Budapest, and included a special 
Holocaust Remembrance Day for the first time in the curriculum 
of high schools. Yet, the latest shining evidence is the 
international Wallenberg Memorial Year in 2012, launched by the 
second Orban cabinet.
    The time allotted to my testimony, Mr. Senator, may not be 
long enough to address all your points raised, but I encourage 
you to look at the amendments closely. We could dismiss your 
worries in the past in the case of the Media Law, the Law on 
the Judiciary, and I can cite many other examples. We welcome 
your criticism if based on facts and arguments. Foreign 
Minister Martonyi had requested the Venice Commission to give 
its opinion on the Fourth Amendment. We abide by the rules of 
the European Institution and expect the same from others.
    However, there should not be double standards. I'm deeply 
convinced that in a constructive dialogue, we can enrich each 
other's constitutional experience and thus avoid unfounded 
accusations and disagreements arising from misunderstanding.
    For more details, information to make your judgment, I 
brought you another book, which has been written together with 
my colleague here on my left, on the background of the new 
constitution of Hungary. It's titled Conversations on the 
Fundamental Law of Hungary. We also opened the Hungarian 
Constitutional Library on Amazon.com in English language.
    Let me close my remarks with the first line of our national 
anthem, hence, the first line of our new constitution: God 
bless Hungarians: ``Isten, aldd meg a magyart.''
    Mr. Cardin. Well, once again, thank you for your--for your 
being here. And thank you for your testimony. We appreciate the 
information you're making available to the commission.
    First, let me make an observation and I have a few 
questions. For a democratic country, the first election is 
always a challenge to have a free and fair election after 
you've been under the dominance of communist regimes. It's 
always a challenge, but the great test comes in the second, 
third and fourth elections, as to how you treat the opposition 
and how you establish an ongoing way to deal with the 
government and with opposition and different views and how you 
respect the rights of all people, including those who oppose 
the government itself. That's the real test of a democracy.
    And therefore, the laws that you look at today need to be 
laws that protect all of the people of Hungary and not just the 
ability of a ruling party to be able to pass laws and their 
policies. And that's one of the reasons that some of these laws 
give us real pause. Let me mention a few and get your response.
    You mention in your written statement that the freedom of 
the press--the laws that you passed--that you are not aware of 
any case of censorship or harassment of journalists. We 
understand that ATV, a private television station, was warned 
by the Media Council in February that if ATV characterized the 
far-right extremist party, Jobbik, as far-right in their 
broadcasts, that they could be fined.
    Now, I would like to get your view on that. But I can tell 
you, those types of statements have real chilling effects on 
the freedom of the media, which is a critical ingredient of a 
democratic state.
    Mr. Szajer. I didn't have the time in my previous statement 
to go on the--on the freedom of the press. Also, I would like 
to say that the media law and the correction of the media law 
was by the consultation with the European Commission on one 
hand, and later on, by the constitutional court decision it 
also shows a success story about how we can correct and normal 
conversation--we can finally end up--end up to a--to a 
satisfactory result.
    The European Commission started an infringement procedure 
concerning the media law, and finally, the Hungarian government 
and the Hungarian parliament changed the media law accordingly 
addressed exactly the questions which is why there is a wide 
debate in every country. If you see the debate in the United 
Kingdom about what are the limits of the freedom of the media, 
is very clear.
    I have no knowledge of any fines taken on any media in 
Hungary. The Hungarian media, if you read it--there are some 
web pages which are translating Hungarian daily newspapers on 
the daily grounds. On that, you will see that anything could be 
said about the Hungarian media, but not that it's--cannot 
express anything. The Hungarian style, anyway--it's a very 
vivid and open style, which means that we are not hiding our 
views. We are--we like to speak directly.
    I also would like to address that maybe even the Helsinki 
Commission has failed to address the Hungarian social 
government after the third election or the fourth election 
concerning human rights or media regulations. There was a time 
in Hungary--a not very long time ago--only eight years ago, 
when every single newspaper had a background of some kind of 
socialist ownership, which was one side of the political 
spectrum. Even the biggest center-right newspaper was in the 
hands of--directly entrepreneurs connected to the socialist 
party. The situation is much more balanced now, and for that 
reason, the Hungarian media is very open and clear. There is a 
competition there, both on the market and both of the ideas.
    Mr. Cardin. We don't really take a position on the leaning 
of any particular media group, but what we will fight for is an 
open, free media that can feel free to investigate and do 
reports without fear of intimidation. And if there are threats 
or fines, that has a chilling impact on independent reporting. 
I would appreciate if you would investigate what I just said or 
at least look into what I just said, because the rule of law is 
not just the laws that you pass, but how you implement those 
laws. And if there is a feeling that you cannot operate an 
independent press, then there's a concern. And there's at least 
some who believe that's the case in Hungary.
    But let me move onto the second point. You mentioned you 
received the advice of the Council of Europe in regard to the 
media law. I have some information as to what they think about 
your religious--
    Mr. Szajer. Commission--European Commission----
    Mr. Cardin. European Commission.
    Mr. Szajer. Not the Council.
    Mr. Cardin. I have the Council of Europe--excuse me on 
that--on your religious law, where they say that the act sets a 
range of requirements that are excessive and based on arbitrary 
criteria with regard to the recognition of a church--in 
particular, a requirement related to the national and 
international duration of a religious community and the 
recognition procedures based on a political decision should be 
reviewed. This recognition confers a number of privileges to 
churches concerned. The act has led to the deregistration 
process of hundreds of previously lawfully recognized churches 
that can hardly be considered in line with international 
standards.
    Finally, the act induces, to some extent, an unequal and 
even discriminatory treatment of religious beliefs and 
communities depending on whether they are recognized or not. 
That's from the Council of Europe. Any comment?
    Mr. Szajer. Chairman, if you allow me one sentence still on 
the previous subject, that any decision of the Media Council is 
subject to court review in Hungary. So if you are not satisfied 
with the decision, you can go there, and there is a bill where 
you can go through all of this process.
    On the--concerning on the religious communities, I think 
it's a very big and great misunderstanding. The paragraph which 
is dealing with media--with religious freedom in Hungary states 
nothing else than your constitution or several constitutions of 
the world--the charter fundamental rights of the European Union 
states, that every single citizen, individually or 
collectively, has the right to exercise their religion publicly 
or in their home, which means that--this is what your 
constitution says. It doesn't go farther than that.
    However, the European system--and I think the 
misunderstanding comes from this point. The European system is 
not about whether an individual or a community can exercise--
whether it can exercise or not their religion in--individually 
or in a community, but in the European system, it's whether--
about--they have some additional rights, whether they are 
entitled to some taxpayers' money, which means that the media--
the church law in Hungary is not really about church freedom. I 
understand that the basis of the first amendment in this 
country--it's even prohibited to regulate any religion because 
of the--of the ban like this.
    In Hungary, this is also--every single community, let it be 
whatever. I am not giving examples, because that always leads 
to--but any community and any individual can exercise this. 
There is no restriction of any on this right. What the state, 
in the church law, introduces as a procedure is a recognition--
as a--as a religious community, which has some extra claims by 
cooperating with the state and getting state money--getting the 
taxpayer's money as a support for paying their priest, for 
having their charity organization and so on. And so the church 
law is going beyond that, and the church law is a normative 
law, so you cannot apply it arbitrarily.
    And why--two-thirds majority in the Hungarian parliament is 
something which is exactly the guarantee of the right consensus 
needed on--concerning churches.
    I also would like to add that in the neighboring countries, 
the same recognition process--religious communities becoming 
churches which are supported by the state, is, in number, much 
less. Austria has much less, Slovakia has less state--less 
churches. Hungary has, at the moment, 34. Romania has less, and 
several European countries have less recognized churches like 
that.
    So we have various regulations in European countries in 
which the Hungarian is the most accepting--the most open system 
which is a public system, and the transparent procedure--how do 
you recognize, not as a church--a religious community--as a 
church, but as a religious community which is entitled to 
taxpayer money.
    I think the big misunderstanding here lies here. This is 
about taxpayer money. It's not really a church law. It's church 
financing law, which doesn't exist in this country, because 
it's prohibited by the first amendment of your constitution.
    Mr. Cardin. I thank you for that explanation, but I still 
believe the discriminatory treatment of one church versus 
another is of concern. Each country has a different set of 
circumstances--its relationship to the faith community, but 
discrimination against one church versus another is an issue of 
concern, and I take it it is correct to say that this law did 
deregister hundreds of previously lawful churches in Hungary? 
Is that accurate?
    Mr. Szajer. Yes, and the reason is that the state doesn't 
want to provide taxpayers money for, for instance, business 
religions--for religions which are doing only business. So they 
are free to exercise their religious activity--their faith, 
because that's the first sentence of our constitution, but they 
are not recognized as churches which are entitled for 
taxpayers' money. This is the difference.
    However, it also comes to your statements, Senator, to the 
question of double standards, which I think we have to be very 
careful. In Europe, there are several countries--and I don't 
name them, because we all know, in this room which they are--
they have state religions. They have state religions, which 
means that the state religion has extra and specific rights 
over other churches. They are coming from history, but the 
Hungarian system, I can assure you, is not discriminatory. The 
constitutional court had a decision on this and gave 
guidelines, and a new amendment--the fourth amendment made 
clear how the differences between religious exercise of our 
religion in community and the cooperation with the state, which 
involves taxpayers' money.
    Mr. Cardin. I understand that point. The other area that 
just doesn't look well is that, as I understand it, to become 
registered under the law--if you're not registered, you need a 
two-thirds vote of the parliament. Is that correct?
    Mr. Szajer. No, no. There is a procedure in which a 
religious community--which is an existing religious community, 
can ask the recognition as a church, and so, entitled for 
cooperation or benefits from the----
    Mr. Cardin. And that requires a two-thirds vote of the 
parliament?
    Mr. Szajer. That requires a two-third qualified vote in the 
Hungarian parliament in order to recognize a church for that. 
But the fourth amendment introduces and acts on the request of 
the constitutional court that, on procedural basis, there is an 
opportunity to have a review of that in the constitutional 
court, so you can appeal against this decision--on procedural 
basis--to the constitutional court, which--it built in an extra 
guarantee to the process, because that's what the 
constitutional court was missing.
    Mr. Cardin. Which, of course, brings me to the fourth 
amendment, and our concern about the independence of the 
judiciary. You said that you processed that law and put it into 
effect because you were requested to by the court, yet I 
understand the former chief justice of the constitutional court 
and the former president urged the current president of Austria 
to withhold signing the fourth amendment. Any reason why the 
former chief of justice would have concerns that the----
    Mr. Szajer. I am not aware of Hungary's conflict with 
Austria, and that might be a hundred years before. I don't 
understand the question.
    Mr. Cardin. Well, we're concerned about an independent 
judiciary. You've mentioned several times appeal to the 
courts--the courts can do this----
    Mr. Szajer. But how does it come to Austria?
    Mr. Cardin. (Off mic)----
    Mr. Szajer. We are hearing on Hungary.
    Mr. Cardin. Did I say Austria? I meant Hungary. I'm sorry--
my apologies.
    Mr. Szajer. Well, on the--what concerns the independence of 
the judiciary--there are no new rules concerning--in this 
fourth amendment, concerning the judiciary. All the rules which 
are included are copied and pasted from the provisional, the 
transitional provisions of the constitution, which had been 
adopted in 2011. And in 2011--since 2011, the European 
Commission, the Council of Europe, the Venice Commission all 
studied in very big details--detailed judiciary.
    And the day after, the Hungarian parliament voted on the 
fourth amendment of the constitution, they voted also on the 
amendment to the judicial law, which included, basically all 
the catalog--all the list of which the European Commission 
demanded. The European Commission made a statement on Tuesday, 
which was a week ago, about--that they were studying, but on 
the first glance, they see that it complies with the request 
which has been made. There are no new rules in this sense. All 
the rules which are now incorporated in the constitution, as I 
said--it needed to be taken over from the provisional. Just, if 
you ask my view on that, I don't think that this German concept 
of incorporation obligation is something which Hungary should 
apply. Sweden has four constitutions, Austria has two. So there 
are pieces. But that was the constitutional court, and we abide 
with the rules. But this incorporation concerning the judiciary 
and the judiciary review is nothing new in there.
    What your concern might be about signing the new 
constitution--the former president of Hungary and the former 
president of the constitutional court was asking the current 
president for something which is not in line with our 
constitution. I would say he was asking for something which 
would be unconstitutional if the president--if President Ader 
would be signing this--would be sending this amendment to the 
constitutional court--the constitutional court should have said 
that it comes from someone who is not entitled to do that, 
because the constitutional authority in Hungary is not divided. 
The constitutional authority stands for the legislator, and 
that's--so in the last 24 years, in Hungarian constitutional 
history.
    Mr. Cardin. Well, I very much appreciate your explanation 
in filling in the blanks on these issues. I would just point 
out that the view of the international community--the view of 
the--of Europe and the United States--when we look at the 
changes that you've done to the judiciary, the changes that 
you've in your religious laws, the changes that you've made in 
your media laws, it gives us concern, because we are looking 
beyond the current ruling party. We're looking at how this 
framework will work for Hungary's future. And we see the 
potential of real problems.
    So I would just urge you, since you seem very willing to 
seek the advice of Europe and the advice of your friends, to 
look at our concerns--and we'll be glad to make sure that we 
follow up and give you more information on this--that it is--it 
presents some real serious concerns that your fundamental 
document--the Constitution--could become a real problem in the 
future democratic course for Hungary.
    I want to end on one additional question. And you commented 
that all Hungarians have the protections, whether they are 
Roma, whether they are Jewish--all have the protections of the 
law and will be protected by the government.
    I very much appreciate that statement. It's a very 
important statement, and coming from you, it's a--it means a 
lot. And I mean that sincerely.
    I do point out that the Helsinki Commission here in the 
United States has invested a great deal of our attention to 
dealing with anti-Semitism, the problems of anti-Semitism, the 
problems of xenophobia, anti-Muslim activities, the tolerance 
agenda. We are very proud that we now have special 
representatives within OSCE that look at best practices in 
countries and try to provide assistance to promote better 
understanding and protection for minorities in all countries of 
the OSCE and beyond the OSCE itself.
    And one of the leading recommendations is to exercise 
leadership. I remember very vividly, when there was a tragedy 
in Turkey--the bombing of a synagogue--and the president of 
Turkey went to the synagogue and showed solidarity with the--
with the Jewish residents of Turkey, that was a huge signal 
about--the government would not tolerate that type of 
discriminatory action. When we see, in Hungary, government 
officials embracing individuals who are known for their anti-
Semitism and their anti-Roma activities, it is just the 
reverse. It is a signal that the government really doesn't care 
about those issues.
    And then, it allows for more extreme activities within that 
country to be accepted. Leadership becomes very important, and 
the government has a responsibility to exercise leadership. In 
Hungary today, we are concerned because we don't see that clear 
direction by the leaders of the government--the consistent 
direction that you will not tolerate discriminatory actions 
against any Hungarian or a person from the Roma community, 
Jewish community--any community, and that you will stand up 
against those who promote that type of extremism to question a 
person's loyalty based upon their blood as to whether they're 
Hungarian. That activity needs to be condemned at the highest 
levels, and we don't see that.
    Mr. Szajer. Honorable chairman, may I answer in two parts? 
The first is for your comment that you viewed major--and the 
magnitude of the changes in Hungary with some concern. And I 
fully understand that. Sometimes, myself--I work in Brussels in 
the European parliament. I follow the events in Hungary, but 
sometimes myself lose the track of speed by which these changes 
are there.
    But I would like to remind you--and I mentioned it briefly 
in my original statement--that Hungary was a country at the 
brink of bankruptcy in 2010. You really had to start from 
scratch to build up the new country, and you had to start from 
scratch from the foundations with the new constitution, and 
then, dozens of new cardinal laws to make this country 
economically, socially work. The reason for changing the 
judicial system is not of gripping power over the judicial, but 
because, in Budapest, in order to have your first hearing in 
your very simple case--in a court case, you have to wait a 
couple of months--dozens of months in order to have your first 
time. So, the reason for the judicial review--or the changing 
of the judicial system is making it more effective.
    There has been criticism that the--that the court's 
procedure of the Roma killings under the previous government 
has been too slow. Yes, I agree, and I am also very much 
unsatisfied with what's happening there. But exactly this is 
why we are changing our court system--in order to make it a 
modern, efficient judiciary. No one in the last 60 years has 
made those efforts.
    You have to--your institutions when you are financing it by 
public money, they have to work. They have to provide the 
citizens the necessary service. This was not the case in 2010. 
Corruption, delays, bankruptcy--Hungary almost went bankrupt. 
We had to go to the IMF for a--for a quick relief--and so on, 
so which means that because the country was in so deep 
difficulty and crisis, you had to use and restart it as you 
here used the reset button. We pushed the reset button, and 
sometimes you do not know why something is happening because 
things are connected. But after the time--after you study--and 
this is why I really recommend you the books which I was 
bringing you and I also would like to ask the letter of our 
ambassador to--on the Freedom House to include in their--in the 
minutes of this meeting----
    Mr. Cardin. Without objection.
    Mr. Szajer.--That I provided for you which gives more 
detailed information on these issues on that. But that we 
should do. This is why I said that on our work, on our laws, 
there is a very big burden of responsibility to taking over and 
changing the country. Our mandate is like that. In Hungary, it 
borders impossible to get to certain majority, but people were 
so much unsatisfied with the current situation that they wanted 
change, they wanted big change, and this is what we are doing.
    Concerning anti-Semitism and the Roma, well, first I would 
like personally express--maybe let me start on a personal note. 
I am not of Jewish origin but many people in the media for 
whatever reasons, they presume that I am. And I was subject--in 
the media, in the public sphere, in the Internet--subject of 
anti-Semitic statements myself. So, personally, I also cannot 
accept and tolerate any kind of intolerance, any kind of racist 
or anti-Semitic motives because I know how to be--what to be 
the victim of that.
    In Hungary, there are living hundreds, thousands of people 
of the Jewish community whose ancestors and whose family had to 
survive Holocaust. This is why our President Ader went to the 
Knesset to express the share of the responsibility of the 
Hungarian nation just a few months ago and also to recognize 
that. This is why the prime minister said what I--what I 
mentioned, that we defend every Hungarian citizen. But all the 
things--and it has been refuted on the highest level--Deputy 
Prime Minister Tibor Navracsics has made a very clear statement 
about the statement of Zsolt Bayer which is a deplorable 
statement which cannot be accepted in a democratic society. So, 
in that sense, I think the Hungarian government's stance is 
clear and I agree with the previous speaker here in this place 
which said that the government is not part of that. And we are 
not permissive in this area. I don't think that we can afford 
that because we are not thinking--Fidesz has never been a party 
which was conducting these anti-Semitism--any kinds of this 
ideas.
    We were founding our organization 25 years ago under the 
communist system exactly in order to fight this kind of thing. 
So, in that sense, your concerns are right because in every 
society there are people who are anti-Semites, who are racist 
but we have to do the most in order to eliminate and diminish 
the number of those. I think on this grounds, if we start our 
cooperation and our observation of the Hungarian constitution 
and the constitutional order and the rule of law and separation 
of powers and checks and balances, this could be a good and 
very firm foundation, and I assure you that the Hungarian 
government will be always partner on this--not only on the 
symbolic issues but also on the ground.
    Mr. Cardin. Well, I think that was a very fine summary, one 
I completely agree with. As I said in my opening comments 
there's no--that we understand that the ruling party is an 
inclusive party. That, we fully understand. What I asked for 
was leadership against those who do things that are 
inappropriate. Not in your government but in your society. We 
hope they're not in your government; they're not in your 
government.
    There are--we don't want to legitimate or give greater 
credence to those who would affect the rights of all of your 
citizens. But I must tell you I think the--your colleagues have 
chosen the right person to study the system we have here, as 
far as how hearings are going. You did an extremely effective 
job. So, I know that you'll take back that experience to 
Europe, and I look forward to continuing this dialogue and this 
exchange. The Helsinki Commission is set up as the implementing 
arm for the OSCE commitments. And as I said, we very much want 
to work with our friends in areas that we have concern. And we 
are--we raise issues not just in Hungary; we've raised issues 
in the United States of America where we think we're out of 
compliance with some of those standards.
    So, we very much appreciate your participation here because 
it did fill in the blanks in many different areas and we look 
forward to the continuation of this dialogue. And it's been a 
pleasure to have you before the commission.
    Mr. Szajer. Chairman, I know it's very unpolite, but I have 
to say this--that, first, I has been always open to this--I 
know your colleagues, basically many people in this room--
consultations. We very rarely get this kind of occasion that we 
can state our positions. Normally you hear our views with 
second-hand or third-hand or fourth-hand or non-hand; just some 
kind of headlines.
    And I appreciate any kind of dialogue in Hungary, in the 
United States, because I am deeply convinced that the Hungarian 
democracy is a strong democracy and we are--Fidesz is a strong 
democratic party committed to democracy, to rule of law, checks 
and balances. This is our conviction for 25 years. This is why 
we founded our organization at that time. And we didn't change 
it. The circumstances, however, changed. There are very big 
difficulties in my country. It's not easy to govern a country 
from the brink of bankruptcy. And for that reason, I really 
would like to ask you and encourage you to create more 
occasions than we can speak directly with each other on these 
issues to avoid misunderstandings which lead us to bitter 
disillusionment. Thank you very much.
    Mr. Cardin. I think that is a very good suggestion and I 
look forward to those types of meetings and to continue to 
strengthen the ties between our countries. Thank you very much.
    We have a third panel. It will consist of Dr. Kim Lane 
Scheppele, an expert on constitutional law from Princeton 
University; Ms. Sylvana Habdank-Kolaczkowska from Freedom 
House; and Dr. Paul Shapiro from the U.S. Holocaust Memorial 
Museum.
    I thank the three of you for your being here but also for 
your patience. We don't normally have three panels but it was 
a--I think particularly appropriate that we had a panel from 
the country involved. So, we'll start with Dr. Scheppele.

    KIM LANE SCHEPPELE, DIRECTOR, PROGRAM IN LAW AND PUBLIC 
                 AFFAIRS, PRINCETON UNIVERSITY

    Ms. Scheppele. Ah, yes, thank you. I am honored to testify 
before you today. My remarks will be short; I have much longer 
written testimony that I would like to enter into the record.
    Ms. Cardin. Without objection. We'll take--all three of 
your statements will be made part of the committee record.
    Ms. Scheppele. Great, thank you. I am here today because 
the current Hungarian government has felled the tree of 
democratic constitutionalism that Hungary planted in 1989.
    Since its election in 2010, the Fidesz government has 
created a constitutional frenzy. It won two-thirds of the seats 
in the parliament in a system where a single two-thirds vote is 
enough to change the constitution. Twelve times in its first 
year in office it amended the constitution that it inherited. 
Those amendments removed most of the institutional checks that 
could have stopped what the government did next, which was to 
install a new constitution. The Fidesz constitution was drafted 
in secret, presented to the parliament with only one month for 
debate, passed by the votes of only the Fidesz parliamentary 
block and signed by a president that Fidesz had named. Neither 
the opposition parties nor civil society organizations nor the 
general public had any influence in the constitutional process. 
There was no popular ratification. This did not stop the 
constitutional juggernaut.
    The constitution--the government has amended its new 
constitution four times in 15 months. Each time, the government 
has done so with the votes of only its own political block, 
rejecting all proposals from the political opposition or from 
civil society groups. So, the current Hungarian constitution 
remains a one-party constitution.
    We've talked already about the fourth amendment passed last 
week. It is a 15-page amendment to a 45-page constitution. 
Laszlo Solyom, mentioned earlier, the conservative former 
president of the Hungarian constitutional court and of the 
Republic of Hungary, has said in conjunction with the fourth 
amendment that it removes the last traces of separation of 
powers from the Hungarian constitutional system. Under cover of 
constitutional reform, the Fidesz government has given itself 
absolute power. It now has discretion to do virtually anything 
it wants, even if civil society, the general public and all 
other political parties are opposed. The importance of divided 
and checked powers is of course well-known--was well-known to 
the American constitutional framers. James Madison wrote in 
Federalist number 47: ``The accumulation of all powers 
legislative, executive and judiciary in the same hands, whether 
of one, a few or many, and whether hereditary, self-appointed, 
or elective, may justly be pronounced the very definition of 
tyranny.''
    By James Madison's definition, Hungary is on the verge of 
tyranny. To demonstrate this, we should start with the basics. 
Hungary has a unicameral parliamentary system of government. A 
unicameral parliament has no upper house to check the lower 
house, no senate to complicate life for the house of 
representatives and vice versa; a parliamentary system means 
that the most powerful executive--that is the prime minister--
is elected by the parliament rather than by the people. As a 
result, the prime minister in Hungary is guaranteed a majority 
for all of his legislative initiatives.
    In 1990, the primary check on this system since that time 
has been the constitutional court. Unlike a supreme court, 
which is the highest court of appeal in the legal system, as we 
know in the United States, a constitutional court is the only 
court that is allowed to hear and decide constitutional 
questions. And it does nothing else besides rule on 
constitutional matters. Because the Hungarian constitutional 
court conducts the primary oversight in a system that has 
little formal separation of legislative and executive power, it 
is even more important than the Supreme Court is in the United 
States. But the Fidesz government has neutralized that court's 
ability to provide that check.
    Before 2010, the procedure for electing judges to the 
constitutional court prevented the court from being captured by 
any one political faction. But Fidesz changed the system for 
electing constitutional judges so that now only a single two-
thirds vote of parliament is sufficient to put a judge on the 
court. And, of course, they have the two-thirds. Fidesz also 
expanded the number of judges on the court from 11 to 15, which 
gave the governing party four more judges. Think of Roosevelt's 
court-packing plan, only it worked in Hungary.
    Between changing the process for electing judges and 
expanding the number of judges that could be elected by this 
government, the Fidesz government has been able to elect, as of 
next month, nine of the 15 judges on this court--all with the 
votes of only its own parliamentary bloc, although actually 
Jobbik voted for a couple of their judges.
    But even if the court is in Fidesz-friendly hands, a 
powerful court might still be dangerous to a government that 
shuns checks on its freedom of action. So, the jurisdiction of 
the court has been cut. Mr. Hartley already mentioned that the 
power of the court to review budget and tax laws has been--has 
been cut back so that now the court may never review budget and 
tax laws passed when the national debt is more than 50 percent 
of GDP, which will be true for a long time.
    So, let me give you a couple of examples. If a tax law 
passed this year infringes an individual's or a corporation's 
constitutionally guaranteed property rights or if such a tax is 
applied selectively to particular minority groups, there is 
nothing the constitutional court can do in perpetuity. And this 
opens up a space for the government to violate many personal 
rights without constitutional oversight.
    The fourth amendment has also removed from the court the 
power to review constitutional amendments for substantive 
conflicts with constitutional principles. Mr. Szajer emphasized 
that actually the court was given the power to review 
amendments procedurally, which is a power it already had. So, 
at least that power is confirmed. But its ability to review 
amendments for substance has now been taken away.
    So, for example, to give you just a couple of examples of 
things that have just happened, if the constitution provides 
for freedom of religion but a constitutional amendment requires 
a two-third parliamentary vote before a church is officially 
recognized--which has already happened--the court can't review 
that because it's now in the constitution. Or if the 
constitution says anyone may freely express her opinion, but an 
amendment--for example, one added last week--says that no one 
may defame the Hungarian nation, nothing the court can do. So, 
the government can now bypass the constitutional court whenever 
it wants by simply adding something to the constitution.
    The fourth amendment also annuls the entire case law of the 
constitutional court from before the constitution came into 
effect. No other court in the world has ever had its whole 
jurisprudence cancelled in this way, even when a new 
constitution was written.
    Just to put it in the American context, imagine if the 
framers had decided to nullify the whole common law before 
proceeding. It just cuts the ground out from under things that 
were legally taken for granted. As you know, the independence 
of the ordinary judiciary has also been compromised. The Fidesz 
government lowered the judicial retirement age which knocked 
out the senior-most 10 percent of the judiciary--
disproportionately the leadership. So, 20 percent of supreme 
court justices and more than half of the appeals court 
presidents were removed from their office in that way. Both the 
constitutional court and the European Court of Justice found 
against Hungary on that matter. And at first the government 
defied those court judgments before finally agreeing to 
reinstate at least some of the fired judges. But by the time 
the judges were reinstated, all of the court leadership 
positions were filled with new judges, which meant that when 
the old judges were taken back, they were taken into much less 
important positions.
    So, how were those judgeships filled? The government 
created something called the National Judicial Office, which 
has a president who single-handedly has the power to hire, 
fire, promote, demote and discipline all judges without 
substantive check from any other institution. Just this one 
person. And the Venice Commission has expressed an 
extraordinary amount of concern over this issue. And so the 
leadership of the--of the judiciary has been replaced by this 
one person who, not surprisingly, was elected by a two-thirds 
vote of the Fidesz parliament. The president of this office 
also has the power to take a case and to move it to any court 
in the country other than the one that the law would normally 
assign it to. And as you've heard, one of the government's 
defenses of this is that this is supposed to speed up the 
processing of cases. But this rationale is belied by the facts.
    From public sources, I have been monitoring the movement of 
these cases in the first year that the president of the 
National Judicial Office has had this power. She has moved only 
a few dozen cases away from the courts--and these are courts 
that have thousands of backlogged cases. And she has moved 
these cases not to the least crowded courts in the countryside 
but to other courts that also have backlogs. So, while my 
statistics cannot reveal the motivation of the government, they 
can show that the government is not moving a substantial enough 
number of cases to make a different in waiting time and they 
are not moving cases from the most to the least crowded courts. 
I'm happy to make the data available if you would like to see 
it.
    So, in addition, we're worried as well about the electoral 
framework because the legal framework for the 2014 election a 
year from now is still in flux. The Fidesz parliamentary 
majority has already enacted two election laws over vociferous 
protest from opposition parties. These laws gerrymander the 
districts for the next election. And it's not just a typical 
American gerrymand, which happens one state at a time, but this 
is a national gerrymand. And, moreover, all of the boundaries 
of the electoral districts are put in a law that it will take a 
two-thirds subsequent vote to change. So, it's going to be very 
difficult to undo.
    The new law also eliminates the second round of voting for 
single-member districts, which allows, for the first time, 
candidates without majority support to win a parliamentary 
seat. And these changes keep doing. In fact, the election 
system is not fixed. The fourth amendment actually created a 
constitutional ban on political advertising during the election 
campaign in any venue other than in the public broadcast media, 
which is controlled by the all-Fidesz media board.
    There's much more I could say. My testimony--my written 
testimony says a lot more. And so what I would like to do is 
just say something about what I think might be done in this--at 
this intersection. The Hungarian government vociferously claims 
that it is still a democracy because the political parties 
freely organize for democratic elections. But its critics are 
concerned that the government presently controls the media 
landscape, has enacted a number of legal provisions that 
disadvantage opposition parties, and continues to change the 
electoral rules. The OSCE, which is a specialist in election 
monitoring among other things, should insist that the electoral 
rules be fixed far enough ahead of the election so that all 
those who want to contest the election have a reasonable amount 
of time to organize themselves accordingly.
    In addition, the OSCE should also fully monitor the 2014 
Hungarian parliamentary elections. This should not--this should 
include not just election day or long-term monitoring missions. 
The comprehensive changes in the constitutional framework 
warrants an early needs assessment mission, one that can fully 
review the effects of all the changes to Hungary's electoral 
system.
    Of course, as we've heard here, the U.S. government shares 
with Hungary membership in both the OSCE and in NATO. Under 
both of these organizations, Hungary and the U.S. have together 
committed to a series of democratic principles and human 
rights, and this gives, I think, the U.S. some substantial 
interest in monitoring these things.
    But the U.S. government should also be aware that under 
pressure, the Fidesz government in the past has promised minor 
changes to its comprehensive framework--changes that have not 
in fact addressed the most serious problem, and that most 
serious problem is concentration of political power in the 
hands of one party.
    The U.S. should resist entering the battle of competing 
checklists of constitutional features. The Hungarian government 
also insists that some other European country has the same 
individual rule that its friends criticize. Perhaps in this 
connection we should remember Frankenstein's monster, who was 
stitched together from perfectly normal bits of once--of other 
once-living things but who nonetheless was a monster. No other 
constitutional democracy in the world, let alone in Europe, has 
the combination of features that Hungary now has.
    We might also say--and this came up actually in the first 
panel--that other countries in Hungary's neighborhood are 
looking with great interest at what Hungary is doing. They can 
see that the EU, the Council of Europe, the OSCE, NATO and the 
United States have limited ability to persuade a country to 
change its domestic laws. Hungary's neighbors understand that 
Hungary's getting away with consolidating all political power 
in the hands of one party, and many find that enticing. 
Troubling recent developments in Romania, Bulgaria and Slovenia 
show that the Hungarian disease could spread if the U.S. and--
if the U.S. and its European allies don't stand up for their 
values in the Hungarian case.
    In closing, then, I would strongly urge the United States, 
the U.S. Helsinki Commission and the OSCE to take Hungary 
seriously, engage with the Hungarian government on matters of 
constitutional reform and work toward ensuring that the 
channels of democratic participation remain open in Hungary so 
that the Hungarian people retain the capacity to determine the 
sort of government under which they will live. Thank you.
    Mr. Cardin. Well, thank you very much for your testimony.
    Ms. Habdank-Kolaczkowska.

SYLVANA HABDANK-KOLACZKOWSKA, DIRECTOR FOR NATIONS IN TRANSIT, 
                         FREEDOM HOUSE

    Ms. Habdank-Kolaczkowska. Thank you very much. Thank you 
for this opportunity to appear before the commission and 
discuss recent developments affecting civil society in Hungary.
    Freedom House's annual Nations in Transit report, which 
focuses specifically on democratic governance in post-communist 
world as well as our global surveys Freedom in the World and 
Freedom of the Press, have all drawn attention to the 
vulnerabilities and potential threats to democracy created by 
these legislative changes affecting Hungary's media sector, 
data protection authority and judicial system. We remain deeply 
troubled by the restructuring and restaffing of Hungarian 
public institutions in a way that appears to decrease their 
independence from the political leadership. The ongoing use of 
Fidesz's parliamentary two-thirds majority to insert these and 
really striking array of other legislative changes into 
Hungary's only less-than-two-year-old constitution is also 
extremely troubling, particularly as some of the measures had 
already been struck down by the Constitutional Court.
    I was asked to comment specifically on recent Hungarian 
media legislation and the law on churches, which I will do 
briefly now.
    Changes introduced in 2010 consolidated media regulation 
under the supervision of a single entity, the National Media 
and Infocommunications Authority, whose members are elected by 
a two-thirds majority in parliament. A subordinate body, the 
five-person Media Council, is responsible for content 
regulation. Both the Media Authority and the Media Council 
currently consist entirely of Fidesz nominees, and they are 
headed by a single official who has the authority to nominate 
the executive directors of all public media. The head of the 
Media Authority and Media Council is appointed by the president 
for a nine-year term. This year, the government responded to 
criticism of the appointment process by introducing term limits 
for this particular position and minimum background 
qualifications; however, these will only take effect when the 
current officeholder--when their term expires, six years from 
now.
    The particular issues of concern to us are the broad scope 
of regulatory control and content requirements--for example, 
the definition of ``balanced'' reporting--and the lack of 
safeguards for the independence of the Media Authority and 
Media Council.
    Under the revised version of the so-called Hungarian Media 
Law, the Media Council is officially responsible for 
interpreting and enforcing numerous vaguely worded provisions 
affecting all print, broadcast and online media. The council 
can fine the media for ``inciting hatred'' against individuals, 
nations, communities, or minorities. It can initiate a 
regulatory procedure in response to ``unbalanced'' reporting in 
broadcast media, though this no longer applies to print media. 
All fines must be paid before an appeals process can be 
initiated, and under the Media Law, the Media Authority can 
also suspend the right to broadcast.
    The Media Council is responsible for evaluating bids for 
broadcast frequencies. Freedom House applauds the council's 
recent decision to grant a license to the opposition-oriented 
talk radio station Klubradio for its main frequency, in line 
with a recent court ruling. We regret that it took nearly two 
years and four court decisions for the council to reverse its 
original decision, during which time the radio was forced to 
exist on temporary, 60-day licenses, during which time it was 
extremely difficult for them to attract advertisers. The 
episode has cast a shadow on public perceptions of the Media 
Council, even among those who were previously prepared to 
believe that a one-party council could function as a 
politically neutral body.
    In 2011, the Hungarian National News Agency, MTI, became 
the official source of all public media news content. The 
government-funded agency publishes nearly all of its news and 
photos online for free, and allows media service providers to 
download and republish them. News services that rely on paid 
subscriptions obviously cannot compete with MTI, and the 
incentive to practice ``copy-and-paste journalism'' is 
extremely high, particularly among smaller outlets with limited 
resources. The accuracy and objectivity of MTI's reporting has 
come under criticism since the Orban government came to power 
in 2010. Under the Media Law, the funding for all public media 
is centralized under one body, which is also supervised by the 
Media Council.
    Now Hungary's Constitutional Court, as we discussed a 
little bit, has attempted to push back against some of the more 
problematic legal changes introduced since 2010. At the end of 
2011, it annulled several pieces of legislation affecting the 
media. These revisions, most of which were confirmed by the 
parliament in May 2012, represent only a small fraction of 
those recommended by the Council of Europe. Moreover, they may 
not even prove permanent, given the government's recent habit 
of ignoring or overruling Constitutional Court decisions by 
inserting voided legislation into the constitution.
    This seems likely to be the fate of the law on churches, 
which the court struck down last month, but which has already 
made a reappearance in a proposed constitutional amendment that 
is currently under consideration. The law essentially strips 
all but 32 religious groups of their legal status and 
accompanying financial and tax privileges. The over 300 other 
previously recognized groups are allowed to apply for official 
recognition by the parliament, which must approve them by a 
two-thirds majority.
    It should be noted that the previous regulations were quite 
liberal, with associated financial benefits fueling an often 
opportunistic proliferation of religious groups over the last 
two decades. However, the new law has the potential to deprive 
even well-established and legitimate congregations of their 
official status and privileges. More fundamentally, the law 
represents another instance in which the parliamentary two-
thirds majority has given itself new power over independent 
civil society activity. The fact that the parliament will have 
the right to decide what is and is not a legitimate religious 
organization is without precedent in post-communist Hungary.
    As our--as Mr. Szajer has mentioned, many of the areas 
targeted for reform by the Orban administration, including 
public media, health care, the education system, and even 
electoral legislation, were in need of reform long before the 
April 2010 elections brought Fidesz to power. No government 
until now has felt emboldened or compelled to address so many 
of these problem systematically--systematically and 
simultaneously. However, speed and volume in lawmaking cannot 
come at the expense of quality, which only broad consultation 
and proper judicial review can ensure. Nor should reforms 
create hierarchical structures whose top tier, again and again, 
is the dominant party in parliament. Voters can still change 
the ruling party through elections, providing some opportunity 
for corrective measures, but the ubiquitous two-thirds majority 
thresholds in recent legislation make it extremely difficult 
for any future government to tamper with the legacy of the 
current administration.
    Ongoing economic crisis and political frustration in Europe 
are likely to yield other governments that feel empowered to 
reject international advice, make sweeping changes that 
entrench their influence, and weaken checks and balances, 
damaging democratic development for years to come. But such--we 
believe that such behavior can be deterred if early examples 
like the situation in Hungary are resolved in a positive 
manner.
    The threats to democracy that Freedom House has observed in 
Hungary are troubling in their own right, but they are 
particularly disturbing in the sense that the United States has 
come to rely on countries of Central Europe to help propel 
democratization further east, and indeed to the rest of the 
world. The idea that these partners could themselves require 
closer monitoring and encouragement bodes ill for more 
difficult cases in Eastern Europe and the Caucasus. It's 
therefore essential that the United States and its European 
counterparts closely coordinate their efforts to address 
backsliding in countries like Hungary and support them on their 
way back to a democratic path.
    Thank you.
    Mr. Cardin. Thank you very much for your testimony.
    Dr. Shapiro.

   PAUL A. SHAPIRO, DIRECTOR, CENTER FOR ADVANCED HOLOCAUST 
        STUDIES, UNITED STATES HOLOCAUST MEMORIAL MUSEUM

    Mr. Shapiro. Thank you, Mr. Chairman. On behalf of the 
United States Holocaust Memorial Museum, I'd like to thank the 
commission for organizing this important hearing regarding 
democracy and memory in Hungary. My remarks today will 
summarize some of the main points of my written statement, and 
I request that my written statement----
    Mr. Cardin. And--all your statements will be put in the 
record.
    Mr. Shapiro. Thank you.
    Over a hundred years ago, philosopher George Santayana 
wrote that ``Those who cannot remember the past are condemned 
to repeat it.'' In mid-1944, the Jewish community of Hungary 
was assaulted and nearly destroyed in its entirety over the 
course of just a few months. That--those losses represented one 
of every 10 Jewish victims of the Holocaust, one of every three 
Jews murdered at Auschwitz. Today the memory of that tragedy is 
under serious challenge in Hungary, with consequences that we 
cannot yet fully predict but which are certainly ominous.
    In my written remarks, I've provided the commission with a 
brief summary of Hungary's Holocaust history. Here, just one 
minute about this. Under Regent and Head of State Miklos 
Horthy, foreign Jews resident in Hungary were deported to their 
deaths. Jewish men were forced into labor battalions, where 
tens of thousands died. And over 400,000 Hungarian Jews and at 
least 28,000 Romani citizens of the country were deported from 
Hungary to Auschwitz.
    During the months that followed the removal of Horthy from 
power in October 1944, the Arrow Cross Party of Ferenc Szalasi 
committed additional atrocities. The record is one of immense 
tragedy: 600,000 Hungarian Jews murdered out of a total Jewish 
population of over 800,000, at least 28,000 Romani victims and 
significant participation and complicity in the crime by 
Hungarian authorities from the head of state down to local 
gendarmes, police and tax collectors in tiny villages.
    When one turns to the manner in which the memory of this 
history has been treated in Hungary since the fall of 
communism, two distinct phases are visible. The first spanned 
Viktor Orban's first term as prime minister, 1998 to 2002, when 
the coalition government that he led established a National 
Holocaust Commemoration Day, brought Hungary into the 
International Task Force for Cooperation on Holocaust Education 
Remembrance and Research and appointed a commission to create 
the Holocaust Memorial and Documentation Center in Budapest. 
That center's permanent exhibition is certainly one of the best 
in Europe. Socialist Party governments from 2002 to 2010 
remained, more or less, on this positive path.
    But the appearance in the middle of the last decade of the 
openly anti-Semitic and anti-Romani Jobbik Party and the 
paramilitary-style Magyar Garda or Hungarian Guard associated 
with Jobbik, brought about a change of atmosphere. Symbols 
associated with wartime fascism reappeared in public, incidents 
of anti-Semitic intimidation and violence increased and anti-
Romani discourse took on an increasingly Nazi-like tone.
    An especially noteworthy portent of change occurred in 2008 
when the then out of power but still powerful Fidesz Party 
failed to join with other mainstream political parties in 
forceful condemnation of Jobbik's anti-Semitic and anti-Romani 
sloganeering and Magyar Garda intimidation of Jews and violence 
against the Romani population.
    After Fidesz won the 2010 elections and returned to 
government with an overpowering two-thirds majority in 
parliament, the warning signs of 2008 proved to be accurate. 
Still led by Prime Minister Orban, Fidesz and the Fidesz 
government changed their approach to issues of the Holocaust. 
In the judgment of some people, this was done in order to 
appeal to Jobbik voters. Others were more inclined to see the 
change as reflecting accurately the prejudices and actual 
beliefs of Fidesz leaders and membership. It was likely some of 
both.
    Over the past three years, we've witnessed in Hungary 
attempts to trivialize and distort the history of the 
Holocaust, the development of an atmosphere that has given 
reign to openly anti-Semitic discourse in the country and 
efforts to rehabilitate political and cultural figures who 
played a part in Hungary's tragic Holocaust history. This 
deterioration of a once-better state of affairs has predictably 
gone hand-in-hand with the broad political trends that the 
commission is examining today.
    For anyone who is familiar with the history of Nazi 
Germany, efforts to impose government control on the media, 
efforts to politicize and undermine the independence of the 
judiciary and efforts to deprive certain religious groups of 
equal status, all echo a past in which propagandistic control 
of the media stoked race hatred, perversion of the law led to 
lawlessness and mass murder and the de-legitimization of a 
religious community led to the persecution and murder of its 
members.
    Racial violence against the Romani minority in Hungary, 
while not perpetrated by the government, has not been 
effectively addressed by the government either. And people like 
Zsolt Bayer, a founding member of Fidesz, whose brutal anti-
Semitic rhetoric is equaled only by his truly despicable and 
incendiary anti-Romani slurs, still finds a comfortable 
political home inside the Fidesz Party.
    Can a party with truly democratic intentions harbor a 
person who recently called Gypsies, quote,``cowardly, 
repulsive, noxious animals'' that are, quote again,``unfit to 
live among people,'' and who incited violence by a call to deal 
with the Romani population, quote again,``immediately and by 
any means necessary''? A Fidesz spokesman, with a wink and a 
nod, allowed that Bayer had penned his hateful words as a 
journalist, not as a member of Fidesz.
    With the Fidesz government and change of atmosphere in 
Hungary has come an assault on the memory of the Holocaust. And 
this has taken four principle forms. Here I will summarize in 
respect of my time. First came an assault on the history 
displayed at the Holocaust Memorial and Documentation Center. 
Series of proposals to change the permanent exhibition were 
made by Dr. Andras Levente Gal, the then-new, Fidesz-appointed 
state secretary in the Ministry of Public Administration.
    The first proposal was to eliminate mention on Miklos 
Horthy's alliance with Adolf Hitler and participation in the 
dismemberment of three neighboring states. Mr. Gal claimed that 
that is irrelevant to the Holocaust. And yet, violation of 
post-World War I national boundaries brought war in Europe. War 
provided cover for the mass murder of the Jews. And it was 
precisely the Jews of the regions that Hitler restored to 
Admiral Horthy's Hungary who became the first targets of 
deportation and death. Gal's second proposal was to sanitize 
the record of Hungarian collaboration in the ghettoization and 
deportation of the country's Jews.
    Then came the so-called Nyiro affair, and here I cannot go 
into detail. But it was the speaker of the Hungarian National 
Assembly, parliament, founding member of Fidesz, together with 
Hungarian state secretary for culture, also from Fidesz, who 
united with the leader of Jobbik to honor posthumously Jozsef 
Nyiro, a Transylvanian-born writer and fascist ideologue, who 
had been vice chair of the Education Commission in the 
murderous Arrow Cross regime and had fled the country, together 
with Szalasi, in the final days of the war.
    The plan was to rebury Nyiro's ashes in Transylvania, while 
attempting to whip up nationalist sentiment among the ethnic 
Hungarian minority there, through an elaborate official 
funerary procession that would wend its way by train from the 
Hungarian border to Nyiro's birthplace, some 200 miles inside 
Romania. How did the Hungarian government deal with this 
embarrassing incident? Of course, two members of the government 
planned it. But there was no rebuke, only a claim, again, that 
the planners were acting in their personal, not their official, 
capacities.
    The third root of assault on the Holocaust has been through 
the inclusion of anti-Semites as positive role models in the 
national school curriculum, a curriculum that also includes 
efforts to relativize the significance of the Holocaust. I 
could explain who the anti-Semitic players are. They are in 
my--in my extended remarks. The curriculum--so let me address 
the second point--the curriculum suggests that teachers treat 
the Holocaust and Hungarian military losses at Stalingrad as 
equal tragedies.
    Now, equating the loss of military forces to an enemy army 
in battle with the systematic, racially inspired murder of 
civilian men, women and children who were citizens of one's own 
country, solely because they were of a different religion or 
ethnicity, of course, makes no sense unless relativization and 
distortion of the Holocaust is the goal.
    Final element in the assault on the Holocaust has been the 
attempted rehabilitation of Holocaust perpetrators. The most 
emblematic case is the attempted rehabilitation of Admiral 
Horthy himself. Someone has already referred to statues of 
Horthy, public places being named for him. When asked to take 
action to halt the de facto rehabilitation of Miklos Horthy, 
the Hungarian government has responded evasively.
    The government isn't seeking to rehabilitate Horthy, goes 
the standard line. But it's important to realize the Horthy is 
a controversial figure and that there's no consensus of opinion 
about his legacy. This, of course, leaves the door wide open. 
Meanwhile, the government has played to nationalist sentiment, 
seeking to purge Horthy's record as Hitler's ally and 
glorifying the restoration of Hungary's, quote, ``lost 
territories,'' unquote, that Horthy was able to achieve by 
alliance with Adolf Hitler.
    The government hasn't taken serious steps to research and 
more rigorously evaluate Horthy's record of anti-Semitism and 
complicity in the Holocaust. In short, the history of the 
Holocaust is under assault and the rehabilitation of some of 
the people responsible for the murder of 600,000 of the 
country's Jews is well under way. It's understood that anti-
Semitic and anti-Romani discourse, and even intimidation and 
violence, is not likely to illicit effective government action 
to alter the atmosphere or the situation.
    So the question is what to do? After extensive 
consultations in the United States, in Hungary, and with 
members of Prime Minister's Orban's government and the 
Hungarian embassy in Washington, U.S. Holocaust Memorial Museum 
has encouraged the government of Hungary to take a series of 
actions, among them: establish a state-sponsored, international 
commission of scholars to prepare a definitive report on the 
history of the Holocaust in Hungary, including the history of 
anti-Semitism, and to make recommendations to the government 
regarding future Holocaust memorialization, education and 
research activities; enact legislation to prevent the creation 
of monuments, naming of streets or other public sites honoring 
individuals who played significant roles in the Holocaust-era 
wartime governments of the country; mandate in Hungarian 
secondary--in the Hungarian secondary school curriculum that 
every student in the country visit the Holocaust Memorial and 
Documentation Center in an organized class visit during his or 
her final four years of high school education; ensure that the 
speaker of parliament consistently applies the recently 
established authority of the speaker to censure, suspend and 
fine MPs for expressions of racist and anti-Semitic views; and 
take whatever additional steps are necessary to prevent ranking 
members of government ministries and members of Fidesz from 
participating, in either public or, quote, ``private,'' 
unquote, capacity, in activities that are likely reinforce 
racist, anti-Semitic or anti-Romani prejudices or that appear 
to rehabilitate the reputations of individuals who participated 
in the mass murder of Hungarian Jewry.
    Our museum has confirmed to the Hungarian government that 
we stand ready to be helpful in ways that our experience or 
expertise would allow.
    Mr. Chairman, democracy and memory are closely 
interrelated. Undermine democracy, and the rights of human 
beings deemed to be different are easily violated. Misrepresent 
the tragedies of one's national past, and soon it becomes 
necessary to control the media, manipulate electoral 
mechanisms, dispense with the legal niceties and adopt populist 
and jingoist stances in order to stay in control of the story 
by staying in power. That outcome is only available in 
dictatorships, not in democracies.
    Let me close. I appear here today--our museum appears here 
today on behalf of 600,000 Hungarian Jews and thousands of 
Hungarian Romani who can't be here, their lives snuffed out 
through the decisions, prejudices and failures of their 
country's leadership, fascist writers and ideologues and their 
fellow citizens who are directly complicit in acts of theft, 
deportation and murder. In their late name, let me stress that 
what happens in Hungary matters.
    Some weeks ago Hungary volunteered to assume the chair of 
the International Holocaust Remembrance Alliance in 2015. I 
would hope that before any decision is taken--to accept or 
reject that, the Hungarian government will dramatically alter 
the approaches that it has taken in addressing anti-Semitism 
and Holocaust issues, reverse the current downward trajectory 
and guide Hungary onto a path that is admired and praised 
rather than criticized.
    Nobel laureate and founding chairman of our museum Elie 
Wiesel, who was himself forced into a ghetto by Hungarian 
gendarmes and deported with his family to Auschwitz while 
Miklos Horthy was regent of Hungary, once wrote: If anything 
can, it is memory that will save humanity. Securing the memory 
of the Holocaust in Hungary is essential.
    Thank you, Mr. Chairman.
    Mr. Cardin. Well, let me thank all three of you for your 
testimony. I'm not going to have questions because I think your 
statements, all three, were very, very comprehensive and very, 
very clear and complete the record.
    I do want to make a few observations. First to Dr. Shapiro, 
I think you gave a very compelling account as to why we have to 
be very concerned about what we see happening in Hungary as it 
relates to Holocaust and the revisionists in history and 
rehabilitation of figures that were involved in the Holocaust. 
You cannot accept the fact that a person is doing this as a 
person rather than as a government official, and you can't 
condone silence. Why--where's the leadership? Where are the 
leaders of the country speaking out against these types of 
actions? I don't see it. So I think your concerns are very much 
warranted for us to be very concerned as to how they will 
respond to the points that you raise. So I just really want to 
compliment on your complete presentation.
    Dr. Scheppele, I want to--I will review with ODIHR and the 
parliamentary assembly your suggestions on monitoring of the 
elections. I think that is an important point, and we will do 
what we can in that regard. I think your comment about this 
being a one-party constitution is a very valid point. It's not 
a constitution that appears to be aimed at the stability, over 
the long term, of a democracy where you're going to have 
governments that will change over time as what happens in a 
democratic society.
    You also point out that the changes that were made in 
Amendment Four, as the Hungarians pointed out, were requested 
by the courts--well, maybe they were, knowing the type of 
courts that were appointed there, but clearly it takes away the 
independence of the courts.
    And I must tell you, Ms. Habdank-Kolaczkowska, that the--
your point about the media laws incorporating conditions that 
are just not reasonable must have a chilling effect. And then 
as you said on the religious laws, it's knocked down by the 
courts and they're going to put it back in the constitution--it 
just shows the failure of the Hungarian government to recognize 
an independent judiciary. And that is a real serious concern as 
we look at the development of Hungary as a democratic country.
    And the point that all three of you have made, that what 
happens in Hungary is important in Hungary but it's also 
important in Europe, there are so many countries that look to 
what is happening in Hungary and say, you know, maybe we should 
stack the deck in our favor? And how can the West complain 
after all their NATO allies are allowed to do this, so why 
shouldn't we be allowed to do this. So I think it is a--very 
troublesome developments. And we're going to continue to focus 
on this. We're going to continue to take up the offer of 
consulting with the Hungarians, and we'll work with our 
European friends to point out that these laws do not fit the 
type of development that Hungary is committed to doing. And we 
will follow this very, very closely.
    So again, thank you for all of your comments. They were, I 
said, very, very complete and part of our record. And with 
that, the commission stands adjourned. Thank you.
    Ms. Scheppele. Thank you.
    Mr. Shapiro. Thank you.
    Ms. Habdank-Kolaczkowska. Thank you.
                            A P P E N D I X

=======================================================================

                          Prepared Statements

                              ----------                              


Prepared Statement of Hon. Benjamin L. Cardin, Chairman, Commission on 
                   Security and Cooperation in Europe

    The progressive inclusion of post-communist countries into 
transatlantic and European institutions reflected the expansion of 
democracy and shared values, as well as the realization of aspirations 
long denied. Indeed, in 1997, the Helsinki Commission held a series of 
hearings to examine the historic transition to democracy of post-
communist candidate countries like Hungary prior to NATO expansion.
    I was among the many in the United States who cheered when Hungary 
joined NATO in 1999, and again when Hungary joined the EU in 2004--
illustrating not only Hungary's post-communist transformation, but also 
Hungary's ability to join alliances of its own choosing and follow a 
path of its own design. Hungary has been a valued friend and partner as 
we have sought to extend the benefits of democracy in Europe, and 
elsewhere around the globe.
    But today, concerns have arisen among Hungary's friends about the 
trajectory of democracy in that country.
    Over the past two years, Hungary has instituted sweeping and 
controversial changes to its constitutional framework, effectively re-
making the country's entire legal foundation. This has included the 
adoption of a new constitution--already amended multiple times 
including the adoption of a far-reaching Fourth Amendment just days 
ago--and hundreds of new laws on everything from elections to the media 
to religious organizations.
    More than that, these changes have affected the independence of 
judiciary, role of the constitutional court, the balance of power, and 
the basic checks-and-balances that were in place to safeguard 
democracy.
    It seems to me that any country that would undertake such 
voluminous and profound changes would find itself in the spotlight.
    But these changes have also coincided with a rise of extremism and 
intolerance in Hungary. Mob demonstrations have continued to terrorize 
Romani neighborhoods. Fascist-era figures are promoted in public 
discourse and the public place. A new law on religion stripped scores 
of minority faiths of their legal status as religious organizations 
overnight including, initially, Coptic Christians, Mormons, and the 
Reformed Jewish Congregation. Most have been unable to regain legal 
status, including the Evangelical Methodist Fellowship, a church that 
had to survive as an ``illegal'' church during the communist period and 
today serves many Romani communities.
    At the same time, the constituency of Hungary has been re-defined 
on an ethnic basis: citizenship has been extended into neighboring 
states on an ethnic basis, and voting rights now follow that.
    As the late Ambassador Max Kampelman once observed, minorities are 
like the canary in the coal mine. In the end, democracy and minority 
rights stand or fall together. If respect for minorities falls, 
democracy can't be far behind. And the rights of persons belonging to 
ethnic, religious, or linguistic minority groups will likely suffer in 
the absence of a robust democracy.
    Max Kampelman, who was long a friend of the Helsinki Commission, 
served with distinction as the head of the U.S. delegation to the 
seminal 1990 Copenhagen meeting, where some of the most important 
democracy commitments ever articulated in the OSCE were adopted:
    The participating States ``consider that the rule of law does not 
mean merely a formal legality which assures regularity and consistency 
in the achievement and enforcement of democratic order, but justice 
based on the recognition and full acceptance of the supreme value of 
the human personality and guaranteed by institutions providing a 
framework for its fullest expression. They reaffirm that democracy is 
an inherent element of the rule of law.''
    At issue now is whether Hungary's democratically elected government 
is steadily eroding the democratic norms to which Hungary has committed 
itself, in the OSCE and elsewhere. And we care about democracy in 
Hungary, for the people in Hungary as well as for the example it sets 
everywhere we seek to promote democracy.
    I welcome all of our witnesses here today, and I appreciate that 
you are giving of your considerable expertise, your insights, and your 
time.
    I especially appreciate that our second witness, Jozsef Szajer, has 
been asked by the Government of Hungary to represent it here today. As 
one of the framers of the constitution, we could have no more 
authoritative voice on the issues we are discussing and I thank you 
from coming from the European Parliament where you serve to share your 
views.
    Our first witness will be Mr. Brent Hartley, Deputy Assistant 
Secretary of State for European Affairs, followed by Mr. Szajer.
    Our final panel will include Dr. Kim Lane Scheppelle, an expert on 
constitutional law from Princeton University; Ms. Sylvana Habdank-
Kolaczkowska from Freedom House; and Dr. Paul Shapiro from the U.S. 
Holocaust Memorial Museum.
     Prepared Statement of Hon. Christopher H. Smith, Co-Chairman, 
            Commission on Security and Cooperation in Europe

    Less than a month ago I chaired a hearing on ``Anti-Semitism: A 
Growing Threat to All Faiths.'' One of the witnesses was Tamas Fellegi, 
a former minister in the Orban government, who is himself Jewish. His 
testimony was impressive, as was the long list of significant actions 
the Orban government has taken to combat anti-Semitism in Hungarian 
society.
    Mr. Fellegi admitted frankly that anti-Semitism is a serious social 
problem in Hungary. Fortunately, the Orban government is on a clear 
upward trajectory here, and gives every sign that it will continue to 
be part of the solution rather than the problem. I'm confident it will 
particularly take on the persistent attempts to rehabilitate Holocaust 
perpetrators and vicious anti-Semites, both from the 1930s and 1940s 
and today. I will certainly continue to urge it to do so.
    We all know that many NGOs and a few governments, including our 
own, have been vocal in criticizing the Hungarian government on various 
grounds touching on democracy and human rights--and that the Hungarian 
government and its supporters have rejected these criticisms 
vigorously.
    Having reviewed material on both sides, I must say that I believe 
the Orban government is right when it says that many of the criticisms 
are unfair, involving double standards, misrepresentations, and 
inaccurate information. The Hungarian government has carefully 
documented this, for example in its ``Open Letter to Freedom House.''
    For another example, the administration, in criticizing the Orban 
government's adoption of a new constitution, claims in its written 
testimony that in ``fundamental'' matters, ``the process must lead to a 
consensus built from a cross-section of society, rather than reflect 
only the opinions of the ruling coalition . . . the lack of serious 
consultation with different sectors of society, did not honor the 
democratic spirit . . .'' Anyone familiar with the passage of the 
Obamacare legislation might well question whether this is a message our 
government is ideally situated to deliver. Certainly it should have 
avoided the rude insinuation about democracy.
    Yet these kinds of messages need to be delivered--we must not give 
in to the cynicism induced by our own or any other government's 
failings.
    But we should be a lot more humble--especially when we are dealing 
with a country like Hungary, where the system of constitutional checks 
and balances is alive and well, where a democratic party with an 
unprecedented supermajority and a mandate for dramatic change, gained 
in a free and fair election, passed a democratic constitution and shows 
itself open to working with others to amend and improve the flaws in 
its new laws.
    This is a conversation between equals, and there is a lot we can 
learn from Hungary. I'm thinking particularly here of the 
constitutional cap on public debt and the statement that life will be 
protected in the womb.
    I'd like to congratulate the Hungarian government for the many 
laudable things in the new constitution--many things that advance human 
rights, including the prohibition of human trafficking, reproductive 
cloning, and its promotion of the culture of life. And for the rest, I 
look forward to a continuing conversation with the Hungarian government 
about their and our constitutional traditions and how they can both be 
improved.
                  Prepared Statement of Brent Hartley

    Thank you, Chairman Cardin and members of the Commission, for 
inviting me to join you today. Mr. Chairman, I am well aware of--and 
appreciate--your continued interest in events in Hungary. I believe 
your interest is warranted. Hungary remains a strong ally of the United 
States. Hungary is a member of two bedrock transatlantic 
organizations--the OSCE and NATO--which define and defend democracy in 
Europe and beyond. However, in the last two years we have been open 
about our concerns regarding the state of checks and balances, and 
independence of key institutions, in Hungary. The United States has not 
been alone in this regard, as the Council of Europe, the European 
Commission, other friends and allies of Hungary, and civil society 
organizations have expressed similar views. If the Government of 
Hungary does not address these concerns, not only will the lives of 
Hungarian citizens be affected, but it will also set a bad precedent 
for OSCE participating States and new members and aspirants to NATO.
    Last year marked the 90th anniversary of U.S.-Hungarian diplomatic 
relations: relations which remain strong, based on a common security 
architecture as NATO allies, a deep economic partnership, and what we 
believe are fundamental values shared by the American and Hungarian 
people. Hungary plays an active and positive role in international 
fora, leading the way towards goals compatible with ours on a wide 
range of issues.
    U.S.-Hungarian security cooperation, especially with respect to 
military, law enforcement, and counter-terrorism issues, is 
exceptionally robust. We have enjoyed warm relations with each and 
every Hungarian government since the transition from Communism over 20 
years ago. This underscores a point that we always stress with our 
Hungarian friends: our expressions of concern over the last two years 
should be taken in the proper spirit because they come from a strong 
friend of Hungary, and friends should be able to speak truth to 
friends. Our concerns do not arise from any hostility toward Hungary, 
ignorance of the specifics of the laws, or from a partisan slant 
against its current leadership. They are a sincere expression of what 
we and other friends of Hungary in Europe see as troubling trends in 
laws passed in the last few years.
    Before former Secretary Clinton visited Hungary in June 2011, we 
took notice of Hungary's controversial media law and a new 
constitution--which in Hungarian is called the Fundamental Law--
portions of which also raised concerns among impartial observers. In 
both cases, we had concerns about the content as well as the process by 
which they were passed. Due to the mechanics of the electoral system, 
the current government gained a two-thirds majority of Parliament based 
on winning 52 percent of the vote in free and fair elections in 2010. 
This gave it the authority to pass new laws, and indeed a new 
constitution. As we have often said, Hungarian laws should be for 
Hungarians to decide. But for something as fundamental as a 
constitution or a law impacting freedom of the press, the process must 
lead to a consensus built from a broad cross-section of society, rather 
than reflect only the opinions of the ruling coalition. The speed with 
which these laws were drafted and then passed, and the lack of serious 
consultation with different sectors of society, did not honor the 
democratic spirit that the people of Hungary have long embraced.
    That is why when Secretary Clinton visited Budapest in 2011, she 
called for Hungary to show ``a real commitment to the independence of 
the judiciary, a free press, and governmental transparency.''
    Since then, the Hungarian parliament has passed scores of laws at 
an accelerated pace. Most of these laws were unobjectionable and aimed 
at addressing issues that had not been addressed in the early days 
after Hungary's democratic transitions in 1989. But more than a few of 
these laws posed threats to systemic checks and balances and the 
independence of key institutions that are the bedrock of mature 
democracies. Privately and publicly, we expressed our concern to the 
Government of Hungary, as did several European institutions and 
governments. Our message to our Hungarian allies is that all 
democracies have a duty to safeguard institutional checks and balances. 
Unfortunately, in many respects our message went unheeded.
    My colleague Deputy Assistant Secretary Thomas O. Melia, whose 
experience in Hungary goes back to 1989, has described the root of our 
concerns with key Hungarian laws as the concentration of too much power 
into too few hands.
    When Hungary's Constitutional Court struck down a law on fiscal 
issues, the parliament swiftly passed another law taking away the 
Court's competency to decide cases based on fiscal matters. The 
government also expanded the Constitutional Court from 11 to 15 
members, allowing the current administration to select the additional 
justices and thereby alter the Court's juridical balance. The new laws 
created a Media Council and gave it significant powers to oversee 
broadcast media, including the right to fine media for ``unbalanced 
coverage,'' an unsettlingly vague term. Unlike similar media bodies in 
other democracies, such as our Federal Communications Commission, no 
opposition parties are represented on Hungary's new Media Council. The 
Council members have nine-year terms, and cannot be removed without a 
two-thirds vote of parliament. The long length of these terms ensures 
that these political appointees will remain in place well past the next 
planned parliamentary elections in 2014. This would tie the hands of 
the next government should it have anything less than a two-thirds 
majority.
    The new laws also created a National Judicial Office and gave it a 
powerful, politically-appointed President with a nine-year term and the 
authority to assign cases to any court she sees fit. This enables the 
office-holder to engage in``venue shopping'' by steering specific cases 
to specific judges--a recipe for potential abuse.
    Another new law stripped over three hundred religious congregations 
or communities of their official recognition. To be clear, non-
recognized religious groups are still free to practice their faith in 
Hungary. However, they do not enjoy certain tax benefits and subsidies 
that recognized religious groups do. In order to regain recognition, 
religions will have to be approved by a two-thirds vote of parliament, 
an onerous and unnecessarily politicized mechanism. While we understand 
that the new religion law was adopted to stop fraud, we have urged the 
Hungarian Government to seek a less onerous and less politicized 
procedure to weed out malfeasance.
    In mid-2012, as expressions of concern from the United States and 
Europeans mounted, the Hungarian Government began responding in 
constructive ways. The government voluntarily submitted many laws for 
review by the legal experts of the Council of Europe's Venice 
Commission. In some cases, though by no means all, the government 
modified laws to take into account specific concerns expressed by the 
Commission. While some important issues remained unresolved, we were 
heartened that Hungary was engaging in dialogue, recognizing the merits 
of concerns expressed by the United States and others, and taking steps 
to address them.
    We were further heartened when, early this year, Hungary's 
Constitutional Court issued several rulings striking down controversial 
legislation. This demonstrated that the Court could serve as an 
effective check on government. Unfortunately, the reaction by the 
Hungarian government again called into question its commitment to 
checks and balances and institutional independence. The government 
drafted and swiftly passed a new constitutional amendment, parts of 
which reinstated laws that had just been struck down by the Court. 
Again, the process was rushed and lacking in broad societal 
consultation. Moreover, the Hungarian Government ignored pleas from the 
State Department, European Commission, and Council of Europe--as well 
as several respected, non-partisan Hungarian NGOs--to engage in a more 
careful, deliberative process and allow for the Venice Commission's 
experts to review the amendment. This has prompted renewed expressions 
of concern from the Council of Europe, the President of the European 
Commission, and other allied governments, including the United States. 
While the Government of Hungary has now submitted the amendment to the 
Venice Commission, this is the opposite of the normal procedure, 
whereby the Commission reviews laws before they are passed, not after 
passage.
    I would like to address one other area that has provoked much 
concern: the rise of extremism in Hungary. This phenomenon is, sadly, 
not unique to Hungary. The rise in Hungary of the extremist Jobbik 
party as one of the largest opposition groups in parliament, and 
Jobbik's affiliated paramilitary groups that incite violence, are clear 
challenges to tolerance.
    Let me be clear: the ruling Fidesz party is not Jobbik. Fidesz' 
ideology is within the mainstream of center-right politics, and its 
platform is devoid of anti-Semitism or racism. In 2012, the Government 
of Hungary used the centenary of Raoul Wallenberg's birth to promote 
tolerance. Moreover, we have seen a growing willingness by Hungarian 
government leaders to condemn anti-Semitic and racist acts and 
expressions. However, such condemnation is not always swift or 
resolute. The Hungarian Government can and must do more to foster 
tirelessly a climate of tolerance. One concern is that some local 
governments in Hungary have, with little objection from the governing 
party, erected statues and memorials to tainted figures from Hungary's 
past. And some of these figures have been re-introduced into the 
national educational curriculum. As the Department's former Special 
Envoy to Monitor and Combat Anti-Semitism said last year, ``the recent 
rehabilitation of figures from Hungary's past who are tainted by their 
support for Fascism and anti-Semitism contributes to a climate of 
acceptance of extremist ideology in which racism, anti-Semitism, and 
other forms of intolerance can thrive.''
    We also call upon Hungarian leaders to do more to defend Romani 
Hungarians, who--like Romani in many other European countries--face 
discrimination, racist speech and violence that too often goes 
unanswered, just as in the United States leaders from both parties 
routinely speak out against racism. We urge that perpetrators of 
violent attacks against Roma--in Hungary as well as elsewhere in 
Europe--will be arrested and prosecuted as swiftly as those who commit 
anti-Semitic attacks.
    In conclusion, the United States has long enjoyed and benefitted 
from its strong alliance with Hungary and its people. Just as we 
continue to do hard work together in Afghanistan and other danger spots 
around the world, so too will we continue to have a sincere--and at 
times difficult--dialogue on the importance of resolutely upholding the 
fundamental values that bind us.
    Thank you, Mr. Chairman, for allowing me to express the State 
Department's views on these important issues.
              Prepared Statement of the Hon. Jozsef Szajer

    Chairman Cardin, Co-Chairman Smith and distinguished members of the 
U.S. Helsinki Commission, Distinguished Members, Ladies and Gentlemen:
    It is an honor for me to appear here to share my views on the state 
of Hungarian democracy. I am a founding member of the now governing 
party, Fidesz, which was the first opposition organization during our 
transition to democracy 25 years ago. I am also Member of the European 
Parliament elected directly by the citizens of Hungary. In my capacity 
as member of the Hungarian Parliament, I have participated in the 
preparation of almost every major constitutional change over the last 
twenty years. Recently, I had the great honor of being the Chairman of 
the Drafting Committee on the Fundamental Law of Hungary, the new 
Constitution of my country, which is a subject matter of this hearing.
    I want to underline that Hungary has been a constitutional 
democracy, respecting the rule of law and the rights of the citizen 
ever since the transition to democracy more than twenty years ago. 
Anyone who might claim otherwise should be encouraged to come to 
Hungary and make a first-hand experience, to study our difficult past 
and recent history, to ask the Hungarians themselves. This is an 
invitation I warmly extend to the U.S. Helsinki Commission.
    Hungary is a nation with one of the longest, one thousand year old 
constitutional tradition, which my country is very proud of. One of the 
finest pieces of our historic constitution, the Bulla Aurea (our Magna 
Charta) dates back to 1222. Hungary boasts the first ever 
constitutional document on religious tolerance, the Torda Declaration 
from the sixteenth century. Our new constitution follows the steps of 
these historic achievements. It aims also to restore one thousand years 
of historic constitutional continuity which was lost in 1944 as a 
consequence of the Nazi, and the subsequent Soviet occupation of my 
country.
    As a legislator myself, I would like to express my appreciation for 
your interest in the sovereign act of the Hungarian nation's historic 
constitution making enterprise. I admire your great Constitution and we 
held it as a compass in creating our new one. Elected representatives 
of our great, freedom loving nations like the American and the 
Hungarian should always find appropriate occasions to exchange, on 
equal grounds, views and experiences on matters of great importance. 
And what could be more important than a nation's constitution? And what 
could be a more significant part of a nation's sovereignty than 
creating her own constitution? You in America gained your independence 
more than two hundred years ago. Thousands of Hungarians died for 
Hungary's independence, but finally we won it only a little more than 
twenty years ago when the Soviet occupation ended. I was there, I was 
part of that generation, which achieved it, and now our task is to 
consolidate it! Hence, you should be aware of the high sensitivity of 
our nation towards questions of independence and non-interference. We 
Hungarians consider that our nation's own constitution is an exercise 
in democracy that we should conduct. We listen to advice given in good 
faith, we learn from the experience of others. This is the very reason 
I am here now, but we insist on our right to decide. This is democracy 
and self-determination that we had been fighting for so long.
    My core message is that on your behalf there is no reason to worry 
about the commitment of Hungary to democracy and the rule of law. My 
main argument is that the new amendment does not carry any significant 
element which has not been tested before by the competent European 
institutions and modified if necessary.
    In the 2010 elections, FIDESZ won a victory of rare magnitude, 
obtaining a constitutional majority, more than two-thirds of the seats 
in the National Assembly. The choice of the Hungarian people was a 
response to a deep economic, social and political crisis. The 
mismanagement of public finances, public deficit and debt slipping out 
of control and the frequent parading of paramilitary organizations were 
among its symptoms. We also witnessed serious violations of basic human 
rights by the authorities: the most serious ones concerning the freedom 
of assembly in the autumn of 2006. At those difficult times we were 
expecting the support of the democratic community of the world to speak 
out against state oppression of the citizens' freedoms. Unfortunately, 
the international community turned a blind eye. Public order was 
seriously challenged by shocking events like the serial killings of our 
Roma compatriots with clear racist motivations and with the public 
authorities standing by crippled.
    In 2010 we received the mandate and the corresponding 
responsibility to put an end to all that: start a comprehensive reform, 
including the adoption of a new constitution. In other words: correct 
the trajectory of our democracy.
    A new constitution was long overdue. All Central and Eastern 
European countries had adopted their new, democratic constitutions long 
before, while Hungary had to live with an updated, explicitly 
transitory version of its 1949, Stalinist Constitution: in spite of 
several attempts, previous governments and parliaments lacked either 
the necessary majority or the political will to replace it altogether.
    The Constitution of Hungary, as a member of the European Union and 
of the wider Euro-Atlantic community, respects and promotes the values 
of democracy and the rule of law. Large parts of the ensuing 
legislation have been subject to political debate and to legal review 
by the competent European institutions. For instance, it has been 
subject to controversy right from the start for its pro-life and pro-
family stance. The new Fundamental Law was scrutinized by the Venice 
Commission of the Council of Europe, which welcomed the ``efforts made 
to establish a constitutional order in line with the common European 
democratic values and standards and to regulate fundamental rights and 
freedoms in compliance with the international instruments . . .'' and 
noted that ``the current parliamentary system and the country's form of 
government . . . have been maintained.'' While the European Commission 
launched four infringement procedures on some cardinal laws following 
the adoption of the Fundamental Law, it never challenged the 
Fundamental Law itself. (Under Article 4 of the Treaty on European 
Union the Union `shall respect' the constitutional sovereignty of the 
member states.) The Hungarian Government was cooperating and complying 
throughout the process: it changed the Media Law and the Law on the 
Judiciary at the request of the Commission.
    A few words on the new amendment. Around 95 percent of the 
provisions of the so-called Fourth Amendment, adopted last week, had 
been in effect ever since the entry into force of the new Constitution. 
We did not intend to change our Fundamental Law so soon after its 
adoption. What happened is that the Constitutional Court, in its recent 
decision, annulled some of the Transitory Provisions of the Fundamental 
Law on technical grounds. In fact, under the legislation, the 
Transitory Provisions, subject to a two-thirds majority and as such put 
on equal footing with the Fundamental Law, carried some constitutional 
provisions the Court now ruled should be moved to the Fundamental Law 
itself. In other words, the position of the Court, based on the German 
constitutional doctrine of `obligation to incorporation' is that the 
Constitution should be one single act: therefore, what had to be done 
was basically a copy-paste exercise of a purely technical nature. Hence 
the length of the new amendment! But not much new text. The Fourth 
Amendment was based on the request of the Court, and not against it, as 
some critics misleadingly claim.
    Some words on the new elements.
    All assertions to the contrary notwithstanding, the Fourth 
Amendment does not reduce the powers of the Constitutional Court. In 
fact, it does the opposite. It adds the President of the Supreme Court 
and the Chief Prosecutor, to those having the right to file for the 
constitutional review of laws. It repeals the rulings of the Court 
passed under the old Constitution, but clarifies at the same time that 
its rulings shall not lose their legal effect and--as specified by an 
additional amendment--the Court shall remain free to refer to its own 
previous case-law in its future jurisdiction. Nor can the Amendment 
strip the Court of a power it never had: the right to review and annul 
the Constitution text itself or its amendments, unless on the grounds 
of procedural flaws. My definition of the separation of the powers is 
that the Court interprets but does not change the text of the law. The 
power to change (or annul) the text of the Constitution should belong 
exclusively to the constitutional authority, which is the National 
Assembly in the case of Hungary. The Fourth Amendment makes a big step 
forward in making the procedures of the Constitutional Court 
transparent, by opening it to public access. It also adds--following 
several European examples--that the parties concerned in the 
proceedings should have the right to express their views in the 
procedure, changing the annoying and much criticized `black box' nature 
of the Court.
    Concerning the status of churches, I would like to reiterate that 
the criticized legislation has nothing to do with religious freedom or 
even with religion. According to Article VII (1) of the Fundamental 
Law, the confession and exercise of faith individually or collectively 
is a basic right of individuals and religious communities (without any 
need for registration). The only power the National Assembly has in 
this regard is to choose, on the basis of criteria codified by law, on 
which religious community to confer the additional right to subsidies 
from taxpayers' money. This is common practice in Europe but our list 
of churches is more generous than the European average. I know that on 
the basis of your Constitution's First Amendment, your system is 
different from the European model. Our Fourth Amendment adds an 
important correction: the parliamentary decision (by 2/3 majority) can 
be appealed at the Constitutional Court on procedural grounds. This 
change was adopted to implement the relevant Court decision.
    On the front of the media, I have no breaking news. Here we can 
tell a real success story, at least if measured by the sheer number of 
reports, articles and other expressions that are harshly critical of 
the government published every single day in the free press of my 
country. If you read them, you will not witness any sign of the 
infamous self-censorship either! Anybody taking the trouble to check 
the situation on the ground rather than judging by hearsay would agree 
with that. I am not aware of any case of censorship or harassment of 
journalists during the three years of the current government. The 
actual purpose of the Media Law was to adapt to the Internet age and to 
streamline the financing of public media by our taxpayers. Many other 
countries are studying this law. There are huge debates in countries 
like the UK about appropriate press regulation. As mentioned earlier, 
the Media Law has been corrected on a couple of occasions at the 
request of the European Commission and the Constitutional Court.
    Expressions of anti-Semitism and of racism in Hungary are cause for 
concern. Even though the phenomenon is not new and unfortunately 
widespread all over Europe, each and every such incident is deplorable 
and calls for more determination to eliminate them. The Hungarian 
Government is equal to the challenge. Prime Minister Orban has 
repeatedly underlined that he stands for a policy of ``zero tolerance'' 
when it comes to anti-Semitism.
    Here we are confronted with two conflicting expectations: to combat 
hate speech and safeguard the freedom of expression at one and the same 
time. One has to strike a balance. In the Fourth Amendment, we chose to 
lay the constitutional grounds for civil procedure open for any person 
in case his or her religious, ethnic or national community should be 
seriously offended in its dignity. This might not be the only solution 
to the problem; there has been criticism but we cannot stand aside 
idly. To illustrate the paradox, let me remind you of the kuruc.info 
case. Kuruc.info is a Hungarian language website, registered in the 
U.S., infamous for propagating racial hatred and violence, targeting 
the Hungarian public. The Hungarian authorities have in vain requested 
its closure by the U.S. authorities. The answer has always been that it 
was not possible under the more liberal U.S. laws.
    Jewish communities in Hungary, which had been waiting for stronger 
legal instruments against hate speech for decades, welcomed the move. 
Rabbi Koves, leader of the Unified Hungarian Jewish Congregation and 
the Action and Protection Foundation called the relevant article of the 
Draft 4th Amendment as an `historic step forward in defense of the 
dignity of the communities'.
    Our policy is consistent with our unambiguous relationship with the 
past. It was the first Orban Government which founded the Holocaust 
Memorial Center in Budapest and included a special Holocaust 
Remembrance Day for the first time in the curriculum of high schools. 
Yet the latest shining evidence is the international Wallenberg 
memorial year in 2012, launched by the second Orban cabinet to 
commemorate the centenary of the birth of the Swedish diplomat who 
rescued thousands of Jewish lives in Budapest at the end of World War 
II and who was posthumously given the highest recognition by your 
legislature, the Congressional Medal of Honor. The Wallenberg year has 
earned universal acclaim. It gave us an opportunity to admit Hungarian 
co-responsibility in the Shoah, which Mr. Janos Ader, President of 
Hungary, solemnly did in his speech before the Israeli Knesset.
    The time allotted for my testimony may not be long enough to 
dismiss all your concerns but I am confident that they will abate once 
the amendments are looked at more closely--as was the case with the 
Media Law, the Law on the Judiciary, and I can cite many other 
examples. I am here to assure you that the Hungarian Government is at 
your disposal for further clarifications. We are open to criticism if 
based on facts and arguments. Foreign Minister Martonyi has requested 
the Venice Commission to give its opinion on the Fourth Amendment and 
would propose changes if necessary. We abide by the rules of the 
European institutions and expect the same from all others, including 
our critics. I am deeply convinced that in a constructive dialogue we 
can enrich each other's constitutional experience, and thus avoid 
unfounded accusations and disagreements arising from misunderstandings.
    The friendship between our two nations, Hungary and the U.S. 
belonging to the same alliance and being each other's solid partners in 
promoting, shoulder to shoulder, our common values in places like 
Afghanistan and the Balkans will help.
    Let me close my remarks with the first line of our national anthem, 
hence the first line of our new constitution: God bless Hungarians! 
Isten, aldd meg a magyart.
              Prepared Statement of Dr. Kim Lane Scheppele

    I am honored to testify before you today. My name is Kim Lane 
Scheppele, and I am the Rockefeller Professor of Sociology and 
International Affairs, as well as the Director of the Program in Law 
and Public Affairs, at Princeton University. I am also a Faculty Fellow 
at the University of Pennsylvania Law School.
    Nearly twenty years ago, the US National Science Foundation gave me 
a grant to move to Hungary to study the Hungarian Constitutional Court, 
then the most impressive of the new courts in Eastern Europe. I planned 
to go for one year but stayed for four, working as a researcher at the 
Constitutional Court and serving as an expert advisor to the 
constitutional drafting committee of the Hungarian Parliament in 1995-
1996, a position I occupied with the assistance of a second NSF grant. 
I am grateful to the NSF for having funded my research on Hungary, 
which documented how the new Hungarian constitution of 1989 put down 
roots and grew to support a vibrant Hungarian constitutional democracy. 
I have followed Hungarian constitutional developments closely ever 
since.
    I am here today because the current Hungarian government has felled 
the tree of democratic constitutionalism that Hungary planted in 1989.
    Since its election in 2010, the Fidesz government has created a 
constitutional frenzy. It won two-thirds of the seats in the Parliament 
in a system where a single two-thirds vote is enough to change the 
constitution. Twelve times in its first year in office, it amended the 
constitution it inherited. Those amendments removed most of the 
institutional checks that could have stopped what the government did 
next--which was to install a new constitution. The new Fidesz 
constitution was drafted in secret, presented to the Parliament with 
only one month for debate, passed by the votes of only the Fidesz 
parliamentary bloc, and signed by a President that Fidesz had named. 
Neither the opposition parties nor civil society organizations nor the 
general public had any influence in the constitutional process. There 
was no popular ratification. The Fidesz constitution went into effect 
on January 1, 2012.
    While the government claims it was given a mandate to make major 
changes, the general Hungarian public thinks otherwise. During the 
election campaign in 2010, Fidesz never said it would change the whole 
constitutional system. Once the Fidesz governing program became clear 
after the party came to power, the popularity of Fidesz has plummeted, 
even more so after the government undertook to replace the 
constitution.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    After the April 2010 election, Fidesz's popularity has steadily 
dropped. But none of the other parties--the MSzP (Socialists), Jobbik 
(far-right party), LMP (Politics Can be Different, a liberal/green/
youth party) or the new liberal electoral coalition Egyutt 2014 
(Together 2014)--is any more popular. Surveys show that 50% or more of 
Hungarian voters say that there is no political party that they 
support.
    Even though the government pushed through a one-party constitution 
without support from any other political fraction, except its own 
party-list partner the Christian Democrats, this didn't stop the 
constitutional juggernaut. The government has amended its new 
constitution four times in 15 months. Each time, the government has 
done so with the votes of only its own political bloc, rejecting all 
proposals from the political opposition or from civil society groups. 
The current Hungarian constitution remains a one-party constitution.
    Just last week, the Fidesz government passed a 15-page amendment to 
the new 45-page constitution. Laszlo Solyom, the conservative former 
president of both the Constitutional Court and the Republic of Hungary, 
said in a public statement last week that the ``Fourth Amendment'' 
removes the last traces of separation of powers from the Hungarian 
constitutional system. Under the constitution as amended, no 
institution has the legal right to check many of the key powers of the 
one-party government.
    The Fourth Amendment nullifies more than 20 years of rights-
protecting case law of the Hungarian Constitutional Court that had been 
developed before the new constitution went into effect. This leaves a 
giant gap where firm legal protection of basic rights once stood. The 
Fourth Amendment specifically overturns nearly all of the decisions 
that the Constitutional Court made in the last year striking down 
controversial new laws the Fidesz government had passed. The Fourth 
Amendment removes the Court's power to evaluate on substantive grounds 
any new constitutional amendments, a move which allows the government 
to escape review by inserting any controversial new proposal directly 
into the constitution. The Fourth Amendment entrenches political 
control of the judiciary and gives the government new tools to prevent 
the opposition from coming to power. The Fourth Amendment reverses many 
of the concessions Hungary made last year when the European Union, the 
Council of Europe and the US State Department criticized fundamental 
aspects of that constitution.
    Under cover of constitutional reform, the Fidesz government has 
given itself absolute power. It now has discretion to do virtually 
anything it wants, even if civil society, the general public, and all 
other political parties are opposed.
    How could Hungary have fallen so far so fast from the family of 
stable constitutional democracies? The answer lies in the Achilles' 
heel of the old constitutional system: a disproportionate election law 
combined with an easy constitutional amendment rule.
    Hungary's 1990 election law gave disproportionate numbers of seats 
to the winner of an election, a feature that was designed to help 
plurality parties form stable governments. When Fidesz got 53% of the 
vote in the 2010 election, the election law converted this victory into 
68% of the seats in the Parliament. While Fidesz won this vote in a 
joint party list with the Christian Democrats (the KDNP), the Christian 
Democrats barely have an independent existence apart from Fidesz and 
its members vote in a bloc with Fidesz on every issue.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Translation: The Fidesz/KDNP joint party list (orange) received 
52.7% of the vote, 263 of the seats and 68.1% of the Parliament. MSzP 
(Socialists) (red) received 19.3% of the vote, 59 of the seats and 
15.3% of the Parliament. Jobbik (far-right party) (dark green) received 
16.6% of the vote, 47 of the seats and 12.2% of the Parliament and LMP 
(Politics Can be Different) (light green) received 7.7% of the vote, 16 
of the seats and 4.1% of the Parliament. There was one independent MP.
    Armed with its two-thirds supermajority, the Fidesz government has 
been able to make use of the old constitution's amendment rule, dating 
to the communist constitution of 1949, which permitted the constitution 
to be changed with a single two-thirds vote of the Parliament. This 
``magic two-thirds'' has enabled Fidesz to make all of its 
constitutional changes in a formally legal manner. Only one barrier 
remained: In 1995, under a prior two-thirds government, the old 
constitution was amended to require a four-fifths vote of the 
Parliament before any new constitutional drafting process could begin. 
One month into its term, Fidesz used its two-thirds vote to amend the 
constitution to remove the four-fifths requirement.
    Many of the laws, including the constitution itself, many of the 
constitutional amendments and most of the cardinal laws, were 
introduced through the parliamentary procedure of a ``private member's 
bill,'' which bypasses the stage of public consultation required of all 
government bills. That, combined with the fact that the Parliament 
instituted a new rule through which a two-thirds vote could cut off 
parliamentary debate on any topic, has meant that most of these new 
laws have received very little public discussion. It has not been 
uncommon for a constitutional amendment go from first proposal to final 
enactment in just a few weeks.
    Taken over three years, the constitutional changes are complicated, 
detailed, and spread out across a new constitution, four major 
constitutional amendments, dozens of ``cardinal'' (super-majority) 
laws, and thousands of pages of ordinary laws that were all passed in a 
giant legislative blur, sometimes in the middle of the night. I 
strongly suspect that most Hungarians do not understand the details of 
this new constitutional system. Even Hungarian lawyers are not able to 
keep up with the total revolution in the law. In what follows, I will 
try to explain how the new system of Hungarian government is 
structured, current as of March 15, 2013, taking all of this new law 
into account.
    The primary source for my testimony is the Magyar Kozlony, the 
official gazette of the Hungarian government that publishes all of the 
laws. From my perch in the United States, I cannot say how the laws are 
being carried out. But I can say how the laws are structured and what 
they do and do not permit. I will call this whole new legal structure 
the ``Fidesz constitution'' even though not everything is in the single 
constitutional text or its amendments. Many elements of the system I 
describe are in two-thirds ``cardinal'' laws that are almost as 
entrenched as the constitution itself, which is why I don't make the 
fine distinctions here except where they are crucial for understanding 
how the system works. I am happy to provide detailed legal citations 
for all of the claims I make below if you are interested in checking 
more precisely what I say or precisely where in the law each of these 
statements can find support.
    Others who are providing testimony for this hearing will address 
other crucial issues raised by the current Hungarian government's 
actions over the last three years. They will address the fate of civil 
liberties, the difficult situation for many churches in Hungary and the 
growing and increasingly virulent strains of anti-Semitism and anti-
Roma agitation that have occurred alongside this constitutional 
revolution.
    My remit at this hearing today is to talk about something 
altogether more boring, but no less important: the system of divided 
and checked powers necessary for a government to remain both 
constitutional and democratic. History tells us that a government that 
has no limits on what it can do and that concentrates all powers in a 
single party will soon cease to be either constitutional or democratic.
    The importance of checked and limited powers was an insight very 
familiar to the American constitutional framers. The Philadelphia 
Convention did not even include a bill of rights in the US Constitution 
because the framers believed that the most effective protection for 
rights was a government that was limited by law. While American history 
has taught us that a bill of rights matters--and the ratification 
process of the US Constitution insisted on including one--we have also 
learned much from Princeton graduate James Madison, who wrote in 
Federalist #47: ``The accumulation of all powers, legislative, 
executive, and judiciary, in the same hands, whether of one, a few, or 
many, and whether hereditary, self-appointed, or elective, may justly 
be pronounced the very definition of tyranny.''
    By James Madison's definition, Hungary is on the verge of tyranny.
    In what follows, I will show that the Fidesz political party has 
gathered all of the powers of the Hungarian government into its own 
hands, without checks from any other political quarter and without any 
limits on what it can do.
    We should start with the basics: Hungary has a unicameral 
parliamentary system of government. A unicameral Parliament has no 
upper house to check what the lower house does, no ``Senate'' to 
complicate life for the ``House of Representatives'' and vice versa. A 
parliamentary system means that the most powerful executive, the prime 
minister, is elected by the Parliament rather than directly by the 
people. As a result, the prime minister in Hungary is virtually 
guaranteed a majority for all of his legislative initiatives because 
that legislative majority put him into his job. Not surprisingly, the 
legislative-executive cooperation guaranteed in Hungary's unicameral 
parliamentary system dates back to the communist constitution of 1949. 
(From the mid-19th to the mid-20th centuries, Hungary had a bicameral 
parliament.)
    In 1989, however, major constitutional changes in Hungary added a 
number of checks to this basic framework. A Constitutional Court was 
created as the primary watchdog on the majoritarian dangers of a 
unicameral parliamentary system. Unlike a Supreme Court which is the 
highest court of appeal in the legal system (something we are familiar 
with in the United States), a Constitutional Court is the only court 
that is allowed to hear and decide constitutional questions--and it 
does nothing else besides rule on constitutional matters. Because the 
Hungarian Constitutional Court conducts the primary oversight in a 
system that has little formal separation of legislative and executive 
power, it is even more important than the Supreme Court in the American 
separation-of-powers system.
    Given such weighty responsibility in the 1989 constitutional 
design, the Constitutional Court was made highly accessible to the new 
democratic public in Hungary. Literally, anyone could ask the 
Constitutional Court to review a law for constitutionality using a so-
called actio popularis petition. As a result, virtually every law was 
challenged. From the time it opened in January 1990, the active 
Constitutional Court kept each new government under constitutional 
constraint regardless of the political leanings of the government. 
Opinion polls showed that the Constitutional Court was consistently the 
most highly respected political institution in Hungary.
    The procedure for electing judges to the Constitutional Court 
before 2010 prevented the Court from being captured by any one 
political fraction. Because each judicial nominee to the Constitutional 
Court had to first be approved by a majority of parliamentary parties 
before then being elected to the Court by a two-thirds vote of the 
Parliament, the Court always had a balance of different political views 
represented on the bench.
    Other changes that were made to the constitutional system in 1989 
provided more checks on Hungary's unicameral parliamentary government. 
Revamped parliamentary procedure required extensive consultation with 
both civil society and opposition parties before government bills could 
be put to a vote. Important issues of constitutional concern required a 
two-thirds vote of the Parliament. As we have seen, however, the 
private member's bill procedure allowed the consultation stage for 
legislation to be bypassed and the two-thirds laws could cease to be a 
real check on power when the government had two-thirds of the 
parliamentary seats, something the disproportionate election law made 
quite likely.
    Four ombudsmen added after 1989 to the system of rights protection. 
Other independent institutions--the central bank, state audit office, 
prosecutor general's office, national election commission and media 
board--provided both expertise and additional checkpoints. For example, 
both the national election commission and the media board were 
structured to ensure representation from across the political spectrum. 
An independent self-governing judiciary ensured that the laws were 
fairly applied.
    There were so many different checks instituted after 1989 on the 
power of the prime minister and his parliamentary majority that the 
post-1989 constitutional system worked reliably to ensure that the 
operation of majoritarian political power didn't ride roughshod over 
democratic guarantees and constitutional limitations.
    By contrast with this robust system of complementary powers, the 
new ``Fidesz constitution'' removes virtually all of the checks added 
to the prior communist constitution after 1989. I will detail the major 
reversals here.
    Under the Fidesz constitution, the Constitutional Court's power and 
independence have been compromised in multiple ways. The system for 
electing constitutional judges was changed so that now a single two-
thirds vote of the Parliament is sufficient to put a judge on the 
Court, abolishing the multiparty agreement that was once necessary for 
nomination. The Fidesz constitution also expanded the number of judges 
on the Court from 11 to 15, giving the governing party four more judges 
to name immediately.
    Between changing the process for electing judges and expanding the 
number of judges to be elected, Fidesz government has been able to 
select nine of the 15 judges on the Court in its first three years in 
office. The Fidesz parliamentary bloc, voting in unison as it always 
does, put these judges onto the Court without multiparty support, 
though a few of the new judges were able to garner some votes from the 
far-right Jobbik party. The new constitutional judges have almost 
always voted for the Fidesz government position in each case. Some of 
the new judges have just voted for the government's position without 
even giving reasons.
    Even if the Court is in Fidesz-friendly hands, however, a powerful 
Court might still be dangerous to a government that shuns checks on its 
freedom of action. This may explain why the jurisdiction of the Court 
has been cut. The Court no longer has the power to review laws based on 
``actio popularis'' petitions, which are petitions that anyone can 
file. Now, the only individuals who can challenge laws must show that 
they have been concretely injured by the application of a potentially 
unconstitutional law and that they have exhausted their remedies in the 
ordinary courts. If the Constitutional Court can only hear cases that 
have concrete victims, it is hard for the Court to rule on matters 
pertaining to separation of powers and the structure of democratic 
institutions. Individuals rarely get ``standing'' to challenge a law 
that creates a new system for judicial appointments or a law that gives 
a government agency the power to issue decrees without parliamentary 
oversight, both laws that have been passed since Fidesz came to power. 
Some elements of ``abstract review'' remain with the Constitutional 
Court, but these, too, have been restricted.
    Abstract review allows the Court to hear challenges to laws without 
a concrete dispute before it. With the exception of the Parliamentary 
Commissioner for Human Rights (who will himself be replaced by Fidesz 
parliamentary majority later this year), the constitution gives the 
power to challenge laws abstractly only to particular offices that are 
currently occupied by people affiliated with Fidesz. One might guess 
that Fidesz appointees do not have a strong incentive to limit the 
power of their own government. While one-quarter of the Parliament is 
also given the power to challenge a law at the Constitutional Court, 
the one-third of the seats in the current Parliament that are not held 
by the governing party are divided between parties of the center-left 
and a party of the far right, who would have to agree on a challenge, 
something that is not very likely. As a result, many laws have been 
effectively insulated from constitutional challenge by the way that 
abstract review power has been designed.
    Even with the limitations on access to the Constitutional Court 
that were built into the Fidesz constitution, the system of judicial 
review in Hungary may seem broader than the system we have in the 
United States. Therefore, the dangers of the new system in Hungary may 
not be apparent to an American eye. Limiting the power to initiate 
judicial review only to those who have been directly injured and only 
to officials who owe their jobs to this government limits the ability 
of the Court to reach constitutional violations that it used to be able 
to reach. The U.S. Supreme Court cannot reach all constitutional 
violations either, but the United States has a bicameral Congress, a 
separately elected president, a vigilant and active civil society, and 
federalism, which adds state governments and state courts as additional 
checks on the power of temporary majorities. Hungary has none of those 
checking institutions and so relies on the Constitutional Court to 
carry more weight in the constitutional system. Making it difficult for 
this Court to reach all constitutional violations creates blind spots 
in which unconstrained political discretion can override constitutional 
values.
    In addition to limiting access to the Court, the Fidesz 
constitution restricts the jurisdiction of the Court in other ways as 
well. The Court may no longer review any law that deals with taxes or 
budgets when those laws are passed at a time when the national debt is 
more than 50% of GDP. Under the Fourth Amendment passed last week, the 
Court will never have the power to review budget and tax laws that were 
passed under these circumstances. As a result, if a tax law passed this 
year infringes an individual's constitutionally guaranteed property 
rights or if such a tax is applied selectively to particular minority 
groups, there is nothing that the Constitutional Court can do--in 
perpetuity. This opens up a space for the government to violate many 
personal rights without any constitutional oversight.
    The Fourth Amendment has also banned the Court from reviewing 
constitutional amendments for substantive conflicts with constitutional 
principles. As a result, if the constitution promises freedom of 
religion but a constitutional amendment requires a two-thirds 
parliamentary vote before a church is officially recognized (a 
provision that was added to the constitution with the Fourth 
Amendment), the Court can do nothing about this. Or if the constitution 
says anyone may freely express her opinion but an amendment says that 
no one may defame the Hungarian nation (a provision that was also added 
to the constitution with the Fourth Amendment), there is nothing the 
Court can do. These examples show that the government can now directly 
amend the constitution any time it thinks the Constitutional Court 
might strike down some policy that the government wants to enact 
regardless of how much these new amendments violate principles that 
have been guaranteed elsewhere in the constitution. In fact, the Fourth 
Amendment already puts back into the constitution laws that the 
Constitutional Court has already struck down as unconstitutional once 
before under the new constitution.
    To make matters worse, the Fourth Amendment also nullifies all 
decisions made by the Constitutional Court before the new constitution 
took effect. At one level, this makes sense: old constitution, old 
decisions/new constitution, new decisions. But the Constitutional Court 
had already worked out a sensible new rule for the constitutional 
transition by deciding that in those cases where the language of the 
old and new constitutions was substantially the same, the opinions of 
the prior Court would still be valid and could still be applied. 
Otherwise, where the new constitution was substantially different from 
the old one, the previous decisions would no longer be used. 
Constitutional rights are key provisions that are the same in the old 
and new constitutions--which means that, practically speaking, the 
Fourth Amendment annuls primarily the cases that defined and protected 
constitutional rights. With those decisions gone, no one can say for 
certain whether Hungarian law protects free speech, freedom of 
religion, equality of all Hungarians before the law, property rights, 
and virtually every other right in precisely the way that everyone in 
Hungary had come to take for granted.
    What other checks on Fidesz's untrammeled power have now been 
removed in the Fidesz constitution? The independence of the ordinary 
judicial system has taken a big hit. In 2011, the Fidesz government 
suddenly lowered the judicial retirement age from 70 to 62, thus 
removing the most senior 10% of the judiciary, including 20% of the 
Supreme Court judges and more than half of the appeals court 
presidents. Both the Hungarian Constitutional Court and the European 
Court of Justice found that the sudden change in the judicial 
retirement age was illegal.
    The government's first reaction was to defy both courts' judgments, 
before finally agreeing at the end of 2012 to reinstate fired judges 
who wanted to return to their jobs. In the meantime, however, all of 
the court leadership positions were filled with new judges, so the old 
judges who wanted to be reinstated were returned to much less important 
positions. Through this move, the government was able to replace much 
of the top leadership of the judiciary in a single year. One court 
leader who could not have been replaced in this manner (because he was 
too young) was the then-President of the Supreme Court, Andras Baka. He 
was removed from office when the new constitution went into effect 
because of a new requirement, effectively immediately, that judges must 
have five years of judicial experience in Hungary before being named to 
the Supreme Court (newly renamed the Curia). President Baka's 16 years 
of experience as a judge on the European Court of Human Rights did not 
count.
    How were the new judges named? The new president of the Supreme 
Court/Curia was elected by a two-thirds vote of the Fidesz Parliament. 
Beyond that, a new institution was created to oversee the appointment 
of all other judges as well as the administration of the judiciary: the 
National Judicial Office. This office replaced a system of judicial 
self-government. The president of the NJO, elected by two-thirds of the 
Parliament, has the power to hire, fire, promote, demote and discipline 
all judges in the system without any substantive oversight from any 
other institution. The national President has to countersign in cases 
where a judge is appointed for the first time in the system, but it is 
not clear he could refuse to do so. The new leadership of the ordinary 
courts has thus been replaced by judges who owe their careers to an 
official elected by the ``magic two-thirds'' of the Fidesz Parliament.
    The Council of Europe's Commission on Democracy through Law (the 
Venice Commission) sharply criticized the extraordinary powers of and 
general lack of legal standards governing the president of the National 
Judicial Office. The US State Department has also raised questions 
about the independence of the judiciary under this system. In a 
concession to criticism, the Fidesz government agreed to limit the 
powers of the president of the NJO in legislation passed in summer 
2012. But with the Fourth Amendment to the Constitution, those 
concessions are clawed back. The constitution now entrenches the 
National Judicial Office (NJO), whose president has the constitutional 
power to ``manage the central administrative affairs of the courts,'' a 
set of responsibilities in which the judges merely ``participate.'' 
None of the constraints that the Fidesz government agreed to under 
international pressure--requiring a significant role for the judges in 
their own self-government, establishing legal standards for the 
president of the NJO to use in managing the judiciary, and no longer 
allowing the president of the NJO to stay in office until her successor 
is elected--are in the constitution itself. In fact, the concessions 
that the Fidesz government made to Hungary's international critics may 
be unconstitutional now that the Fourth Amendment gives the sole power 
to manage the courts without these constraints to the president of the 
National Judicial Office.
    In another move that has attracted universal criticism, the Fidesz 
government gave the president of the National Judicial Office the power 
to take any case in the entire court system and move it to a court 
different from the one to which normal procedure would assign it. So, 
for example, if a political corruption case against members of the main 
opposition party would normally be assigned to the trial-level court in 
Pest, the president of the National Judicial Office can move the case 
to Kecskemt. In fact, this is not a hypothetical; that very example has 
already happened. The rationale given for this extraordinary power to 
move cases is that the courts are overcrowded and case resolution can 
be speeded up by moving cases to less crowded courts.
    But this rationale is belied by the facts: From public sources, I 
have been keeping track of the movement of these cases in the first 
year that the president of the NJO has had this power. She has moved 
only a few dozen cases away from courts that have thousands of 
backlogged cases. And she has moved the cases not to the least crowded 
courts in the countryside but to other courts that also have backlogs. 
She has moved some of the most high-profile political cases in which 
the political opposition has a stake, leading the opposition to charge 
the government with picking the judges particularly in cases that have 
strong political overtones. While my statistics cannot reveal the 
motivation of the government, they can show that the government is not 
moving a substantial enough number of cases to make a difference in 
waiting times and it is not moving cases from the most to the least 
crowded courts. I am happy to make the data available upon request.
    With the Fourth Amendment passed last week, the power of the 
president of the NJO to move any case to any court in the country is 
entrenched in the constitution itself. And the constitution does not 
include the legal constraints that Hungary agreed to under pressure. 
Giving power to the president of the NJO to select which court handles 
individual cases outside the rules of ordinary legal procedure is for 
many--myself included--the end of the rule of law in Hungary.
    The Constitutional Court and the ordinary judiciary have suffered a 
severe blow under the Fidesz constitution. Other independent 
institutions have fared no better.
    The ombudsman system, which once comprised four independent 
ombudsmen with independent jurisdictions, has now been folded into one 
office with a much smaller staff. The former data protection ombudsman 
was fired and the office has been absorbed directly into the 
government, something that has generated an infringement action 
launched by the European Commission against Hungary at the European 
Court of Justice because EU law requires an independent data privacy 
officer.
    As of two weeks ago, the central bank has a new governor, who moved 
to that job from being minister of the economy. He used his ministerial 
power to unilaterally change the rules for the central bank. Without 
the need for parliamentary approval or Court review, then, Gyorgy 
Matolcsy, as the Fidesz economics minister, gave the office of Gyorgy 
Matolcsy, the new central bank governor, dramatically increased powers 
just before he moved from one job to the next. The charter of the 
central bank, as it turns out, is not even a statute passed by 
Parliament but a document that either the bank itself or the minister 
of the economy can change at will.
    The new media council has a chair appointed directly by the prime 
minister and a membership that consists exclusively of members elected 
by the Fidesz parliamentary two-thirds, both for nine-year terms. The 
media council has draconian powers to levy bankrupting fines based on a 
review of the content of both public and private media, including 
broadcast, print and internet media. A Constitutional Court decision 
freed the print media from some of these constraints, but the Fidesz 
government could now easily amend the constitution to bring the print 
media back under control and the Constitutional Court could say nothing 
further about it.
    The election commission has been revamped and now consists 
exclusively of members who have been elected by the Fidesz 
parliamentary two-thirds majority, all for terms of nine years. While 
each party with a national list in the next election (scheduled for 
April 2014) will have a temporary member on the commission during the 
campaign, opposition parties will be easily outvoted by the Fidesz 
majority.
    The legal framework for the 2014 election is still in flux. The 
Fidesz parliamentary two-thirds has already enacted two election laws 
over vociferous protest from opposition parties, creating an even more 
disproportionate system than the one it replaced. One law gerrymanders 
the districts for the next election in such a way that it will be very 
difficult for the opposition to win. The law even fixes the exact 
boundaries of election districts in a cardinal law that requires a two-
thirds vote of the Parliament to change. This law also eliminates the 
second round of voting for single-member districts so that someone 
without majority support in a district can enter Parliament, which was 
not previously the case.
    The government passed a second cardinal law on elections that 
instituted a system of voter registration, even though the country has 
conducted more than 20 years of elections with an excellent ``civil 
list'' that has never produced any complaints of irregularity. The 
Constitutional Court struck down voter registration as 
unconstitutional, and for now the governing party seems to have given 
up on this idea. But with its parliamentary two-thirds vote, the 
government has the power to override the Constitutional Court by simply 
adding voter registration to the constitution. The government may also 
change other important features of the election system right up until 
the election takes place. In fact, at the moment, the election 
framework is presently incomplete. Among other things, no rules have 
yet been devised for making and verifying voter lists for ethnic 
Hungarians in the neighboring states who have recently become eligible 
for citizenship as the result of constitutional changes.
    The Fourth Amendment added new electoral rules just last week. The 
amendment created a constitutional ban on political advertising during 
the election campaign in any venue other than in the public broadcast 
media, which is controlled by the all-Fidesz media board. Moreover, 
only parties with national party lists can advertise at all in the 
national media, which might exclude smaller and newer parties. These 
restrictions had been previously declared unconstitutional by the 
Constitutional Court, so the government amended the constitution to 
override that decision. And since these provisions are now in the 
constitution itself, the Constitutional Court cannot review them again.
    But suppose that, despite all of the obstacles that the current 
governing party has put in the way of the political opposition, an 
opposition coalition manages to win the next election. The Fidesz 
constitution has created a trap that can be snapped in just such a 
case. The constitution creates a national budget council with the power 
to veto any future budget that adds to the national debt, which any 
foreseeable budget will do. The members of the budget council have been 
chosen by the Fidesz two-thirds majority for terms of 6 or 12 years and 
can be replaced only if two-thirds of the parliament can agree on their 
successors when their terms are over. Not only does this mean that, for 
three elections cycles out, any future government must follow a 
budgetary course agreed on by a council where all of the members were 
elected by the Fidesz government, but this budget council has even more 
power than that.
    The constitution requires the Parliament to pass a budget by March 
31 of each year. If the Parliament fails to do so, the president of the 
country can dissolve the Parliament and call new elections. When this 
provision is put together with the powers of the budgetary council, the 
constraints on any future government are clear. If a new non-Fidesz 
government passes a budget that adds to the debt, that budget can be 
vetoed by the all-Fidesz budgetary council at any time, including on 
the eve of the budget deadline given in the constitution. The 
parliament would then miss the deadline and the president (also named 
by Fidesz and serving through 2017) could call new elections. And this 
process can be repeated until an acceptable government is voted back 
into power.
    The Fidesz government may have created this unfortunate interaction 
of constitutional provisions inadvertently in an earnest attempt to 
create a binding mechanism to achieve budget discipline. But it would 
be easy for the Fidesz government to achieve fiscal discipline without 
creating this anti-democratic trap. The Fidesz government could amend 
the constitution to require that the budget council veto the budget by 
a deadline that would give the Parliament time to pass a new budget 
before the president gains the power to dissolve it. I have personally 
suggested this to high-level members of Fidesz, but an amendment to 
this effect has so far not appeared.
    There is more that could be said about the new Fidesz constitution. 
I have only mentioned what I take to be the biggest obstacles posed to 
constitutionalism and democracy by this new constitutional framework.
    What can be done about the Fidesz consolidation of power by the 
United States, the US Helsinki Commission, and by the Organization for 
Security and Cooperation in Europe?
    First, of course, Hungarian democracy must be created and 
maintained by Hungarians themselves. But a democratic public must be an 
educated public and Hungarians themselves need to learn what has 
happened to their own constitution over the last three years. Most have 
no idea, and not because they couldn't or wouldn't understand.
    The government celebrated its new constitution with great fanfare. 
They set up ``constitutional tables'' at every town hall where people 
could sign up to receive their very own copy of the constitution. Last 
June, the government presented to every secondary school graduate a 
coffee-table book with the words of the new constitution illustrated 
with historic and specially commissioned paintings. But much of what I 
have mentioned above is not contained in the text that government has 
distributed. Many of the most worrisome provisions that I have 
highlighted here are in the constitutional amendments made since that 
time or in the cardinal laws that can only be accessed through reading 
the immensely difficult legalese of the Magyar Kozlony. These laws are 
posted online only in PDF form, not searchable unless one goes through 
each individual daily issue separately.
    Hungary's friends, including the United States, could assist 
financially with a program to educate citizens, lawyers and judges in 
Hungary about the new constitutional framework in Hungary. A public 
education campaign about the new constitutional structure--conducted by 
Hungarian constitutional experts from the government, from the 
opposition and from academia--may assist in giving Hungarians better 
information about their new constitutional system. Such a campaign 
would be especially effective if it could be conducted through the 
broadcast media in Hungary, though since the government functionally 
controls the broadcast media through its Media Council, some monitoring 
system would have to be put in place to ensure that both the government 
and opposition voices are heard. Having read thousands of petitions 
that ordinary Hungarians sent to the Constitutional Court in the 1990s, 
I am confident that Hungarians themselves will rise to the defense of 
both democracy and constitutionalism once they see the dangers of a 
flawed constitutional design.
    Second, the Hungarian government vociferously claims that it is 
still a democracy because political parties may freely organize for the 
parliamentary elections next year. But its critics are concerned that 
the government presently controls the media landscape, has enacted a 
number of legal provisions that disadvantage opposition parties, and 
continues to change the electoral rules. In fact, nothing prohibits the 
government from changing important elements of the electoral framework 
at the last minute. With the election only one year away, it is 
important to get the rules of the game fixed--fairly--as soon as 
possible.
    The OSCE has expertise in monitoring elections to ensure that they 
are free and fair. The OSCE should insist that the electoral rules be 
settled far enough ahead of the election so that all who want to 
contest the election have a reasonable amount of time to organize 
themselves accordingly.
    Enough questions have been raised about the willingness of the 
current Hungarian government to recognize the political opposition that 
the OSCE/ODIHR should also fully monitor the 2014 Hungarian 
parliamentary elections. This should include not just election-day or 
long-term monitoring missions. The comprehensively changed new 
constitutional framework warrants an early Needs Assessment Mission 
from OSCE/ODIHR, one that can fully review the effects of all the new 
provisions. It should focus on the ability of political parties to 
organize and to get their message out, access to the media, and the 
fairness of the basic election framework including the creation of 
electoral districts and the compatibility of both the content and 
timing of the new electoral rules with the principles of free and fair 
elections.
    Third, the US government should press the Hungarian government to 
live up to its international commitments to democracy, 
constitutionalism, the rule of law and robust rights protection. The US 
should be vigilant in monitoring backsliding from the high level of 
constitutional democratic protections that Hungary had achieved after 
1989 and the US should cooperate with the Venice Commission, the 
Council of Europe Parliamentary Assembly Monitoring Committee, and the 
European Union (for example, the LIBE Committee of the European 
Parliament), all of which have ongoing monitoring processes in place.
    But the US government should also be aware that, under pressure, 
the Fidesz government has in the past promised minor changes to its 
comprehensive framework and then has discarded those changes when the 
pressure lifted. Moreover, the changes that the Fidesz government has 
previously offered to make do not really address the key problems of 
the system. The Fidesz constitutional framework is a highly redundant 
system that must be understood as a whole. Each individual legal rule 
cannot be evaluated by itself because one must understand the function 
of that rule in the larger system. Changing a number of small features 
of this constitutional order may not in fact address the most serious 
problem--which is the concentration of political power in the hands of 
one party. In deciding whether the Hungarian government has been 
responsive to international and domestic criticism, Hungary's allies 
need to examine whether proposed changes really alter the way this 
complex and integrated system works as a whole.
    The US should resist entering the battle of competing checklists of 
constitutional features. The Hungarian government often insists that 
some other European country has the same individual rule that its 
friends criticize. Perhaps we should remember Frankenstein's monster, 
who was stitched together from perfectly normal bits of other once-
living things, but who was, nonetheless, a monster. No other 
constitutional democracy in the world, let alone in Europe, has the 
combination of constitutional features that Hungary now has. In 
evaluating Hungary for its compliance with international standards, its 
international friends must look at the whole constitutional system and 
not just at individual pieces as it assesses whether Hungary still 
belongs to the family of constitutional democracies.
    Finally, Hungary is a small country in Europe. It may be hard to 
see why the United States should spend any of its political capital to 
address what former Secretary of State Hillary Clinton called Hungary's 
backsliding from constitutional democracy. There are two main reasons 
why the US should care, apart from the fact that it is painful to see 
any country retreat from democracy and one should always be concerned 
about the people adversely affected.
    Hungary is a partner with the US not only in the OSCE, but also in 
NATO. OSCE commits its member states to the protection of human rights 
as defined under the Helsinki Final Act of 1975, and long experience 
shows that human rights receive their best protection from the 
maintenance of a constitutional and democratic government, both of 
which are now in doubt in Hungary. The NATO Charter creates a union of 
states ``determined to safeguard the freedom, common heritage and 
civilisation of their peoples, founded on the principles of democracy, 
individual liberty and the rule of law.'' But these commitments are 
also being challenged by the concentration of power in Hungary under 
its new constitutional framework. Both the OSCE and NATO commit its 
member states to good behavior and good government, which these 
organizations should be able to monitor.
    In addition, other countries in Hungary's neighborhood are looking 
with great interest at what Hungary is doing. They can see that the 
European Union, the Council of Europe, the OSCE, NATO and the United 
States have limited influence and ability to induce a national 
government to change its domestic laws. Hungary's neighbors understand 
that Hungary is getting away with consolidating all political power in 
the hands of one party, and many find that enticing. Troubling recent 
developments in Romania, Bulgaria and Slovenia show that the Hungarian 
problem of overly concentrated power could spread if the US and its 
European allies don't stand up for their values in the Hungarian case. 
The US should therefore treat constitutional problems in Hungary with a 
sense of urgency, both because of the speed with which this system is 
being locked in and because of the likelihood that the Hungarian 
constitutional disease could spread around the neighborhood.
    In closing then, I strongly urge the United States, the US Helsinki 
Commission and the OSCE to take Hungary seriously, engage with the 
Hungarian government on matters of constitutional reform, and work 
toward ensuring that the channels of democratic participation remain 
open in Hungary so that the Hungarian people retain the capacity to 
determine the sort of government under which they will live. The legal 
changes I have described today pose a real danger to fundamental 
democratic and constitutional values, and Hungary's friends need to 
sound the alarm.
           Prepared Statement of Sylvana Habdank-Kolaczkowska

    Senator Cardin and Congressman Smith, thank you for this 
opportunity to appear before the commission and discuss recent 
developments affecting civil society in Hungary. The topic is one of 
pressing importance, not only for democracy in Europe, but for the fate 
of similar young democracies around the world.
    Freedom House's annual Nations in Transit report, which focuses 
specifically on democratic governance in the postcommunist world, and 
our global surveys Freedom in the World and Freedom of the Press have 
all drawn attention to the vulnerabilities and potential threats to 
democracy created by legislative changes affecting Hungary's media 
sector, data protection authority, and judicial system. We remain 
deeply concerned by the restructuring and restaffing of Hungarian 
public institutions in a way that appears to decrease their 
independence from the political leadership. The ongoing use of Fidesz's 
parliamentary supermajority to insert these and a surprising array of 
other legislative changes into Hungary's two-year-old constitution is 
also extremely troubling, particularly because some of the measures had 
already been struck down by the Constitutional Court.
    I was asked to comment specifically on recent Hungarian media 
regulation and the law on churches, which I will do briefly now.
    Changes introduced in 2010 consolidated media regulation under the 
supervision of a single entity, the National Media and 
Infocommunications Authority, whose members are elected by a two-thirds 
majority in parliament. A subordinate body, the five-person Media 
Council, is responsible for content regulation. Both the Media 
Authority and the Media Council currently consist entirely of Fidesz 
nominees, and they are headed by a single official who has the 
authority to nominate the executive directors of all public media. The 
head of the Media Authority and Media Council is appointed by the 
president for a nine-year term. This year, the government responded to 
criticism of the appointment process by introducing term limits and 
minimum background qualifications, but those will only take effect when 
the current officeholder's term expires, six years from now.
    The particular issues of concern to us are the broad scope of 
regulatory control and content requirements (for example, the 
definition of ``balanced'' reporting) and the lack of safeguards for 
the independence of the Media Authority and Media Council.
    Under the revised version of the so-called Hungarian Media Law, the 
Media Council is officially responsible for interpreting and enforcing 
numerous vaguely worded provisions affecting all print, broadcast, and 
online media, including service providers and publishers. The council 
can fine the media for ``inciting hatred'' against individuals, 
nations, communities, or minorities. It can initiate a regulatory 
procedure in response to ``unbalanced'' reporting in broadcast media. 
If found to be in violation of the law, radio and television stations 
with a market share of 15 percent or higher may receive fines 
proportional to their ``level of influence.'' These fines must then be 
paid before an appeals process can be initiated. Under the Media Law, 
the Media Authority can also suspend the right to broadcast.
    The Media Council is also responsible for evaluating bids for 
broadcast frequencies. Freedom House applauds the council's recent 
decision to grant a license to the opposition-oriented talk radio 
station Klubradio for its main frequency, in line with a recent court 
ruling. However, we regret that it took nearly two years and four court 
decisions for the council to reverse its original decision, during 
which time the radio station operated under temporary, 60-day licenses 
and struggled to attract advertisers. The episode has cast a shadow on 
public perceptions of the Media Council, even among those who were 
previously prepared to believe that a one-party council could function 
as a politically neutral body.
    In 2011, the Hungarian National News Agency, MTI, became the 
official source for all public media news content. The government-
funded agency publishes nearly all of its news and photos online for 
free, and allows media service providers to download and republish 
them. News services that rely on paid subscriptions cannot compete with 
MTI, and the incentive to practice ``copy-and-paste journalism'' is 
high, particularly among smaller outlets with limited resources. The 
accuracy and objectivity of MTI's reporting has come under criticism 
since the Orban government came to power in 2010. Under the Media Law, 
the funding for all public media is centralized under one body, the 
Media Service Support and Asset Management Fund, supervised by the 
Media Council.
    Hungary's Constitutional Court has attempted to push back against 
some of the more problematic legal changes introduced since 2010. At 
the end of 2011, it annulled several pieces of legislation affecting 
the media. For example, it excluded print and online media from the 
scope of the sanctioning powers of the Media Authority; revoked the 
media authority's right to demand data from media service providers; 
deleted a provision limiting the confidentiality of journalists' 
sources; and eliminated the position of media commissioner, an 
appointee of the Media Authority president with the power to initiate 
proceedings that do not involve violations of the law but can 
nevertheless be enforced by fines and sanctions. These revisions, most 
of which were confirmed by the parliament in May 2012, represent only a 
small fraction of those recommended by the Council of Europe. Moreover, 
they may not even prove permanent, given the government's recent habit 
of ignoring or overruling Constitutional Court decisions by inserting 
voided legislation into the constitution.
    This seems likely to be the fate of the law on churches, which the 
court struck down last month, but which has already made a reappearance 
in a proposed constitutional amendment that is currently under 
consideration. The law essentially strips all but 32 religious groups 
of their legal status and accompanying financial and tax privileges. 
The over 300 other previously recognized groups are allowed to apply 
for official recognition by the parliament, which must approve them 
with a two-thirds majority.
    It should be noted that the previous regulations were quite 
liberal, with associated financial benefits fueling an often 
opportunistic proliferation of religious groups over the last two 
decades. However, the new law has the potential to deprive numerous 
well-established and legitimate congregations of their official status 
and privileges. More fundamentally, the law represents another instance 
in which the parliamentary supermajority has given itself new power 
over independent civil society activity. The fact that the parliament 
will have the right to decide what is and is not a legitimate religious 
organization is without precedent in postcommunist Hungary.
    Many of the areas targeted for reform by the Orban government, 
including public media, health care, the education system, and even 
electoral legislation, were in need of reform long before the April 
2010 elections brought Fidesz to power. No government until now has 
felt emboldened or compelled to address so many of these problem areas 
simultaneously. However, speed and volume in lawmaking cannot come at 
the expense of quality, which only broad consultation and proper 
judicial review can ensure. Nor should reforms create hierarchical 
structures whose top tier, again and again, is the dominant party in 
parliament. Voters can still change the ruling party through elections, 
providing some opportunity for corrective measures, but the ubiquitous 
two-thirds majority thresholds in recent legislation make it extremely 
difficult for any future government to tamper with the legacy of the 
current administration.
    Ongoing economic crisis and political frustration in Europe are 
likely to yield other governments that feel empowered to reject 
international advice, make sweeping changes that entrench their 
influence, and weaken checks and balances, damaging democratic 
development for many years to come. But such behavior can be deterred 
if early examples like the situation in Hungary are resolved in a 
positive manner.
    The threats to democracy that Freedom House has observed in Hungary 
are troubling in their own right, but they are particularly disturbing 
in the sense that the United States has come to rely on the countries 
of Central Europe to help propel democratization further east, and 
indeed in the rest of the world. The idea that these partners could 
themselves require closer monitoring and encouragement bodes ill for 
the more difficult cases in Eastern Europe and the Caucasus. It is 
therefore essential that the United States and its European 
counterparts closely coordinate their efforts to address backsliding in 
countries like Hungary and support them on their way back to a 
democratic path.
    Thank you.
                 Prepared Statement of Paul A. Shapiro

    Mr. Chairman, Mr. Vice-Chairman, Distinguished Members of the 
Commission:
    The Commission on Security and Cooperation in Europe continues to 
focus the world's attention on manifestations of anti-Semitism, anti-
Romani prejudice, and other threats to democracy as they appear in 
Europe and elsewhere. On behalf of the United States Holocaust Memorial 
Museum, I would like to thank you for organizing this important hearing 
regarding democracy and memory in Hungary.
    Over a hundred years ago, the Spanish-born American philosopher 
George Santayana wrote that ``Those who cannot remember the past are 
condemned to repeat it'' (The Life of Reason, Vol. 1, 1905). In mid-
1944, the Jewish community of Hungary--the last major Jewish community 
in Europe that was still largely intact--was assaulted and nearly 
destroyed in its entirety over the course of a few months in mid- and 
late-1944. Today, the memory of that tragedy is under serious challenge 
in Hungary, with consequences that we cannot yet fully predict, but 
which are ominous.
The Holocaust in Hungary
    Before addressing what appears to be a coordinated assault on 
memory of the Holocaust, or at least a concerted attempt to rewrite 
Holocaust history, permit me to briefly review the history. According 
to Professor Randolph Braham's authoritative 2-volume The Politics of 
Genocide: The Holocaust in Hungary, the Jewish population of Hungary at 
the start of World War II totaled just over 825,000 souls. Many of 
these Jews lived in territories that Hungary had recently occupied or 
re-acquired from neighboring countries as Hungary's Regent and Head of 
State, Admiral Miklos Horthy, participated as an ally of Adolf Hitler 
in the destabilization of Europe and the dismemberment of 
Czechoslovakia (in 1938 and 1939), then Romania (in 1940), then 
Yugoslavia (in 1941). Hungary withdrew from the League of Nations and 
joined Nazi Germany in its military invasion of the Soviet Union in 
June 1941. Unlike Italy, which withdrew from its German alliance in 
1943, and unlike Romania, which did the same in 1944, Hungary remained 
allied with Nazi Germany to the end, until the country was overrun by 
Soviet military forces advancing on Germany from the east. As a result 
of these government policies, the Hungarian military suffered some 
300,000 casualties during the war.
    Of the country's 825,000 Jews, nearly 75 percent were murdered. 
Antisemitism in Hungary did not arrive from abroad. Miklos Horthy's 
Hungary was the first European country after World War I to put in 
place numerus clausus legislation, which restricted Jewish 
participation in higher education (1920). Racial laws similar to those 
of Nazi Germany, which defined Jews based on religion and ``race,'' and 
deprived them of the right to practice their professions, to own land, 
and which forbade intermarriage, were passed in 1938 and 1939. With war 
came the systematic theft of Jewish property and mass murder. In 1941, 
20,000 ``foreign Jews,'' who were residents of Hungary but not 
Hungarian citizens, were deported across the border by Admiral Horthy's 
government to Kamenetz-Podolsky in Ukraine, where they were executed by 
waiting German forces. Hungarian troops executed another 1,000-plus 
Jews during their invasion of northeast Yugoslavia that same year. Over 
40,000 of the Jewish men conscripted into Jewish forced labor 
battalions and taken to the eastern front, armed only with shovels to 
dig defenses for the Hungarian military, died there of exposure, killed 
in battle areas, or massively executed by the Hungarians as they 
retreated following their defeat at the battle of Stalingrad in early 
1943. Then, between April and July 1944, over 400,000 Hungarian Jews 
were driven from their homes, concentrated in ghettos, and deported to 
Auschwitz, where the overwhelming majority of them were gassed on 
arrival. It was the Hungarian gendarmerie and police who identified and 
concentrated the Jews, loaded them onto trains, and delivered them into 
the hands of German SS units waiting at the German-Hungarian border. 
This process continued systematically until only the Jews of Budapest 
remained alive.
    Admiral Horthy, whose governments had done all of this, hesitated 
to use the same tactics against the Jews in Budapest that he had 
sanctioned in the rest of the country. After Horthy was ousted 
following the invasion of Hungary by German forces in mid-October, in 
the wake of a last-minute attempt to extricate Hungary from its 
alliance with Hitler (Soviet troops were already advancing across the 
country's borders), the Hungarian fascist Arrow Cross Party (Nyilas) 
government that took over had no such hesitation. The weeks that 
followed saw a combination of forced ghettoization in Budapest; death 
marches involving men, women and children, whose slightest misstep was 
rewarded with a bullwhip or a bullet; and renewed deportations to 
Auschwitz. Nyilas gangs engaged in wild shooting orgies in Budapest. 
They massacred the patients, doctors and nurses at the Maros Street 
Jewish Hostpital, to give just one example, and considered it sport to 
shoot Jews seized at random into the Danube from the riverbank. Three 
months of Nyilas government cost the lives of an additional 85,000 
Hungarian Jews.
    Hungarian collaboration and complicity in the Holocaust was thus 
substantial, as were the losses suffered by this once-large and great 
Jewish community. Statistics can speak volumes. Nearly one in ten of 
the approximately six million Jews murdered in the Holocaust was a 
Hungarian Jew. One of every three Jews murdered at Auschwitz was a 
Hungarian Jew. And while every country in which the Holocaust took 
place would like to place ultimate responsibility on someone else, we 
must be clear. These Jewish men, women, and children--from grandparents 
to grandchildren and great-grandchildren--were murdered either directly 
by, or as a result of collaboration by, Hungarian government 
authorities, from the Regent, Miklos Horthy, and the ``Leader of the 
Nation'' (Nemzetvezeto) Ferenc Szalasi who succeeded him, at the 
highest level, to the civil authorities, gendarmerie, and police, as 
well as military forces and Arrow Cross thugs, who represented the 
government from the capital to the smallest Hungarian village and town 
where Jews lived. Some 28,000 Romani citizens of Hungary were also 
deported and fell victim to this horrific carnage.
The Early Post-Communist Period
    How has the history of the Holocaust been treated in Hungary since 
the fall of communism? A decade ago, I would have said quite decently. 
During Viktor Orban's first term as Prime Minister (1998-2002), the 
coalition government that he led established a national Holocaust 
Commemoration Day and brought Hungary into the International Task Force 
for Cooperation on Holocaust Education, Remembrance and Research (since 
renamed the International Holocaust Remembrance Alliance or IHRA). The 
government also appointed a commission to create a Holocaust Memorial 
and Documentation Center (HDKE) in Budapest. In 2004 I attended the 
dedication at the HDKE of what was rightly recognized one of the best 
exhibitions on the Holocaust in continental Europe.
    The Socialist Party governments from 2002 to 2010 remained on this 
positive path.
    But during these years, the situation in Hungary began to change 
dramatically. In late 2008, at a European regional conference on anti-
Semitism held in Bucharest, Romania, I expressed concern about the 
public display in Hungary of symbols associated with the wartime 
fascist Arrow Cross Party, increasing incidents of anti-Semitic 
intimidation and violence, and anti-Romani discourse that was 
increasingly Nazi-like in tone. A party of the extreme right called 
Jobbik (abbreviation for ``Movement for a Better Hungary'') made its 
appearance in 2003. Its leader also created a so-called Magyar Garda, 
or ``Hungarian Guard'' force, formations of which paraded through 
Budapest and towns elsewhere in the country, dressed in uniforms 
reminiscent of Arrow Cross uniforms, brandishing fascist symbols and 
slogans and intimidating the remnant of the country's Jewish community 
that had survived the Holocaust and remained in Hungary. An especially 
noteworthy indication of change was the failure of the then out-of-
power, but still powerful Fidesz party to join with other major 
political parties in forceful condemnation of Jobbik's anti-Semitic and 
anti-Romani sloganeering and Magyar Garda intimidation of Jews and 
violence against Roma.
Recent Developments
    In the 2010 elections, Fidesz received 52 percent of the vote and 
returned to government with an empowering two-thirds majority in the 
Hungarian Parliament. Jobbik, however, which was already being 
described in European political and media circles as ``fascist,'' 
``neo-fascist,'' ``neo-Nazi,'' ``racist,'' ``anti-Semitic,'' ``anti-
Roma,'' and ``homophobic,'' had obtained nearly 17 percent of the vote. 
In this circumstance, regrettably, the warning signs apparent in 2008 
regarding Fidesz proved to be accurate. Still led by Prime Minister 
Orban, he and his party changed their approach to issues of the 
Holocaust. In the judgment of some people, this was the result of a 
desire to appeal to Jobbik voters and thus secure better prospects for 
future electoral victory than the just experienced 52 percent 
performance. Others were less inclined to see the change as mere 
political maneuver, and more inclined to see it as reflecting the 
internal prejudices and beliefs of Fidesz itself.
    The United States Holocaust Memorial Museum praised publicly some 
actions of the first Fidesz government. But attempts over the past 
three years to trivialize or distort the history of the Holocaust, 
actions that have given rein to open manifestations of anti-Semitism in 
the country, and efforts to rehabilitate political and cultural figures 
that played a part in Hungary's tragic Holocaust history, now require 
us to be publicly critical. In June of last year, the Museum issued a 
press release expressing grave concern about the rehabilitation of 
fascist ideologues and political leaders from World War II that is 
taking place in Hungary and called on the government of Hungary to 
``unequivocally renounce all forms of antisemitism and racism and to 
reject every effort to honor individuals responsible for the genocide 
of Europe's Jews.'' Our Founding Chairman, Nobel Laureate Elie Wiesel, 
repudiated a high decoration that had been conferred on him by Hungary, 
to protest these same trends.
    What are the causes of our concern? They begin with the broad 
political trends that the Commission is examining today. For anyone who 
is familiar with the history of Nazi Germany and the other fascist and 
authoritarian regimes that appeared in Europe in the middle of the 20th 
century--and especially for Holocaust survivors who experienced the 
full fury of those times and those regimes--what is happening in 
Hungary today will sound eerily familiar and ominous.
    The Hungarian government has enacted laws to place restrictions on 
the media. Just recall the Nazis' manipulation of the media if you need 
a reminder of the danger to democracy that this represents and where it 
can lead. Think of all you know about Joseph Goebbels and the images 
that you can conjure up of Nazi propaganda. Control the media, and this 
is where you can end up.
    The Hungarian government has taken steps to politicize and 
undermine the independence of the judiciary, and now through amendment 
of the constitution, to undermine the ability of the judiciary to 
review government-generated laws and decrees. Recall, please, the 
undermining of the practice and administration of law, the racist 
Nuremberg Laws of 1935, and the subversion of the judiciary in Nazi 
Germany and elsewhere in Nazi-dominated Europe. Ultimately, lawlessness 
on the part of the government and mass murder were the results.
    Hungary's law on religion has stripped many religious groups of 
their officially recognized status as ``registered'' religions, in 
effect depriving them of equal rights and making the legitimacy of 
religious faith an object of political whim. For Jews and Jehovah's 
Witnesses, Polish Catholics, Seventh Day Adventists, Baptists, Old 
Believers and others, the echo of the Holocaust era could not be more 
powerful. Delegitimizing one's faith delegitimizes the person.
    Racial violence, including outright murder, against the Romani 
minority in Hungary, while not perpetrated by the government, has not 
been effectively addressed by the government either. When Szolt Bayer, 
a founding member of Fidesz, whose brutal anti-Semitic rhetoric has 
long been recognized and commented upon in European and Israeli media, 
wrote an editorial in the newspaper Magyar Hirlap (Jan. 5, 2013) in 
which he called ``Gypsies'' ``cowardly, repulsive, noxious animals,'' 
that are ``unfit to live among people,'' are ``animals and behave like 
animals,'' and incited action by calling for dealing with them 
``immediately, and by any means necessary,'' it was not possible to 
miss the echo of the despicable propaganda campaigns of dehumanization 
that preceded the mass murder of the Jews of Europe, Hungarian Jews 
included. Hungary's Justice Minister made a statement critical of 
Bayer, but no legal action by the government followed. Here was what we 
Americans would call a classic ``wink and a nod'' approach by the 
government. Nor was the author of this vile incitement to violence 
expelled from Fidesz. The party's spokesperson also finessed the issue 
in a manner that has become all too common: Szolt Bayer wrote the 
article as a journalist, not as a Fidesz party member, was the line 
taken. The Prime Minister and leader of Fidesz remained silent, giving 
a clear sign that the views that had been expressed by Bayer were not 
unacceptable. If there is one thing that the Holocaust teaches above 
all others, it is that silence empowers the perpetrator, empowers the 
hater; and when it is the head of government that is silent, silence 
messages assent and license to proceed.
    This pattern has unfortunately become the norm, perhaps giving 
answer to the question of whether it is maneuver or conviction that is 
determining the actions of the Hungarian government and Fidesz vis-a-
vis the Holocaust.
Assault on Memory of the Holocaust
    Is the history of the Holocaust secure in Hungary today? Thus far, 
the government's actions raise serious doubt.
    The Holocaust Memorial and Documentation Center (HDKE): Shortly 
after Fidesz returned to power, the government appointed new leadership 
at the Holocaust Memorial and Documentation Center. Then, a series of 
proposals to change the permanent exhibition at the Center were made by 
Dr. Andras Levente Gal, the new Fidesz-appointed Hungarian State 
Secretary in the Ministry of Public Administration and Justice, which 
had governmental oversight of the Center. Gal's first proposal was to 
eliminate mention of Miklos Horthy's alliance with Adolf Hitler and 
participation in the dismemberment of three neighboring states--
Czechoslovakia, Romania, and Yugoslavia--as ``irrelevant'' to the 
Holocaust. Yet, violation of the post-World War I national boundaries 
brought war in Europe, and war provided opportunity and cover for the 
mass murder of the Jews. Moreover, it was precisely the Jews of the 
regions that Hitler restored to Hungary who were the first targets of 
the Hungarian gendarmerie and police as they drove to create a country 
``cleansed of Jews.'' Gal's second proposal was to sanitize the record 
of Hungarian participation in the ghettoization and deportation of the 
country's Jews and placed full blame for the destruction of Hungarian 
Jewry on Germany. Word of the proposed changes leaked out, and there 
was strong international reaction. Thus far the exhibition remains 
intact. But much of the staff of the HDKE was fired, and budget 
allocations to the Center as late as last December left the staff that 
remained fearful that they, too, would be released. Meanwhile, 
visitation to the Center has declined, and the lack of mandated 
Holocaust education in the school system has left the institution 
severely underutilized.
    Eventually, Andras Levente Gal left his position, and government 
officials noted that he was gone if the issue of changing the permanent 
exhibition at the HDKE was raised. But Gal remains an insider, and at 
no point did the government, or Fidesz party spokespeople, or the Prime 
Minister publicly criticize or issue a rebuke of Mr. Gal's attempt to 
distort and sanitize Holocaust history. This left the impression 
publicly that what Mr. Gal had tried to do was fine in the eyes of the 
government and Fidesz, probably even inspired from above. Gal simply 
had not succeeded in getting the job done.
    The Nyiro Affair: A similar situation developed in the aftermath of 
the so-called Nyiro affair. Last spring, Speaker of the Hungarian 
National Assembly (Parliament) Laszlo Kover, who is a founding member 
of Fidesz, together with Hungarian State Secretary for Culture Geza 
Szocs, and Gabor Vona, the leader of Jobbik, united to honor 
posthumously Jozsef Nyiro (1889-1953), a Transylvanian-born writer and 
fascist ideologue, and member of Hungary's wartime parliament from 1941 
to 1945. Nyiro served as Vice-chair of the Education Commission in the 
Arrow Cross regime of Ferenc Szalasi. He was a member of the pro-Nazi 
National Association of Legislators, and was one of a group of 
legislators in the so-called ``Arrow Cross Parliament'' that left 
Budapest and fled the country together with Szalasi in the final days 
of the war. Nyiro had been a popular writer of short stories and novels 
in the 1930s and 1940s, but he also characterized Joseph Goebbels as 
someone who ``exudes intellect and genius.'' In parliament, Nyiro 
labeled the ``discredited liberal Jewish heritage'' the enemy of 
Hungary and, dispensing race hatred in all directions, called Hungarian 
marriages with non-ethnic Hungarians ``mutt marriages'' and ``mule 
marriages.'' Nyiro was editor-in-chief of the newspaper Magyar Ero 
(``Hungarian Power''), whose editorials proclaimed that ``Getting rid 
of the Jews is not a mere sign of the times, nor the agenda of a 
political party, but a unified and pressing demand of all nations that 
have recognized the Jewish threat and come to the conclusion that life 
without Jews is much better, much happier'' (Magyar Ero, Nov. 6, 1942).
    Nyiro passed away in Franco's Spain. The plan developed by Kover, 
Szocs and Vona was to rebury Nyiro's ashes in Transylvania, while 
attempting to whip up nationalistic sentiment among the ethnic 
Hungarian minority there through an elaborate official funerary 
procession that would wend its way by train from the Hungarian border 
to Nyiro's birthplace, Odorheiu Secuiesc (Szekelyudvarhely), some 200 
miles inside Romania and close to the easternmost demarcation line of 
the Romanian territory awarded to Hungary by Nazi Germany in 1940. In 
the end, the Romanian government protested, there was no train, but the 
Hungarian officials I have mentioned still participated in an 
``unofficial'' burial ceremony, following which Kover, accompanied by 
Szolt Bayer, stayed on in Romania for the purpose of visiting with the 
ethnic Hungarian (and Szekler) communities in Transylvania. 
Diplomatically, the incident was not quite the equivalent of Admiral 
Horthy astride his white horse leading the Hungarian army into the 
regions of Transylvania given him by Adolf Hitler, as happened in 1940. 
But symbolically, this was the intent.
    How did the Fidesz government deal with this incident? Speaker 
Kover personally was unrepentant. He labeled the Romanian Government's 
action to prevent the reburial plan ``uncivilized,'' ``paranoid,'' and 
``hysterical,'' and he called on the Hungarian ethnic minority in 
Transylvania to ``press the books of Nyiro into the hands of their 
children'' so that ``a new generation of Nyiros'' would be raised 
there. He responded to criticism by Elie Wiesel by claiming that he was 
honoring Nyiro the writer, not Nyiro the politician. Moreover, wrote 
Kover, Nyiro was neither a war criminal, nor a fascist, nor anti-
Semitic, for if he had been, how could one explain the fact that the 
Allies did not put him on trial after the war or extradite him to 
Hungary in response to requests by the by-then Communist government of 
the country? Pushing back by laying blame on others in this manner has 
become a frequent tool in the Hungarian government's responses to 
criticism of its actions. The Prime Minister, for example, responded to 
a letter from a Member of the U.S. House of Representatives (Hon. 
Joseph Crowley, 14th Dist., NY) by laying blame for the rise of anti-
Semitism in Hungary on a U.S.-based web site (kuruc.info), the 
implication being that the Hungarian government could do nothing until 
the United States dealt with its First Amendment ``problem.'' 
Meanwhile, Laszlo Kover has remained Speaker of the Hungarian 
parliament, and recently proclaimed his eternal solidarity with Szolt 
Bayer (see above) at Bayer's 50th birthday celebration.
    As in the case of Andras Levente Gal, neither Fidesz nor the 
Hungarian government, nor the Prime Minister himself, took any action 
to criticize publicly or disassociate themselves from what Kover and 
Szocs had attempted. Quite the contrary. The detailed ``Communications 
Guidelines to Counter Accusations of Antisemitism'' that was sent to 
Hungarian diplomats abroad following the Nyiro affair instructed the 
government's representatives to stress that Speaker Kover participated 
in the memorial ceremony for Nyiro ``in his private capacity,'' not as 
Speaker of the National Assembly, and that Nyiro's record should be 
appraised based on his literary merits, not his political activity. In 
other words, the government was comfortable seeking to gloss over 
Nyiro's involvement in a regime that perpetrated the Holocaust. The 
government's talking points failed to mention that the Hungarian 
Parliament had spent 6 million forints (over $25,000) on preparations 
for the reburial, or that Speaker Kover's web site had announced his 
planned trip to Romania as an official visit. As for Szocs, after some 
delay he left office. His departure is noted by government 
representatives when inquiries are made, but there has been no 
government statement linking his departure to the Nyiro affair or 
indicating that he was fired.
    Anti-Semites in the National Curriculum: Nyiro's name and legacy 
became issues again in connection with a review and proposed revision 
of Hungary's national public school curriculum that was initiated by 
the Fidesz government and is being carried out by the Ministry of 
National Resources. The government has proposed to include among the 
interwar authors whose works it is recommended teachers present to 
their students Jozsef Nyiro (novels), Albert Wass (children's tales), 
and Deszo Szabo, among others. The guidelines in the National 
Curriculum provide no assistance to help teachers provide contextual 
information about these writers--including information about their 
political activities that might help teachers decide whether and how to 
teach about them. I have already discussed Nyiro. Let me introduce 
Deszo Szabo and Albert Wass, without attempting to evaluate the 
literary merits of their prose. Deszo Szabo wrote, ``Jews are the most 
serious and the most deadly enemy of Hungarians. The Jewish question is 
a life and death question for Hungarians--a question that is linked to 
every aspect of Hungarian life and the Hungarian future'' 
(``Antiszemitizmus,'' Virradat [Dawn], Jan. 21, 1921); and two months 
later, after designating Judaism ``a tribal superstition exalted as a 
religion,'' concluded ``In the interest of human progress, the 
barbarian, murderous memories of dark, primeval centuries [that is, the 
Jews--PAS] must be exterminated'' (``1848 marcius 15,'' Virradat, Mar. 
16, 1921). Albert Wass, like Nyiro born in Transylvania, was convicted 
by the Romanian government of war crimes during his service in the 
Hungarian army, including complicity in the documented murder of two 
Jews and two Romanians in Hungarian-administered Transylvania during 
World War II. This did not prevent the incoming President of Hungary, 
Fidesz Deputy President Pal Schmitt from quoting Wass in his inaugural 
address in 2011.
    In addition to the inclusion of problematic figures such as these, 
each of whom either fostered anti-Semitism or participated politically 
or militarily in regime-sponsored murder, the draft National Curriculum 
also stresses the country's territorial losses after World War I as 
Hungary's singular national tragedy, while suggesting equivalency with 
lesser significance between the Holocaust and Hungarian military losses 
on the Don River (Stalingrad) during World War II. Equating the loss of 
military forces to an enemy in battle with the systematic, racially 
inspired murder of civilian men, women and children who are citizens of 
one's own country, solely because they are of different religion or 
ethnicity, of course makes no sense, unless motivated by prejudice and 
intended to reinforce prejudice.
    Finally, while some information relating to Jewish history and the 
contributions of Jews to Hungarian intellectual, cultural, and economic 
life were included in the new National Curriculum approved at the end 
of 2012, the information fell short of the subject matter suggested by 
a consortium of Hungarian Jewish organizations. In a classic case of 
the government seeking to have it both ways, directing students' 
attention to the likes of Nyiro, Szabo and Wass will likely undercut 
any positive effect of the new material reflecting positively on Jews, 
unless the latter is considerably expanded. Hungarian Jewish 
organizations have petitioned the government to remove these ``anti-
Semites'' from the curriculum, but thus far the reply has been 
negative; indeed, it has been a more rigorous coordinated defense of 
the three ``writers.''
    The tactic of seeking to divert attention elsewhere to deflect 
criticism has been mobilized on the curriculum issue. Government 
spokespeople have responded to criticism from the United States, for 
example, by pointing out that Henry Ford, Charles Lindbergh, and Ezra 
Pound are included in American high school curricula, despite their 
demonstrable anti-Semitism. At this point, downplaying the significance 
of anti-Semitism as a factor to be considered, undermining 
understanding of the contributions of Hungarian Jewry to Hungarian 
national life, while trivializing and relativizing the significance of 
the Holocaust have been codified as elements of the Hungarian 
educational system that the Fidesz government has designed.
    Rehabilitation of Holocaust Perpetrators: Hand in hand with 
attempts to whitewash Hungarian collaboration and complicity during the 
Holocaust, hand in hand with efforts to justify Hungary's alliance with 
Nazi Germany, has gone a growing effort to rehabilitate the murderers. 
See Nyilas operative Nyiro as a writer who deserves to be honored as a 
national icon, not as a fascist. See Albert Wass as a writer of 
children's tales, not as a convicted war criminal. In this context, it 
is hardly surprising that we are witnessing the attempted 
rehabilitation of Admiral Horthy himself. Several towns have erected 
statues or placed plaques on buildings in his honor (e.g., in Kereki 
and Debrecen). Placing an equestrian statue of the Regent on Budapest's 
Castle Hill has also been discussed. In other localities, streets, 
parks and public squares now bear his name (e.g., in Gyomro).
    When asked to take action to halt the de facto rehabilitation of 
Hungary's anti-Semitic interwar and wartime leader, during whose tenure 
as Regent a half million Hungarian Jews were killed, the Hungarian 
government responds evasively. The government is not seeking to 
rehabilitate Horthy, goes the standard line, but it is important to 
realize that Horthy is a ``controversial'' figure. Foreign Minister 
Janos Martonyi, responding to a joint letter addressed by the American 
Jewish Committee, B'Nai B'rith, and our Museum to Prime Minister Orban, 
adopted precisely this approach, stating, on the one hand, ``that the 
Hungarian Government has no intention to rehabilitate Regent Horthy,'' 
but qualifying the assurance with a reminder that ``there is no 
consensus of opinion about his legacy'' (Martonyi letter of July 18, 
2012). Implicit in such a response is that the government's approach 
could change if a consensus favorable to Horthy develops. Meanwhile, 
the government has taken advantage of the situation, and in the process 
added its weight to a more positive evaluation of Horthy, by playing to 
nationalist and populist sentiments, seeking to purge Horthy's record 
as a Hitler ally, and glorifying the restoration of Hungary's ``lost 
territories'' that Horthy was able to achieve, if only for a few years. 
The government has not taken serious steps to research and more 
rigorously evaluate Horthy's record. It has certainly not placed equal 
emphasis on his record of anti-Semitism and complicity in the murder of 
the country's Jews. Nor has it sought to defuse tensions with Hungary's 
neighbors by tempering the country's fixation on the so-called ``lost 
territories''--territories that today are parts of Austria, Slovakia, 
Ukraine, Romania, Croatia, and Serbia.
    Indeed, rather than assuming the responsibility of government to 
clarify issues of historical and political significance, Fidesz and the 
Hungarian government have thrown up a smokescreen to further confuse 
the Horthy issue by allowing--perhaps encouraging--people who speak for 
or represent Fidesz and the Hungarian Government to suggest that the 
fact that Horthy was not put on trial by allied authorities after the 
war is sufficient to indicate that Horthy's record was clean (Author's 
conversation with Tamas Fellegi, December 3, 2012). This tactic of 
shifting ``responsibility'' for the problem abroad, as we saw with the 
Nyiro case and regarding the kuruc.info web site, has become routine. 
But it hardly suffices to cleanse the reputation of Miklos Horthy, who 
could write with pride to his Prime Minister in 1940, ``I have been an 
anti-Semite my whole life,'' and to Adolf Hitler in May 1943, ``The 
measures that I have imposed have, in practice, deprived the Jews of 
any opportunity to practice their damaging influence on public life in 
this country'' (Miklos Sinai and Laszlo Szucs, Horthy Miklos titkos 
iratai [Miklos Horthy's Secret Correspondence], Budapest, 1965, pp. 262 
and 392). Given his lifelong record of anti-Semitism and his complicity 
in the murder of the Jews of Hungary, the attempt to rehabilitate 
Miklos Horthy, or to condone his elevation even to the status of 
someone whose reputation is ``controversial,'' might reasonably be 
considered a manifestation of anti-Semitism.
    The government has labeled the statues, streets and other Horthy 
monuments that have appeared around the country local initiatives which 
the national government has no way to prevent. The fact that the Fidesz 
government has an overwhelming parliamentary majority, has promulgated 
a new national constitution, and has recently passed dramatic new 
constitutional amendments that limit the power of the Constitutional 
Court to review the content of legislation, obviates the credibility of 
such assertions.
    In short, the history of the Holocaust is under assault in Hungary 
and the rehabilitation of some of the people responsible for the murder 
of 600,000 of the country's Jews during the Holocaust is well under 
way. An atmosphere has been created in which it is understood that 
anti-Semitic and anti-Romani discourse, and even intimidation and 
violence, will not elicit effective government action to alter the 
situation. The government and people perceived to be closely tied to it 
may, in some cases, issue after-the-fact statements condemning anti-
Semitic or anti-Romani discourse and deed. But they are just as likely 
not to do so, thus messaging clearly that such expression and activity 
is, in fact, acceptable. The participation of Fidesz members and 
government officials in activities that further inflame the toxic 
atmosphere is clear. Such behavior requires swift and public censure, 
including disavowal and censure by the Prime Minister himself. But this 
has not happened. Government spokespeople assert that the problem is 
Jobbik, but neither they nor the Prime Minister have thus far 
forcefully and publicly condemned Jobbik as outside the boundaries of 
what is acceptable in a democratic society.
    Nor have the leaders of Fidesz distanced their party unequivocally 
from Jobbik. When a party member or spokesperson makes a stronger 
statement of condemnation of Jobbik, or takes a clearly critical 
position vis-a-vis a manifestation of anti-Semitism or trivialization 
or obfuscation of the Holocaust, the statement is very frequently 
qualified, almost immediately, as a personal opinion, not a 
governmental or party opinion. Thus, when Antal Rogan, leader of the 
Fidesz faction in parliament, spoke out against Jobbik at a public 
demonstration in front of the parliament building on December 2, 
following an inflammatory speech by Jobbik MP and Vice Chairman of the 
parliamentary Foreign Affairs Committee Marton Gyongyosi, who proposed 
that lists of Jews be kept because Jews represented a national security 
risk, Fidesz representatives pointed out the following day that Rogan 
had been speaking in his personal capacity, not on behalf of the party. 
A similar occurrence took place in Washington on February 27, 2013, 
when Tamas Fellegi, a confidant of Prime Minister Orban, testified in 
these august halls before a subcommittee of the U.S. House of 
Representatives Committee on Foreign Affairs, at a hearing on 
``Antisemitism: A Growing Threat to All Faiths.'' Mr. Fellegi took up 
defense of the Hungarian government by stating that while Jobbik is 
``an openly anti-Semitic party,'' ``[t]here is a clear line of 
demarcation between Jobbik, and the center-right government and all 
other mainstream parties.'' He delivered a lengthy and forceful defense 
of the Prime Minister's party and performance in the first and second 
Orban administrations. But when, perhaps to impress his independence of 
opinion on his listeners, he allowed that the ``infamous commentaries 
of [Fidesz member] Szolt Bayer'' could be ``deemed as racist,'' and 
stated opposition to the ``rehabilitation of the historic period of 
Admiral Horthy,'' he immediately made it clear that these were only his 
personal views.
A Way Forward?
    The issue that must be addressed, given the record I have 
described, is how to find a way forward in combatting anti-Semitism and 
ensuring Holocaust remembrance and education in Hungary. Every 
criticism, explicit or implicit, in this testimony has been intended to 
identify a problem that can be solved, not to induce despair or the 
sense that the problems cannot be solved. It is important to remember 
that Hungarian society emerged from communist dictatorship less than 25 
years ago. It is important to remember that Fidesz was, at its origin, 
a democratic movement in a totalitarian era. And it is important to 
recall that it was the current Prime Minister, Mr. Orban, who during 
his first administration established Hungary's national Holocaust 
Commemoration Day and laid the foundation for establishment of the 
Holocaust Memorial and Documentation Center in Budapest. Thus the 
potential for sensitivity to the dangers inherent in anti-Semitism and 
distortion or trivialization of the Holocaust exists.
    And yet, in today's Hungary it was possible for a female member of 
parliament to be shouted down and ridiculed by MPs from both Jobbik and 
Fidesz, when she questioned the wisdom of rehabilitating Miklos Horthy 
and members of the Arrow Cross (Hungarian National Assembly, May 29, 
2012). It was possible for Jobbik's Marton Gyongyosi to suggest in the 
parliamentary chamber that Jews were a national security risk, and to 
experience no formal censure, only belated criticism by the government, 
followed by refusal of the state prosecutor to pursue legal sanctions 
that had been requested by the Jewish community (Hungarian National 
Assembly, November 27, 2012). It is possible for Magyar Garda units to 
continue to assemble and march, to intimidate Jews and Roma, despite a 
formal legal ban. It is possible for incremental rehabilitation to be 
under way for political figures who aligned the country with Adolf 
Hitler; participated in the disruption of peace in Europe and the 
murder of 600,000 Hungarian Jews and thousands of Romani; adopted 
policies that resulted in hundreds of thousands of Hungarian military 
casualties; and, ultimately, bore responsibility for policies that led 
to the occupation of the country by Soviet military forces and led to 
45 years of communist dictatorship. It is even possible for the legacy 
of such people to be labeled ``controversial'' by Fidesz and Hungarian 
government spokespeople.
    In 2012, three major Holocaust-related monuments in Budapest--the 
Holocaust Memorial and Documentation Center, the memorial statue 
honoring Raoul Wallenberg, and the iconic bronze shoes on the banks of 
the Danube which memorialize the 10,000 or more Jews shot into the 
river during the final months of the war--were vandalized. A 2012 
survey by the Anti-Defamation League identified Hungary as the European 
country where anti-Semitic attitudes are most widespread.
    Under circumstances such as these, we believe that it is the 
responsibility of the Prime Minister to lead and the government to take 
remedial action, not to equivocate, excuse, deflect, seek to divert 
attention elsewhere, or lobby. The Hungarian government, by virtue of 
its overwhelming parliamentary majority, is able to act, and for 
precisely this reason bears responsibility for what is or is not done 
vis-a-vis manifestations of anti-Semitism and Holocaust issues.
    To be fair, the government has taken some steps of potential 
significance in the right direction in recent months. In November, 
Parliament passed a ban on the naming of public institutions or spaces 
after individuals who played a role in establishing or sustaining 
``totalitarian political regimes'' in the 20th century. In December, 
the Government provided supplemental funding to the Holocaust Memorial 
and Documentation Center to permit the Center to keep its doors open 
and pay its staff through the remainder of the current fiscal year. A 
week after the incident and in the wake of a major public demonstration 
on December 2 to protest Jobbik MP Gyongyosi's suggestion that name 
lists of the country's Jews be created, Prime Minister Orban finally 
criticized Gyongyosi's remarks as ``unworthy of Hungary.'' Later in the 
month, the Speaker of the Hungarian Parliament was given authority to 
censure and potentially exclude from the chamber and fine MPs who used 
hate speech during parliamentary sessions. The government has also 
established a Hungarian Holocaust 2014 Memorial Committee, under 
auspices of the Prime Minister's Office, to plan commemorative events 
for the 70th anniversary of the mass deportation and murder of 
Hungarian Jewry.
    The actual impact of each of these steps, however, remains to be 
seen. It is unclear whether Hungary's wartime governments, those under 
the authority of Miklos Horthy as well as the government headed by 
Ferenc Szalasi, will be considered to fall under the rubric of 
``totalitarian political regimes.'' The Horthy statues and memorial 
plaques and spaces remain in place, even though the new law stipulates 
that existing memorials within the purview of the law were to have been 
removed by January 1, 2013. The Holocaust Memorial and Documentation 
Center, while open, remains severely underutilized and unable to pursue 
much of the educational mission for which it was created. While he did 
criticize Gyongyosi's speech, albeit belatedly, Prime Minister Orban 
has yet to clearly draw a line that definitively separates Fidesz from 
Jobbik. Nor has he publicly censured or repudiated members of Fidesz, 
such as Szolt Bayer, who engage in distasteful and incendiary racist 
and anti-Semitic discourse. It remains to be seen whether the Speaker's 
new authority actually will be put to use to control anti-Semitic and 
anti-Romani discourse in parliament. The activities to be undertaken by 
the 2014 Memorial Committee remain to be defined. Whether or not they 
effectively reduce anti-Semitic manifestations in Hungary and clarify 
for the country's population issues that today are deemed 
``controversial,'' relating to Hungary's wartime governments and the 
Holocaust, will be the only true measures of the significance of the 
current government's action.
    Moreover, the steps that the Government has taken, even if all 
implemented and effective, in our view will not suffice to address the 
full range of issues relating to anti-Semitism and the Holocaust that 
confront the country. The United States Holocaust Memorial Museum has 
engaged in broad-ranging consultations with organizations in the United 
States with which we regularly work, with members of Prime Minister 
Orban's staff, with other members of the Hungarian Government, 
including Ambassador Gyorgy Szapary, who represents his government in 
Washington, and with NGO leaders, representatives of the Hungarian 
Jewish community, and representatives of mainstream opposition 
political parties in Hungary. Based on these consultations and our own 
experience, in December we recommended the following to the Prime 
Minister's Office:
    a) Establish and appoint a state-sponsored International Commission 
of Scholars to prepare a definitive report on the history of the 
Holocaust in Hungary, including the history of anti-Semitism in the 
country, and to make recommendations to the Government regarding future 
Holocaust memorialization, education and research activities. The 
Museum has provided the Prime Minister's Office with information 
regarding the establishment and organization of such commissions in 
other European countries. While the placement within the government of 
responsibility for organizational, administrative, and financial 
support for such a commission is clearly to be determined by the 
Hungarian government, following appointment of the Hungarian Holocaust 
2014 Memorial Committee, under auspices of the Office of the Prime 
Minister, we have further suggested that the International Commission 
of Scholars be established under the same auspices. The two-year time 
frame established for the Memorial Committee would coincide very well 
in practical terms with the time needed for preparation of a thorough 
report by the International Commission of Scholars.
    b) Enact legislation (or amend existing legislation) to prevent the 
creation of monuments to, naming of streets or other public sites in 
memory of, or otherwise honoring individuals (including but not limited 
to Regent Miklos Horthy) who played significant roles in the Holocaust-
era wartime governments of Hungary. Clarify the inclusion of these 
governments in the November 2012 law regarding individuals involved in 
Hungary's 20th century ``totalitarian political regimes.''
    c) Mandate in the Hungarian secondary school curriculum that every 
student in the country visit the Holocaust Memorial and Documentation 
Center in an organized class visit during his/her final four years of 
high school education. This would require the provision of subsidized 
transportation for students and teachers for day trips to and from 
Budapest; enhancement of staff and management at the Center; and the 
provision of additional space to the Center for student briefings and 
post-visit discussions (potentially a rented nearby apartment 
retrofitted as classroom/meeting room space). The initiative would 
finally and effectively capitalize on the investment that Hungary has 
already made in creating the Center.
    d) Ensure that the Speaker of the Parliament consistently applies 
the recently established authority of the Speaker to censure, suspend, 
and fine MPs for expressions of racist and anti-Semitic views, or use 
of other forms of hate speech. In addition, we recommend that such 
censure be publicly announced, through official statements by the 
Office of the Speaker issued to the media.
    e) Institute a policy of censure by the Office of the Prime 
Minister of ranking members of government ministries who participate, 
in either public or ``private'' capacity, in activities that are likely 
to reinforce racist, anti-Semitic or anti-Romani prejudices or that 
appear to rehabilitate the reputations of individuals who participated 
in the wartime governments of Hungary. Such censure should be publicly 
announced through official statements issued by the Office of the Prime 
Minister to the media.
    f) Issue to the media an unequivocal statement by the Prime 
Minister clearly defining the racist and extremist views expressed by 
Jobbik as lying outside the boundaries of acceptable discourse in a 
democratic society and totally unacceptable within the Prime Minister's 
own political party, Fidesz. Members of the Prime Minister's party who 
express similar views should be publicly reprimanded.
    Our Museum has confirmed to the Hungarian Government that we stand 
ready to be helpful. We have offered to host here in Washington one of 
the plenary meetings of the proposed International Commission of 
Scholars that would be required to enable members to complete the 
drafting, debate and discussion of a comprehensive Commission report. 
We believe that the actions we have suggested would help to reverse the 
dangerous downward cycle which appears to define events in Hungary 
today. In just a few weeks, Museum Director Bloomfield and I will be 
participating in the dedication of a new permanent exhibition at the 
Mauthausen Camp Memorial (KZ-Gedenkstatte Mauthausen) in Austria. Late 
in the war, thousands of Hungarian Jews who had been selected for labor 
in Auschwitz were ``transferred'' to Mauthausen. Many perished during 
death marches that stretched between the two camps. Most of those who 
reached Mauthausen perished there. In the shadow of that history, 
Director Bloomfield and I have offered to travel to Budapest following 
the Mauthausen dedication ceremony to meet with Prime Minister Orban 
and those to whom he has entrusted responsibility for dealing 
constructively with Holocaust issues and combatting manifestations of 
anti-Semitism. We are hopeful that we will receive a positive response.
    In the meantime, the Museum has planned a number of scholarly 
activities for the coming year that will sustain focus on Hungary and 
secure the historical record regarding what happened there during the 
Holocaust. In April, we will publish, in partnership with Northwestern 
University Press, a three-volume encyclopedia, edited by Professor 
Randolph Braham of the City University of New York, that provides 
information--county by county, town by town, village by village--on the 
pre-Holocaust Jewish community of Hungary and the events of the 
Holocaust in each respective community. Professor Braham, who is a 
survivor of the notorious Hungarian Jewish labor battalions established 
by the Horthy regime, is the world's leading expert on this history. 
Later during the year, we will publish a document collection on The 
Holocaust in Hungary as part of our archival studies series 
``Documenting Life and Destruction.'' And in March of next year, on the 
70th anniversary of the beginning of deportations of Hungarian Jewry to 
Auschwitz, we will host at the Museum a major international conference 
on the Holocaust in Hungary. When first proposing to the Hungarian 
government the establishment of an International Commission of Scholars 
on the Holocaust in Hungary, I had hoped that a plenary session of the 
Commission might coincide with and be coordinated with this conference. 
Timely action to establish a Commission might still allow for a degree 
of coordination.
Conclusion
    Today's hearing is focused on the trajectory of democracy and the 
danger of extremism--in the form of racism, anti-Semitism, and 
Holocaust trivialization--in Hungary. I have described trends that 
potentially undermine the safety of Jews, Roma, and other minorities in 
Hungary and that threaten the ability of Hungarians to come to grips 
with the truth regarding the Holocaust--a national tragedy of a 
different era. Democracy and memory: I want to stress that these two 
concerns are interrelated. Undermine democracy, and the rights of human 
beings deemed to be ``different'' are easily violated. The Hungary of 
World War II provided an extreme example. And misrepresenting the 
tragedies of one's national past--trivializing them, relativizing them, 
or failing to clarify issues of fact when they become ``controversial'' 
or are distorted for political purpose--forces those in power to 
subvert democratic practice, to control the media, manipulate electoral 
mechanisms, and adopt increasingly extreme ``populist'' and jingoist 
stances, in the hope of staying in power permanently--an outcome that 
is only available in dictatorships, never in democracies.
    I know that lobbyists are not seen in every instance in a favorable 
light. But I appear today on behalf of the United States Holocaust 
Memorial Museum as a lobbyist for the truth, a lobbyist for 600,000 
Hungarian Jews and thousands of Hungarian Romani who cannot be here. 
Their lives were snuffed out due to the decisions, prejudices and 
failures of their country's leadership--Miklos Horthy, Ferenc Szalasi, 
and numerous other political and military leaders, fascist ``writers'' 
like Nyiro, Szabo, and Wass--and those who collaborated or were 
directly complicit in acts of theft, deportation and murder.
    Will Hungary become a source of instability in Europe, this time in 
the heart of the European Union, as it was in the late 1930s? Will 
ethnic and religious minorities, including a Jewish community of 80-
100,000 souls remain free of harassment and safe there? Will this 
country, which was once home to a Jewish population that numbered over 
800,000, trivialize memory of the Holocaust and lead a revival of anti-
Semitic sentiment in Europe? Are contemporary developments appropriate 
for a state that is a member of the International Holocaust Remembrance 
Alliance (IHRA), a member of the European Union, and a member of NATO?
    I will restrict my response to my assigned topic and expertise--the 
Holocaust and anti-Semitism. Some weeks ago, Hungary volunteered to 
assume the chair of the International Holocaust Remembrance Alliance in 
2015. Given the current situation, which I have endeavored to describe, 
this would be inappropriate and an insult to the living and desecration 
of the memory of the dead. Ultimately, of course, the decision will be 
taken by the state members of the IHRA, in all likelihood based on more 
practical and political considerations. But I would hope that before 
any decision is taken, including by our own representatives at the 
IHRA, the Hungarian Government will alter the approaches that it has 
taken in addressing anti-Semitism and Holocaust issues in Hungary, 
adopt the suggestions our Museum has made, and guide Hungary--a country 
with much to be proud of in its history--onto a path that is admired 
and praised rather than scorned and criticized. Representatives of 
Fidesz and the Hungarian Government with whom I have spoken frequently 
complain that their missteps are always criticized, while their 
positive actions are never commended. I for one, and the institution I 
represent here, commit to praise when positive steps are taken.
    I began these remarks by citing philosopher George Santayana. I 
would like to conclude by quoting our Museum's Founding Chairman and 
Nobel Laureate Elie Wiesel, who was sent to the ghetto by Hungarian 
gendarmes and deported with his family to Auschwitz while Miklos Horthy 
served as Regent of Hungary. ``There may be times when we are powerless 
to prevent injustice,'' wrote Wiesel, ``but there must never be a time 
when we fail to protest.'' I hope that my testimony today is sufficient 
protest to stimulate action. On another occasion, Elie Wiesel declared, 
``If anything can, it is memory that will save humanity.'' Securing the 
memory of the Holocaust in Hungary is essential.
    Mr. Chairman, I request that my written statement be included in 
the record in full.
Testimony Concerning the Condition of Religious Freedom in Hungary, H. 
                 David Baer, Texas Lutheran University

    In July 2011, Hungary's Parliament passed Act C of 2011 ``on the 
Right to Freedom of Conscience and Religion, and on the Legal Status of 
Churches, Religious Denominations and Religious Communities.'' Act C of 
2011 was a cardinal law, requiring a 2/3 parliamentary vote to be 
passed or amended. However, the law was passed through a highly 
irregular parliamentary procedure inappropriate for legislation on such 
a fundamental matter as religious freedom. An initial bill was brought 
to the floor by a representative of the Christian Democratic People's 
Party (KDNP), a coalition party in the ruling government, but two hours 
before the final vote, a member of Fidesz, Janos Lazar, proposed an 
amendment from the floor that changed the bill in its entirety. Lazar's 
surprise version of the bill was debated on the floor for two hours and 
passed by Parliament.
    On December 19, 2011, the Constitutional Court struck down Act C on 
the basis of a narrow objection to the irregular procedure by which the 
law was passed. Three days later, on December 22, a new religion bill 
essentially identical to Act C was submitted to Parliament's Committee 
on Constitutional, Legislative and Judicial Matters (Alkotmanyugyi, 
igazsagugyi es ugyrendi bizottsag). The Constitutional Committee 
discussed the bill from 9:09 to 9:53 a.m. and then forwarded it to 
Parliament, where debate was taken up and closed the very same day. 
Although representatives in Parliament had less than 24 hours to 
consider the contents of the bill and propose amendments, it was passed 
as Act CCVI of 2011 and went into effect January 1, 2012.
    Act CCVI of 2011 introduced an elaborate registration procedure for 
legal recognition of churches. The Act stipulates that religious groups 
seeking legal recognition must conform to numerous criteria, almost all 
of which are problematic. Some criteria presuppose a substantive 
definition of religion that is biased toward Christianity. For example, 
groups seeking legal recognition need to have ``a confession of faith 
and rites containing the essence of its teaching.'' Although this 
criterion may be appropriate for what are called ``orthodox'' 
religions, that is, religions like Christianity which emphasize 
confessional and official teaching, it is hardly appropriate for what 
are called ``orthoprax'' religions, that is, religions like Judaism and 
Buddhism which emphasize religious practices but do not produce 
authoritative confessions. Other criteria are excessively burdensome. 
For example, groups seeking legal recognition need to have been 
``operating internationally for at least 100 years or in an organised 
manner as an association in Hungary for at least 20 years.'' Some 
criteria are sweepingly vague. For example, the activities of a 
religious group seeking registration cannot be contrary to the 
Hungarian constitution--a constitution, one might add, that has already 
been substantially amended four times in a single year.
    According to the Act, legal recognition to churches is granted only 
by a 2/3 vote of Parliament. However, even in cases where a religious 
group meets all of the criteria enumerated in the law, Parliament is 
not required to grant that religious group legal recognition. Tamas 
Lukacs, chair of the parliamentary Committee on Human Rights, Minority, 
Civic and Religious Affairs (Emberi jogi, kisebbsegi es vallasugyi 
bizottsag), has stated repeatedly that religious groups do not have a 
right to be legally recognized as a church or religious community, but 
that legal recognition is a matter of political discretion. In Lukacs's 
view the state is free to refuse recognition to religious groups even 
in cases where they meet all the criteria enunciated in law. 
Importantly, the Committee on Human Rights which Lukacs chairs has been 
responsible for determining whether applications by religious groups 
for legal recognition are forwarded to Parliament. Thus Lukacs's views 
on these matters are of consequence.
    When Act CCVI of 2011 was first passed, Parliament recognized only 
14 churches/religious communities, all of which were either Christian 
or Jewish. In February 2012, perhaps in response to international 
pressure, Parliament recognized an additional 13 groups, including 
Muslims, Buddhists, and smaller Christian groups, thereby raising the 
number of recognized churches to 27. (Numerous reports have listed the 
number of accepted churches as 32. However, Act CCVI of 2011 and its 
``annex'' list a total of 27 churches. Five Buddhist communities merged 
and were recognized collectively as one church in the law. If one 
incorrectly adds those five Buddhist groups separately to the list of 
27 accepted churches, one gets 32). Act CCVI of 2011 also stripped all 
religious groups not recognized by Parliament of legal standing, 
forcing them to apply for recognition as civil associations.
Criticisms of Hungary's religion law
    In March 2012, the European Commission for Democracy Through Law 
(Venice Commission) issued an opinion on Act CCVI of 2011. Although the 
Commission raised questions about many aspects of the law, its most 
severe criticism was directed against the procedure by which Parliament 
determined legal recognition. According to the Venice Commission:
    The recognition or de-recognition of a religious community 
(organization) remains fully in the hands of Parliament, which 
inevitably tends to be more or less based on political considerations. 
Not only because Parliament as such is hardly able to perform detailed 
studies related to the interpretation of the definitions contained in 
the Act, but also because this procedure does not offer sufficient 
guarantees for a neutral and impartial application of the Act. . . . 
Motives of the decisions of the Hungarian Parliament are not public and 
not grounded. The recognition is taken by a Parliamentary Committee in 
the form of a law (in case of a positive decision) or a resolution (in 
case of a negative decision). This cannot be viewed as complying with 
the standards of due process of law. (Opinion 664/2012 par. 76-77).
    In fact, as Tamas Lukacs pointed out in the Hungarian media, since 
church recognition is a matter of political discretion, members of 
Parliament are not even required to offer reasons related to the 
criteria enumerated in the law for refusing recognition to a religious 
group.
    That members of Parliament do not feel constrained by the criteria 
set forth in Act CCVI of 2011 was made clear in a meeting of the 
Committee on Human Rights, Minority, Civic and Religious Affairs held 
on November 27, 2012. The Committee considered and rejected an 
application for recognition by a Christian group named Lectorium 
Rosicrucianum. The publicly available minutes from this meeting 
indicate clearly that members of the Committee did not make their 
evaluations on the basis of the criteria enunciated in Act CCVI of 
2011. Maria Wittner, a member of Fidesz, reasoned against legal 
recognition on the following grounds:
    There was a time when we were considered pagans; yet we weren't 
pagans--we believed in one God. Then came the Reformation, the Reformed 
Church, then the Lutheran, and churches have multiplied, even though 
there is only one God. Well, even though I don't believe that this 
association will be able to attract many members in Hungary, I still 
believe that sects should not be considered churches. I don't know for 
what purpose or whether it is to reach worldwide hegemony, but I see 
that the tendency today, even in religion, is to divide and conquer! We 
have Christianity here, we have a Catholic Church, which is more than 
two thousand years old and has existed in Hungary for a thousand years, 
and we have a reformed Church as a result of the Reformation, but what 
I was most struck by is that 187 churches have been registered in this 
country since 1990. Gentlemen! There is only one God! One God! (EMB/
147-1/2012, page 11).
    The inappropriate character of this reasoning will be apparent to 
everyone. The point to emphasize, however, is that Act CCVI of 2011 
allowed reasoning of this sort to be the basis for determining whether 
or not a religious group received legal recognition.
    The troubling features of Act CCVI of 2011 led Hungary's ombudsman 
to file a petition with the Constitutional Court, and numerous 
deregistered religious groups also filed petitions. On February 26, 
2013, in a substantial and carefully reasoned decision, Hungary's 
Constitutional Court struck down as unconstitutional numerous 
provisions within Act CCVI of 2011. Article 7 of Hungary's new 
constitution guarantees religious freedom. Article 15 guarantees 
equality under the law. Articles 24 and 29 guarantee each citizen the 
rights of due process and legal redress. Thus a religious association 
of Hungarian citizens has an equal right to apply for recognition as a 
church by means of a procedure that follows due process and ensures the 
right of legal redress. The provisions for recognition set forth in Act 
CCVI of 2011 failed to do this. Thus the Court struck down those parts 
of the Act in which Parliament had determined legal recognition of 
religious groups.
    Fidesz's response to this, as to other decisions of the high court, 
has been to amend the constitution. The controversial fourth amendment, 
passed on March 11, grants Parliament the authority to determine which 
religious groups are recognized as churches by changing the text of 
article 7 on religious freedom. The provision of Act CCVI of 2011 most 
severely criticized by the Venice Commission has now been written into 
the Hungarian constitution. Reconciling Parliament's power to bestow 
legal recognition with the rights of due process and legal redress will 
be a challenge. Furthermore, article 7 allows Parliament to decide not 
only the content of the law concerning religious freedom, but also its 
application in individual cases. Such a provision would appear in 
tension with the separation of powers principle enshrined in article C 
of Hungary's constitution.
Impact of Hungary's religion law on unrecognized religious groups
    In addition to undermining principles of constitutionalism, Act 
CCVI of 2011 has had a significant impact on religious groups not 
legally recognized by Parliament. As a consequence of the Act numerous 
religious communities that had been legally recognized as churches 
prior to 2011 were stripped of their status. Indeed, Act CCVI of 2011 
completely replaced the legal regime that had governed religious 
freedom in Hungary since 1990. Thus far not much attention has been 
directed toward assessing the impact of deregistration on those groups. 
The Venice Commission opinion focused on the registration procedure 
itself, as did the ruling of the Constitution Court. But in the 
meantime deregistered religious communities have been forced to adapt 
to a new legal context in which they are denied what most Americans 
would consider basic aspects of the right of religious freedom.
    Over the past six months I have been working to assess the impact 
of Act CCVI of 2011 on Hungary's unrecognized religious communities. 
Using public records and resources available on the internet, I have 
attempted to compile a comprehensive list of Hungary's unrecognized 
religious communities. I also visited Hungary in summer 2012 and 
interviewed numerous representatives of deregistered churches. 
Additionally, I recently completed a survey of deregistered religious 
communities that seeks to measure objective indicators of religious 
discrimination.
    Estimates concerning the number of deregistered churches vary. The 
Hungarian government claims there were well over 300 registered 
churches in Hungary prior to 2011, but has never explained how it 
arrived at this estimate. I have been able to identify 122 deregistered 
churches thus far, some of which ceased operating on their own prior to 
2011. I believe this list to be accurate and close to complete.
    I estimate that somewhere between 160 and 180 independent churches/
religious communities were operating in Hungary prior to passage of Act 
CCVI of 2011, and that the Act deprived approximately 130 religious 
communities of legal recognition. I have been able to establish contact 
with 106 unrecognized religious groups, whom I invited to participate 
in my discrimination survey. Forty-nine groups responded to my inquiry 
and 43 agreed to participate, which translates to a participation rate 
of 40%. I closed the survey only two weeks ago and have not yet run a 
complete statistical analysis of the data. I wish to emphasize, 
therefore, that the statistical information provided below is 
provisional.
    Initial analysis suggests that while almost all religious groups 
report some level of discrimination, the amount of discrimination 
varies significantly, with a little over half of the participants 
reporting what I would call significant discrimination. After Act CCVI 
was passed, deregistered churches were told they must apply for 
recognition as civil associations. Failure to apply for status as a 
civil association, or failure to meet the deadline for applying as 
such, would result in total liquidation of the community's assets, that 
is, appropriation of the community's property by the state. The 
overwhelming majority of religious groups surveyed indicate that they 
have been recognized as civil associations. However, I was able to 
identify two instances were courts ordered the liquidation of a 
community and a few additional instances were a final decision has yet 
to be rendered. Even so, a surprising number of those surveyed, almost 
15%, report that some of their property was liquidated after 
deregistration. Others report, again about 15%, that leases they held 
on rental property were terminated. Among those surveyed, 16% indicated 
they were forced to shut down schools as a consequence of being 
deregistered; 30% indicated they were forced to close down charitable 
organizations; 40% indicated they were forced to abandon additional 
ministries (other than education and charity work).
    Unlike legally recognized churches, religious groups classified as 
civil associations do not enjoy complete internal autonomy. Civil 
associations must have a specific administrative structure. For 
example, they must have a presidency and all members must have the 
right to vote on decisions made by the association. In many cases, 
although not all, these administrative requirements violate the 
religious conscience of believers. Among deregistered religious groups 
participating in my survey, 17% refused to apply for civil association 
status, and many of them reported in written comments that their 
refusal to apply was based on reasons of conscience. These groups now 
live under the fear of court ordered liquidation. Among deregistered 
religious groups that did apply for recognition as a civil association, 
36% reported that they had been required to change their organizational 
structure. Additionally, a high number of respondents, 30%, reported 
that their clergy had been prevented from visiting patients in the 
hospital; 27% reported that they were prevented from visiting persons 
in prison. A small but noticeable number of respondents, a little over 
10%, reported that they had been forced to change their religious 
confession, their official teaching, or worship services in order to be 
recognized as a civil association. Also, unrecognized religious groups 
are not permitted to have the word church in their official name. Among 
those groups applying for recognition as a civil association, 60% 
reported that they had been forced to change their name.
Reasons offered for the new law by the Hungarian government
    When Parliament first passed Act CCVI of 2011, the Hungarian 
government claimed the new law was necessary in order to correct abuses 
made possible by the previous religion law. In the Hungarian media, 
representatives of the government frequently spoke of ``business 
churches,'' an imprecise and polemical term. The claim was that non-
religious organizations were registering themselves as churches in 
order to receive tax exemptions and state subsidies. However, no impact 
studies were conducted, so neither the extent of abuse nor the 
effectiveness of the remedy could be evaluated. The only evidence of 
abuse offered by the government was the claim that more than 300 
churches were operating in Hungary. This number, the government 
believed, was clearly excessive and indirect evidence of the existence 
of ``business churches.'' As already indicated, I believe the 300+ 
estimate is too high. I would also add that in the course of my 
research I have been able to identify only two cases where I suspect 
organizations registered as churches under pretext. The most notable of 
these involves the mayor of Erpatak, a man named Mihaly Orosz who is a 
member of the right-wing political party Jobbik. Mr. Orosz was 
affiliated with, or the founder of, at least four different groups 
registered as churches under the old law.
    Even if there were significant abuse under the old law, having 
Parliament bestow legal recognition on religious groups hardly seems an 
effective remedy. In fact, the possibility of remedy existed under the 
old legal regime, something pointed out by the Constitutional Court in 
its February 2013 ruling. According to the Court, under the old law a 
state prosecutor had a right to request information and investigate a 
church suspected of illegal activity. An organization engaged in 
running a business but seeking registration as a church could thus be 
prevented from registering, or if already registered, prosecuted for 
violations of the law. According to the Constitutional Court, under the 
old law state prosecutors initiated legal proceedings against 
registered churches on a number of occasions.
Conclusion
    When attempting to interpret the behavior of a political regime 
whose decision-making process is not transparent, political scientists 
often attempt to infer intentions from effects. That is, instead of 
taking the public pronouncements of the regime at face value, political 
scientists examine the effects of the regime's actions to determine its 
true intentions. Viktor Orban's government is not transparent. Cardinal 
laws addressing basic human rights and constitutional amendments 
addressing the rule of law are introduced in Parliament and approved in 
a matter of hours. Even after fundamental laws have been passed, they 
are amended immediately whenever the Constitutional Court renders a 
decision not to the government's liking. I therefore submit that the 
best way to understand Viktor Orban is to look not at what he says, but 
at what he does.
    If we look at what the Orban government has done in respect to 
religious freedom, infering intentions from effects, it becomes 
difficult to believe that the intention behind Act CCVI of 2011 was to 
eliminate legal abuses occurring under the old law. First, the Orban 
government never made an attempt to assess the extent and nature of the 
alleged abuse. Second, legal remedy against abuse was already 
available. Third, the negative impacts on religious freedom caused by 
Act CCVI of 2011 were far greater than any legal abuses the Act 
putatively sought to correct. If the aim of the government had been to 
eliminate abuse, much simpler and less destructive solutions were 
available. Addressing the problem of ``business churches'' certainly 
did not require modifying the constitution in a way that allows 
Parliament to bestow legal recognition.
    A more plausible explanation for Act CCVI of 2011 is that the Orban 
government is seeking to hinder the activities of religious groups it 
dislikes, perhaps because it views those groups as ``sects,'' perhaps 
because the leaders of some of those groups have criticized the 
government, or perhaps because the membership of many of those groups 
is Roma. Whatever the Orban government says, its actions indicate that 
it holds the right of religious freedom in low regard.

                                  [all]




 
                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
